<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 2014</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2014

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED THIRTEENTH CONGRESS
                              FIRST SESSION
                                ________

    SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES
                    FRANK R. WOLF, Virginia, Chairman

 JOHN ABNEY CULBERSON, Texas        CHAKA FATTAH, Pennsylvania
 ROBERT B. ADERHOLT, Alabama        ADAM B. SCHIFF, California
 JO BONNER, Alabama                 MICHAEL M. HONDA, California
 TOM GRAVES, Georgia                JOSE E. SERRANO, New York
 THOMAS J. ROONEY, Florida          
 ANDY HARRIS, Maryland              

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              Mike Ringler, Jeff Ashford, Leslie Albright,
                    Diana Simpson, and Colin Samples,
                           Subcommittee Staff
                                ________

                                 PART 7
                                                                   Page
 National Aeronautics and Space Administration Budget Request.....    1
 National Aeronautics and Space Administration Inspector General 
Budget Request....................................................  119
 National Science Foundation Budget Request.......................  167



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                ________

                  U.S. GOVERNMENT PRINTING OFFICE

 82-907                   WASHINGTON : 2013









  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2014

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED THIRTEENTH CONGRESS
                              FIRST SESSION
                                ________
    SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES
                    FRANK R. WOLF, Virginia, Chairman

 JOHN ABNEY CULBERSON, Texas        CHAKA FATTAH, Pennsylvania
 ROBERT B. ADERHOLT, Alabama        ADAM B. SCHIFF, California
 JO BONNER, Alabama                 MICHAEL M. HONDA, California
 TOM GRAVES, Georgia                JOSE E. SERRANO, New York
 THOMAS J. ROONEY, Florida          
 ANDY HARRIS, Maryland              

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              Mike Ringler, Jeff Ashford, Leslie Albright,
                    Diana Simpson, and Colin Samples,
                           Subcommittee Staff
                                ________

                                 PART 7
                                                                   Page
 National Aeronautics and Space Administration Budget Request.....    1
 National Aeronautics and Space Administration Inspector General 
Budget Request....................................................  119
 National Science Foundation Budget Request.......................  167



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE

 82-907                     WASHINGTON : 2013

                                  COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 C. W. BILL YOUNG, Florida \1\         NITA M. LOWEY, New York
 FRANK R. WOLF, Virginia               MARCY KAPTUR, Ohio
 JACK KINGSTON, Georgia                PETER J. VISCLOSKY, Indiana
 RODNEY P. FRELINGHUYSEN, New Jersey   JOSE E. SERRANO, New York
 TOM LATHAM, Iowa                      ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama           JAMES P. MORAN, Virginia
 KAY GRANGER, Texas                    ED PASTOR, Arizona
 MICHAEL K. SIMPSON, Idaho             DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas           LUCILLE ROYBAL-ALLARD, California
 ANDER CRENSHAW, Florida               SAM FARR, California
 JOHN R. CARTER, Texas                 CHAKA FATTAH, Pennsylvania
 RODNEY ALEXANDER, Louisiana           SANFORD D. BISHOP, Jr., Georgia
 KEN CALVERT, California               BARBARA LEE, California
 JO BONNER, Alabama                    ADAM B. SCHIFF, California
 TOM COLE, Oklahoma                    MICHAEL M. HONDA, California
 MARIO DIAZ-BALART, Florida            BETTY McCOLLUM, Minnesota
 CHARLES W. DENT, Pennsylvania         TIM RYAN, Ohio
 TOM GRAVES, Georgia                   DEBBIE WASSERMAN SCHULTZ, Florida
 KEVIN YODER, Kansas                   HENRY CUELLAR, Texas
 STEVE WOMACK, Arkansas                CHELLIE PINGREE, Maine
 ALAN NUNNELEE, Mississippi            MIKE QUIGLEY, Illinois
 JEFF FORTENBERRY, Nebraska            
 THOMAS J. ROONEY, Florida             
 CHARLES J. FLEISCHMANN, Tennessee     
 JAIME HERRERA BEUTLER, Washington     
 DAVID P. JOYCE, Ohio                  
 DAVID G. VALADAO, California          
 ANDY HARRIS, Maryland                 

 ----------
 \1\ Chairman Emeritus    
                          WILLIAM L. OWENS, New York

               William E. Smith, Clerk and Staff Director

                                  (ii)

 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2014

                              ----------                             
                                         Wednesday, March 13, 2013.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

                                WITNESS

HON. CHARLES F. BOLDEN, JR., ADMINISTRATOR, NATIONAL AERONAUTICS AND 
    SPACE ADMINISTRATION

                       Chairman's Opening Remarks

    Mr. Wolf. The hearing will come to order. Good morning. I 
would like to welcome everyone to today's hearing on the 
National Aeronautics and Space Administration. Our witness is 
NASA Administrator Charles Bolden.
    We appreciate your being here.
    We are going to have a vote about 2:25, and then we will 
come right back. And then I think the next vote is at 4:30 or 
so, and I think hopefully we will finish by then.
    As I mentioned in the subcommittee's first agency budget 
hearing yesterday, we are operating in an unusual environment 
this year due to the lateness of the President's budget request 
and the uncertainty about when the request will finally be 
submitted by OMB. As a result, we will spend less time today 
discussing NASA's specific budget proposal for next year and 
more time talking about general priorities and about issues 
that reflect on how NASA is managing the money that it has.
    Some of those issues, such as the regular occurrence of 
cost and schedule overruns on major NASA programs, are 
longstanding concerns. Others, like NASA's management strategy 
for assisting commercial partners in the development of new 
systems for crew transportation to the International Space 
Station, are relatively new. For a large and broad agency such 
as NASA, there is a nearly endless supply of these type of 
issues that we could focus on as part of the discussion about 
how to make NASA the most effective manager of its funds.
    One issue, in particular, I want to spend some time on 
today is the quality of enforcement within NASA's internal 
security regime. It is critically important for us to have 
confidence in NASA's ability to protect sensitive technologies 
and information from exploitation by entities that are looking 
to gain an advantage over the United States economically or 
militarily.
    The subcommittee has worked very hard over the past few 
years to protect our research and development programs from the 
full impact of recent budget reductions. But we cannot continue 
to do this if NASA cannot assure us that those investments will 
be adequately protected from entities and countries that have 
been designated as potential threats.
    One of the designated countries of greatest concern is 
China. We know that China is an active, aggressive espionage 
threat and that, according to a recent White House report, the 
technologies that NASA works on, aerospace and aeronautics 
technology, are those that the Chinese have most heavily 
targeted. I suspect that this focus on stealing space- and 
flight-based technology explains at least some of the major 
advances that the Chinese space program has made over the past 
few years.
    Those advances challenge both our preeminent position in 
human space flight, but also international security, as China's 
space program is run exclusively by its military, the People's 
Liberation Army. For all these reasons, I am particularly 
attuned to any allegation that a lapse in security has provided 
China or any other designated country access to sensitive 
information that is supposed to be protected under our export 
control laws and other relevant statutes.
    As you know, several allegations involving both the Ames 
and Langley Research Centers have recently been brought to my 
office by NASA career civil servants. These are all career 
people who have had a long history of service; no one is of a 
political nature. These allegations have raised concerns about 
NASA's ability to control sensitive information at events or on 
the Internet, its ability to appropriately screen and supervise 
foreign nationals working on NASA's programs or with access to 
NASA's information, and its ability to respond to possible 
security violations in a timely and comprehensive manner.
    One of these allegations, centered on the access of Chinese 
national Bo Jiang to a sensitive technology at Langley, 
culminated this past weekend with Jiang's arrest at Dulles 
Airport, where he was attempting to return to China in 
possession of a large amount of information technology that he 
may not have been entitled to possess.
    So this is not a theoretical discussion. We are talking 
about real people and real allegations of substantive 
violations, some of which are currently being investigated by 
law enforcement authorities, which we will not get into.
    I would like to discuss the problems facing NASA's security 
enforcement regime, as well as some of the potential solutions. 
I hope we can get you to improve upon security. And I asked my 
staff to call over there because this can be a hearing on NASA 
espionage, or it can be a hearing on the space program. And so, 
that is why I am waiting to hear your comments. I have yet to 
hear any formal reaction from NASA to those recommendations, 
and I hope that the silence is not an indication of disinterest 
or a lack of commitment.
    I plan on staying with the issue, and I assume the whole 
committee will help me. But even if they don't, I will be there 
because I feel very, very, very, very strongly about these 
issues. I believe that those specified reforms are necessary 
steps and we have to do these things. So there is more that I 
could say about that, but we'll have some questions as we 
begin. Hopefully you can help us early on on that. That means 
we'd spend less time on these issues. If not, we'll spend more 
time.
    But pursuant to the authority granted--oh, I want to 
recognize Mr. Fattah for his opening statement.
    Mr. Fattah.

                    Ranking Member's Opening Remarks

    Mr. Fattah. Thank you. Thank you, Mr. Chairman.
    And to Administrator Bolden, it is an honor to have you 
before the committee again. And I want to say at the outset I 
share the chairman's concern that we do--and I know that as 
someone who has worn the uniform of the country and who has 
done just an extraordinary--has had an extraordinary life of 
public service, that you, too, share any concern around dealing 
with protecting our national security and intellectual 
property.
    But I want to make some more general remarks. One is I had 
the honor to be at the Jet Propulsion Laboratory in Congressman 
Schiff's neck of the woods for the occasion of the Curiosity 
rover landing, after 8\1/2\ months' travel, landing perfectly 
on the surface of Mars.
    I think that NASA's team, in pulling off this extraordinary 
feat, really puts and positions NASA well in terms of the 
President's goal of seeing a human flight to Mars in the not-
too-distant future. And I know about the work that is being 
done to put together the most powerful engine ever and the 
other work that is critically important for this effort. But 
the Mars rover and its landing, I think, really suggested to 
the Nation in a way that even late President John F. Kennedy 
would have been proud of, I think, really that NASA was really 
at the very forefront.
    And I know you have dozens of missions, you have lots 
going--a lot going on. Sometimes it is hard to get the Congress 
and the country to focus on how successful NASA truly is. But I 
think this particular event really did galvanize the Nation.
    And I got a chance, while I was in that area, to also visit 
and see the progress on the James Webb Telescope and a number 
of other activities, including SpaceX, which has become one of 
the two commercial carriers who successfully now--as was 
envisioned when the President and NASA made this decision to 
move aggressively in terms of commercial crew and commercial 
cargo.
    And so there's a lot that we can look and see in terms of 
your life and work. We appreciate your presence before the 
committee today. And I know these are some difficult times, 
trying to imagine what your budget may be. And, as you 
mentioned to us the last time you testified, you know, this is 
rocket science, and there are risks involved, there are 
challenges. But you have helped navigate this agency at a very 
difficult time in terms of mission and in terms of some of the 
challenges in terms of fiscal uncertainty.
    So welcome again, and look forward to your testimony.
    Mr. Wolf. Thank you, Mr. Fattah.

                    Administrator's Opening Remarks

    Pursuant to the authority granted in Section 191 of Title 2 
of the United States Code and clause 2(m)(2) of House Rule XI, 
today's witness will be sworn in before testifying.
    Please rise and raise your right hand.
    [Witness sworn.]
    Mr. Wolf. Let the record reflect that the witness answered 
in the affirmative.
    Administrator Bolden, your written statement will be made 
part of the record. You may proceed and summarize as you see 
appropriate.
    Mr. Bolden. Thank you, Mr. Chairman.
    Mr. Chairman and members of the subcommittee, I welcome 
this opportunity to discuss NASA's continued progress in 
implementing the bipartisan program for NASA agreed to by the 
President and the Congress, which will ensure the United States 
continues to lead the world in space exploration, technology, 
innovation, and scientific discovery.
    NASA is developing space flight capabilities to send humans 
to an asteroid in 2025 and onto Mars in the 2030s. We're 
building the world's most powerful rocket, the Space Launch 
System (SLS), and the Orion Multi-Purpose Crew Vehicle (MPCV) 
for deep space exploration. In 2014, a little more than a year 
from now, we'll have the first test flight on Orion. Its first 
uncrewed test with an uncrewed flight of Orion and the SLS 
together is planned for 2017. The first crewed mission of the 
two vehicles is scheduled for 2021.
    The knowledge we're gaining from the American astronauts 
living and conducting research on the International Space 
Station is critical to our future in deep space. In the coming 
year, we will prepare a year-long stay by a U.S. astronaut to 
explore human adaptation to space. We've begun commercial 
resupply of the station from American soil. SpaceX conducted 
its first resupply mission to the ISS in 2012 and is currently 
berthed to the ISS on its second resupply mission. Orbital 
Sciences Corporation is preparing for the maiden flight of its 
Antares rocket and plans its first mission to the Station later 
this year.
    NASA is on track to send our astronauts to space from 
American shores using American companies by 2017. In critical 
support of the broader mission, we're developing and testing 
future technologies that will enable us to move and operate 
faster and more efficiently in space, land more mass accurately 
on another planet, and enable new destinations. Our ambitious 
aeronautics research agenda will reduce fuel consumption, 
emissions, and noise to make the Next Generation Air 
Transportation System (NextGen) a reality.
    With 60 missions observing the Earth, the Sun, the planets, 
and the universe, NASA remains the world's premier space 
science organization and the critical source of information on 
the home planet. Building on the brilliant success of our 
Curiosity rover on Mars, NASA plans a robust multi-year Mars 
program, including a new robotic science rover based on the 
Curiosity design, set to launch in 2020. NASA is on track for 
the 2018 launch of the James Webb Space Telescope (JWST), the 
most powerful telescope in history.
    In closing, Mr. Chairman, I want to address an issue of 
particular concern to you and me. That's securing sensitive 
export-controlled information at our NASA facilities. As you 
know, earlier this month, NASA completed a review of a 
potential security breach at our Langley Research Facility 
involving a Chinese national who worked for a contractor there. 
We referred this matter to appropriate law enforcement 
officials, and the person in question no longer works at 
Langley. We continue to fully cooperate with law enforcement 
officials investigating this current matter and stand ready to 
assist in any way we can.
    I also want to report on several additional steps that I 
have taken to address concerns you have raised and which I 
share.
    First, I've ordered a complete review of the access which 
foreign nationals from designated countries are granted at NASA 
facilities, as well as our security procedures with regard to 
these individuals more broadly. This is in addition to reviews 
being conducted by the NASA IG and others. My intention is to 
assess the need for an independent review, which you called for 
in your press conference, once these steps of internal review, 
are complete. Second, I've closed down the NASA technical 
reports database while we review whether there is a risk of 
export-controlled documents being made available on this Web 
site. Third, I have ordered a moratorium on granting any new 
access to NASA facilities to individuals from specific 
designated countries, specifically China, Burma, Eritrea, Iran, 
North Korea, Saudi Arabia, Sudan, and Uzbekistan. Fourth, while 
this review is ongoing, I have also ordered that any remote-
computer access to NASA resources be terminated for those from 
the same specific designated countries. Fifth, NASA has also 
been working very closely with law enforcement agencies on 
security and counter intelligence issues and will continue to 
do so. Sixth, the review I have directed is also being 
accompanied by a renewed emphasis to our supervisors and the 
workforce on the importance of our security protocols, 
including assessments of new training that may be needed.
    Mr. Chairman, just before coming over here, I had the 
privilege of doing a video teleconference with all of our 
export control officers at each of the NASA centers who are 
having a meeting at the Stennis Space Center this week, and we 
reemphasized the issues that are of concern to you and me.
    Finally, I want this committee to know that I placed a 
priority on protecting security, export control, and safety 
compliance funding from any budgetary impacts from 
sequestration, and my team will continue working under that 
guidance. NASA takes all your allegations of security 
violations, and those from anyone, very seriously and follows a 
long-established procedure to investigate them quickly and 
thoroughly. These investigations are handled by our security 
and counter-intelligence professionals in cooperation with the 
NASA Inspector General and other appropriate law enforcement 
officials. The Agency is focused and committed to preventing 
and prosecuting all security violations. Mr. Chairman, I just 
want to add, this is about national security, not about NASA 
security. And I take that personally. I'm responsible, and I 
will hold myself accountable once our reviews are completed. 
With that, I thank you, and I look forward to your questions.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Wolf. Well, thank you, Mr. Administrator. I appreciate 
that.

                        FOREIGN ESPIONAGE THREAT

    And I want the record to show that there was a whole series 
of questions, and I will still ask a handful, but not to the 
degree that we were planning. I do appreciate your response. I 
think that's very important.
    And let me just reiterate what Mr. Fattah said of your 
record in service to our country and the military--and also 
your son's service to our country and the military--in addition 
to your time in the space program. So I know that you're 
concerned. And so I appreciate you acting quickly.
    In light of the arrest of NASA's contractor Bo Jiang over 
the weekend, I had asked yesterday--and Mr. Fattah was here--
the FBI Director, Director Mueller, in our hearing whether 
NASA's centers are significant targets of foreign espionage. 
Director Mueller responded, ``Certainly, they are targets, yes. 
And it is a significant threat. We recognize that it has a 
significant threat.''
    He went on to say, ``If anything, I would say that the 
threat is more substantial than perhaps it was 10 to 15 years 
ago.'' Again, the FBI Director believes that foreign espionage 
is a significant threat to NASA centers and is, ``more 
substantial than it was a decade ago.''
    So I think both NASA and the Congress have to work together 
to heed his words carefully.
    There were a number of questions that I was going to ask 
you which I will just submit, now, many of them for the record.

                  INDEPENDENT EXTERNAL SECURITY REVIEW

    The one question, though, that I think you did not cover 
directly was, will you appoint an independent, outside panel 
led by someone like former Attorney General Dick Thornburgh or 
someone of similar stature to comprehensively review and audit 
security protocols and enforcement, including foreign national 
access and export controls at every NASA center and 
headquarters? And will this panel have unrestricted access to 
center personnel and records and report back to the 
Administrator and Congress within 6 months on its findings and 
recommendations?
    I want to just clarify, Director Mueller used this same 
approach for the FBI. When 9/11 took place and Director Mueller 
was appointed, there was a transition. And he embraced the 
National Academy of Public Administration; we had a former 
Attorney General, Dick Thornburgh, do a review. It was very, 
very successful. Other committees have used NAPA.
    So the question is, would you comment on this outside 
panel?
    Mr. Bolden. Yes, sir.
    Mr. Wolf. You sort of directly said it, but----
    Mr. Bolden. I did, Mr. Chairman. When I read the actions 
that we were taking, and the first one that I said was I had 
ordered a complete review, that review is being done by the 
Associate Administrator, Robert Lightfoot. I gave him specific 
written directions as to what I want done.
    I have talked with the head of my Office of Protective 
Services, Mr. Joe Mahaley. Joe has actually said he feels that 
it may be that an review of the type that you mentioned would, 
in fact, be very helpful. So since he is doing an internal 
review of the Office of Protective Services, our security and 
export control; Robert is doing an internal review of all the 
centers. We've requested data. We just want to make sure that 
we get all that in and know what the depth of our problem is. 
As I told the export-control officials this morning, they 
should probably expect that within a week or so I probably will 
direct that we go out and ask NAPA--specifically NAPA, since 
that was who you suggested--to do an external review.
    Mr. Wolf. Sure.
    Mr. Bolden. I didn't make that commitment----
    Mr. Wolf. No, I think that's very fair.
    Mr. Bolden [continuing]. Specifically, but that is my 
probable intent.
    Mr. Wolf. No, I think that's very, very fair--and that 
that's appropriate.
    Mr. Bolden. Yes, sir.

      COMPLIANCE WITH STATUTORY RESTRICTIONS ON CHINA COOPERATION

    Mr. Wolf. We have a vote on, and then we'll leave with 5 
minutes left. But just to kind of narrow down a couple things, 
for more than 2 fiscal years, NASA has had a statutory 
restriction on its cooperative activities with China.
    When the subcommittee wrote the restriction, we intended to 
prevent all access by official Chinese visitors to NASA 
facilities unless advanced notification and certification are 
provided. Are you interpreting these restrictions in this way?
    Mr. Bolden. Mr. Chairman, as we discussed in your office, I 
still believe that our staffs have a difference in legal 
interpretation on the law as it's written. And we interpret it 
to be a restriction with relation to bilateral activities with 
China. What I have pledged to do is that, since I don't 
interpret it to include multilateral operations, such as the 
International Space University, when we made a call to the 
staff----
    Mr. Wolf. I agree.
    Mr. Bolden. Yes, sir, I think we agree, but I just want to 
make sure. What I have said I will do from here on out is, as a 
courtesy, even if it's multilateral, we'll let you know that we 
have something that's coming. But we don't anticipate having a 
Chinese visitor to a NASA center here anytime soon.

                   SECURITY CONTROLS AT NASA CENTERS

    Mr. Wolf. Good.
    In a letter dated June 20th, you had answered a question. 
You said, as described more fully in the cover letter, there 
were 156 Chinese nationals that were working at NASA 
facilities. I've heard the figure is now up to 200.
    Can you comment on how many there are and, also, how many 
Americans are working in PLA facilities in China?
    Mr. Bolden. Yes, sir. Mr. Chairman, we have now done a 
thorough, we hope, search. We have 281 foreign nationals from 
designated countries who have physical access to NASA 
facilities, and, of those, 192 are foreign nationals from 
China.
    Mr. Wolf. One-ninety-two.
    Mr. Bolden. So the number is 192 Chinese foreign nationals.
    Now, that number includes people with green cards and with 
visas. So, that 192 are the ones who have been impacted by the 
actions that I took with reference to access to different 
things that NASA does.
    Mr. Wolf. Because in June of 2012, it was only 156. So the 
trend is really going up, rather than down.
    Now, how many Americans work in Chinese facilities, PLA 
facilities----
    Mr. Bolden. Mr. Chairman, I will get back to you for the 
record, but we have checked, and, to my knowledge, we have no 
NASA personnel or personnel who are under a NASA contract, NASA 
grants, or anything else who are working in the People's 
Republic of China. There are probably many Americans who are 
working in the People's Republic of China----
    Mr. Wolf. Right, but I meant in the People's Liberation 
Army, the space facilities.
    Mr. Bolden. We have none from NASA who are working there. 
The issue that we still owe you is, do we have anyone who is 
working on a NASA grant or who may be affiliated with an 
organization that's working on a NASA grant but their work also 
takes them to a PLA facility? That is what I have to get back 
to you for the record.
    [The information follows:]

                           Foreign Nationals

    Answer: No NASA employees work in Chinese facilities. The Agency 
does not have insight into the work location of non-NASA employees.

    Mr. Bolden. As an example, there may be an engineer who is 
working on a NASA grant but his real job requires him, working 
for Boeing or someone else, to be at a PLA activity, not doing 
anything NASA related, but doing their primary work. I don't 
have that information right now, but we are trying to get that.
    Mr. Wolf. Okay.
    Are you aware of any incidents in which NASA has encouraged 
an external entity, as they did down at NASA Langley, to 
undertake with its own funds a cooperative activity with China 
that would be prohibited using NASA funding?
    And are you going to be clarifying that with the 
contractors? Because there was almost a workaround to get 
around the subcommittee language. Will that be part of what 
you're looking at, too?
    Mr. Bolden. Mr. Chairman, because you complimented Lesa 
Roe, the Director of Langley, the other day in the hearing, I 
respectfully disagree with the implication of what you just 
said. I don't know whether you meant to say it or not. But Lesa 
and her people are not attempting to use contractors as a 
workaround to the rules. We would not do that. As a matter of 
fact, we really feel that we have been fully complying with the 
law, that our processes are strong.
    What I have determined is that, as any organization of our 
size, we may have some gaps in compliance with those processes. 
I think that's what probably happened down at Langley. But we 
were not attempting to work around the law or the system or 
anything. Lesa Roe is one of the best center directors I have, 
and she would not attempt to use a contractor to work around 
the law.
    Mr. Wolf. Okay. Well, NIA did. I'm not going to go into the 
specifics because of the investigation. But we saw something 
where one NASA person says, ``you know, there are times that we 
should follow the regulations, but then there are times that we 
should ignore the regulations.'' And----
    Mr. Bolden. Congressman, that's what I'm saying. That is an 
allegation that I have been unable to substantiate. We're the 
best place to work in government. I don't say that lightly. 
We're the best place to work in government based on an Employee 
Viewpoint Survey. I went back and looked at that survey to find 
out if there were people who had indicated in the survey that 
they were afraid to come forward with violations of the law or 
export control violations. We rank among the top in the 
government as to people who say they trust their leadership, 
they have no qualms about coming forward with a violation of 
any kind. What our employees have told us in the Employee 
Viewpoint Survey that made us number one in government is 
incongruous with what the person or persons told you when they 
came in and brought you the report from Langley.
    Mr. Wolf. Well, we had people from Ames and we had people 
from Langley----
    Mr. Bolden. Yes, sir, I understand.
    Mr. Wolf. We had a total of five.
    Mr. Bolden. Yes, sir.
    Mr. Wolf. All career people. And you can think about this 
for a moment, but, if you like, we could contact them. They 
were all concerned about their jobs.
    Mr. Bolden. Yes, sir.
    Mr. Wolf. But we could--and I would trust you implicitly, 
if you would want--I would contact them and set up a meeting 
where just you came, no one else, to meet with them.
    But they were very, very concerned. And, also, they had 
lost confidence. And I'm going to end this because I told you 
that we're not going to keep driving this.
    Mr. Bolden. Yes, sir.
    Mr. Wolf. But they were not really very pleased with the 
IG. And I, frankly, have not been pleased with the IG. I have 
not been pleased with the IG at the local level, nor have I 
been pleased with the IG at the national level.
    So the whistleblowers were intimidated, they were fearful. 
I will give you the quotes, and I can----
    Mr. Bolden. No.
    Mr. Wolf [continuing]. Go through some of these things. If 
you want, you let me know.
    Mr. Bolden. Congressman, that's really not necessary. As I 
told you when we met before, no one was more bothered and 
concerned about these allegations than I. As I said in my 
opening statement, I hold myself personally responsible. So I 
have tried to assure every single member of the 18,000 members 
of the NASA family that if they have a problem they can come 
into my office. I reemphasize that frequently. I am bothered at 
the effectiveness of my leadership if I have five people who 
say they don't trust me to come forward and tell me that they 
think there's an export violation. I don't need to know who 
they are. Even 5 out of 18,000 bothers me, as a leader, that 
they don't trust me and they don't trust their center director 
to come forward and say, We know of an export violation.
    Mr. Wolf. Okay.
    Mr. Bolden. That's what they're saying.
    Mr. Wolf. Okay. Well, I was just--we're down to 5 minutes.
    Mr. Bolden. Yes, sir.
    Mr. Wolf. If I were an employee, I would trust you to come 
in. I may not trust some other people----
    Mr. Bolden. That's my point, sir. You don't even----
    Mr. Wolf [continuing]. And so you think about it.
    Mr. Bolden. Yes, sir.
    Mr. Wolf. We're going to end because we're down to 5 
minutes on this.
    If you want, you give me a call, and I'll ask them to come 
on in.
    And, secondly, I appreciate your willingness to do all 
these things. If you could contact the committee when you make 
the decision with regard to NAPA, I would appreciate it.
    Mr. Bolden. Yes, sir, we will do that.
    Mr. Wolf. With regard to that, we'll be in recess until 
this--I think there are two votes.
    Mr. Bolden. Yes, sir.
    [Recess.]
    Mr. Wolf. Before we go to Mr. Fattah, Mr. Aderholt is part 
of the delegation that went to Rome for the installation of the 
Pope. He wanted to--would you agree to meet with them and talk 
with him?
    Mr. Bolden. Sure. Yes, sir.
    Mr. Wolf. Okay, good.
    Mr. Bolden. I'd be glad to.
    Mr. Wolf. Mr. Fattah.
    Mr. Fattah. Thank you. Thank you, Mr. Chairman.
    And let me thank the Administrator.
    And before I go forward, I do want to just put into the 
record a little bit more about your military service. You flew 
over 100 combat----
    Mr. Bolden. Yes, sir.
    Mr. Fattah [continuing]. Missions. And you served as a 
deputy commanding general for the First Marine Expeditionary 
Force in the Pacific. And you were also in Kuwait during 
Operation Desert Storm. Is that correct?
    Mr. Bolden. Desert Thunder.
    Mr. Fattah. Desert Thunder.
    Mr. Bolden. That was between the big ones.
    Mr. Fattah. All right. I want the record to reflect your 
tremendous service----
    Mr. Bolden. I didn't want to take credit for something I 
didn't do.

         CENTER FOR THE ADVANCEMENT OF SCIENCE IN SPACE (CASIS)

    Mr. Fattah [continuing]. To our country.
    And now let's move to your--the work that you are engaged 
in now.
    Mr. Bolden. Yes, sir.
    Mr. Fattah. For more than a decade, for every single day 
we've had a human being--human beings on the space station 
doing important scientific work. NASA has been engaged in a 
transition that has been very successful, to create the space 
station now, after building it and constructing it, into our 
newest Federal laboratory.
    Mr. Bolden. Yes, sir.
    Mr. Fattah. National laboratory. And the engagement between 
NASA and CASIS has worked out well. And I met with the board 
here when they were in Washington and was very energized about 
the great research effort that is going on.
    So if you wanted to just spend a minute and talk about how 
that has proceeded.
    Mr. Bolden. I sure would. I would love to, sir. Thanks very 
much for the opportunity. CASIS is a private entity. NASA 
wanted to get out of the business of having to be responsible 
for recruiting and managing experiments and researchers in the 
U.S. Segment of the International Space Station for a number of 
reasons.
    When I used to be in NASA, people used to always complain 
that NASA was guilty of doing junk science. I never believed 
that, but one of the things that we felt we could do is if we 
handed it off to another independent organization outside of 
NASA, it would bring credibility to the work that was being 
done on the Station. The members of the board, they are pretty 
influential people and pretty prominent and well-known in the 
science and technology community.
    So CASIS was stood up. It is a part of Space Florida. 
Again, Space Florida has been an incredible entity. It is the 
business-development arm, if you will, for space for the State 
of Florida. We've learned how to work very well with them. As a 
result of CASIS, we are having more and more non-NASA people 
that don't even have anything to do with NASA who are now 
wanting to fly on the International Space Station.
    We are about to put up some Earth science instruments on 
the Station. That was not done before. I was led to believe 
that Station was not a good platform for Earth science. That's 
not true. We're about to put up a cosmic ray instrument on the 
Station. The Station was not good for cosmic ray science; 
that's not true. So as a result of having an outside entity 
that helps us evaluate people that want to fly, we're able to 
put additional assets to enhance the utilization.
    What we hope that it will prove, it will be a model for the 
other partners. Because the U.S. Segment is only one part of 
it. All of our other partners, the Russians, the Japanese, the 
Europeans, they are all evaluating how CASIS works for us and 
thinking about a way that they could do a similar thing. 
Because everybody is faced with ways to cut down on the 
operating costs, the daily cost of running the International 
Space Station, And it's proving to help us.

                     COLLABORATION ACROSS AGENCIES

    Mr. Fattah. Well, I'm quite impressed with the work that is 
being done there, and I know it could not happen without NASA's 
full partnership in it.
    Now, we just had the head of the National Science 
Foundation in yesterday. And, in part, he was talking about 
his--the great work that they are doing. But he mentioned his 
and the agency's involvement in the standup of this new 
observatory in Chile.
    Mr. Bolden. Yes, sir.
    Mr. Fattah. And, of course, you know, we have other 
observatories, like in Hawaii and the like. And we have the 
Hubble. And now as the Webb Telescope starts to come into view, 
can you help the committee understand how all of this interacts 
one to another and gives us a better sense of----
    Mr. Bolden. Sir, the big thing is collaboration across 
agencies. The new observatory in Chile is one that we will 
utilize. I had a hearing yesterday with the Science Committee 
on asteroids and NEOs, near-Earth objects. The observatory in 
Chile will give us another instrument that we can use for 
identification and tracking.
    We have a number of different places around the world. A 
number of them are National Science Foundation-sponsored, if 
not -funded, facilities. So we take advantage of the 
collaboration with the National Science Foundation to get 
information that helps us determine identification and 
characterization of asteroids, as one example.
    We fly out of Punta Arenas, Chile, every year. We go down 
into the Antarctic. We actually do some work that is in 
collaboration with the National Science Foundation again. It's 
our Earth science efforts, from airborne Earth science. When we 
go north, it's called IceBridge. I think we call it the same 
thing in the south, but I don't want to say that because the 
ice guys will tell me I don't know what I'm talking about. But 
we fly toward both poles to do ice research. A lot of that is 
done in collaboration with the National Science Foundation 
also.

                        NASA'S EDUCATION PROGRAM

    Mr. Fattah. And the last point I'll make in this round is, 
I had an occasion to go speak at a conference on severe weather 
events. You know, obviously, we've had the most, in terms of 
aggregate number, one after another, the most severe weather 
we've ever seen.
    But it was fascinating because a number of the experts at 
NOAA, which is also under our committee's jurisdiction, who 
operate the National Hurricane Center, actually, some of them 
were educated through NASA's education program. And I had a 
chance to meet with your education team. And the hundreds and 
hundreds of scholarships and fellowships that NASA has 
provided, you know, have an impact far beyond.
    So, for instance, when we had Hurricane Sandy, the fact 
that they were able to pinpoint exactly the location that it 
was going to hit actually saved lives, saved----
    Mr. Bolden. Yes, sir.
    Mr. Fattah. So, you know, NASA's benefit is far beyond 
space exploration, and it helps right here on Earth in so many 
different ways. So I want to thank you.
    And if you--if you could talk a little bit about the 
education work, because I know you've made this an important 
part of your leadership. That will be my last question for this 
round.
    Mr. Bolden. Yes, sir. I try to be a good follower, and when 
I interviewed with the President, one of the things he told me 
that he wanted to be done was he wants to increase the number 
of engineers in STEM fields that come out of this country. 
Since the days when we would bring people in from other 
countries, educate them, train them, and they would choose to 
stay here and become citizens, it doesn't happen that much 
anymore. They tend to go back home now, for a variety of 
reasons. So we've now got to train our own, because we don't 
compete right now with other nations in terms of producing 
engineers.
    Many times it's because we just don't have the number of 
people. I'm not excited when people cite the number of how many 
more engineers China creates than we do. Well, how many more 
people do they have? So, if you say a percentage of the 
population, we're probably as good as they are, but we're not 
good enough.
    So NASA really focuses on STEM education, and it's STEM 
education K-12. This committee and the Appropriations Committee 
from the Senate have been very good through the years to make 
sure that we have adequate funding for a number of programs--
the NASA Space Grant program, MUREP, and others that allow us 
to focus our efforts into underserved communities, where we can 
try to enhance the numbers of young people, who get interested 
in STEM curricula. So it's a passion for me. It's a passion for 
Leland Melvin, who is the Associate Administrator for 
Education, and we're trying to help Secretary Duncan to have 
the best Education Department in the world.
    Mr. Fattah. All right. Well, thank you.
    Mr. Bolden. Yes, sir.
    Mr. Fattah. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Culberson.

                    FY 2013 APPROPRIATIONS CONCERNS

    Mr. Culberson. Thank you, Mr. Chairman.
    General Bolden, thank you for your service to the country 
and all that you do at NASA. You know how strongly we all 
support you and how passionate this subcommittee is. And the 
Congress has been really arm-in-arm in working together to 
support NASA and do everything we can to keep America's space 
program the best in the world.
    And looking forward to the day in the near future when 
anytime the NASA Administrator appears, the room is packed, you 
know, you've got as much excitement out there in the country as 
there was when I was a kid growing up in Houston and remember 
vividly the Apollo program and the tremendous excitement that 
the whole country felt. Those days are coming again, but I 
think it's not for lack of effort on your part or the part of 
the Congress.
    I personally think NASA is spread too thin. There's too 
much interference politically with what you do. And how do you 
plan any big, complicated, expensive rocket or spacecraft with 
the pillar-to-post, year-to-year budgeting/appropriations cycle 
you've got to deal with?
    So Chairman Wolf and I are working, as you know, on 
legislation that we would look forward to your help and support 
on to try to give NASA some more stability and predictability, 
let you buy rockets and spacecraft the same way the Navy buys 
aircraft carriers and submarines with multiyear procurement, to 
give you and your successor. As I think Chairman Wolf has told 
you, we'd be delighted to see even you be, once our bill 
passes, you be the first new director of NASA would be just 
fine. But give you more stability, like the FBI Director, 
overlapping administrations. We look forward to working with 
you on that.
    And in terms of looking to the future and what lies ahead 
for NASA and the manned program and the planetary program, 
could you talk to the committee a little bit about the effect 
of the--the Senate is--looks like they're going to act today or 
maybe later today and pass the five appropriations bills, with 
a CR for the others, that will include the CJS bill, which is 
a--contains language that Chairman Wolf and Senator Mikulski 
have worked out that's got strong support both in the House and 
the Senate.
    Talk to us about that appropriations bill for 2013 that 
you're going to see for the remainder of the year and what that 
means for a heavy-lift rocket, which I did not see in your 
opening statement, and also for the planetary program.
    Mr. Bolden. Sir, as the NASA Administrator, I'm always 
happy to get whatever the Congress chooses to appropriate. 
Though the mark is what I would consider to be close to what we 
asked for, it has some shortcomings that will cause us problems 
down the road. Those shortcomings are exacerbated by the fact 
that sequestration was allowed to take effect. On top of any 
reductions, there's another 5 percent across-the-board 
reduction.
    Two areas that have me significantly concerned right now 
are commercial crew, because, I tell people all the time, we 
have an interdependence in our exploration program right now. 
And so those who remember back in 1972, when the original Space 
Transportation System was proposed, it was a three-prong 
program that had routine access to space, an orbiting space 
station, and what was called an orbital maneuvering vehicle 
that was going to allow us to go back to the Moon, go from 
space station to space station, and then allow us to go to 
distant planets. That was a long time ago, that was long before 
I came to NASA, but that was the vision.
    We didn't do right back then. We decided that we could only 
afford one. when you take a triangle and you take a leg away, 
the triangle falls. That's exactly what happened to any hope of 
exploration beyond low Earth orbit for NASA for the period of 
time between 1970, when the Space Transportation System was 
originally approved, and when we phased out the Shuttle in July 
of 2011.
    We have an opportunity now again to put the triangle back 
together. If you don't have all three legs, if you don't have a 
heavy lift launch vehicle and Multipurpose Crew Vehicle, the 
International Space Station, which is our toehold on the 
universe today and commercial crew and cargo to get us in and 
out of low Earth orbit, then you take away a leg and the 
triangle won't work.

            HEAVY LIFT ROCKET AND MULTI-PURPOSE CREW VEHICLE

    Mr. Culberson. Yes, but the heavy-lift rocket, talk to us 
about that, and the planetary program.
    Mr. Bolden. The heavy-lift rocket----
    Mr. Culberson. And you have gotten good support for----
    Mr. Bolden [continuing]. As I mentioned. We have support 
for it. If I were king for a day, and I think I've talked to 
the chairman about this a little bit. Flexibility within the 
top line would be absolutely superb for us. We are in the 
development program business. The heavy-lift rocket, the Multi 
Purpose Crew Vehicle--we have a flat-line budget. I can live 
with that if we're allowed flexibility inside that flat-line 
budget.
    What that means is we can't have winners and losers. I need 
to be able to move money in the exploration program when I need 
a chunk of money for the heavy-lift rocket or construction of a 
test facility or something. I need to be able to move it there 
to keep everything going sequentially so that we don't have to 
stop a manufacturer or an industrial partner. We don't have 
that flexibility right now.
    Mr. Culberson. Right. But I know----
    Mr. Bolden. The top line is good.
    Mr. Culberson. And that's, in this environment, a blessing.
    Mr. Bolden. Yes, sir.
    Mr. Culberson. That's an indication of the support of 
Congress, the chairman, and Chairman Mikulski for NASA.
    Mr. Bolden. Yes.
    Mr. Culberson. Because everybody else is really getting 
cut. And we admire you, support the agency. So that's a good 
thing.
    Mr. Bolden. Yes, sir. I told the chairman I will talk to 
Congressman Aderholt. Congressman Aderholt, he's going to want 
me to agree that we should put even more money into the heavy-
lift launch vehicle, and I would not agree with that. I'm a 
person who tries to be honest. I don't need a lot of extra 
money in the heavy-lift launch vehicle right now.
    I do need additional money to shore up commercial crew. 
Otherwise, that leg of the triangle is going to fall away and 
we're going to be back to 1970s again, where we had this grand 
vision of exploration and going to an asteroid and going to 
Mars and we can't get there because we can't complete the 
technology development and the understanding of what happens to 
the human body, the lessons we're learning on the International 
Space Station right now, because I can't get people to the 
International Space Station. Because I do not want to pay the 
Russians beyond 2016.
    Mr. Culberson. Sure. But, of course, the----
    Mr. Bolden. And that's what I will have to do.
    Mr. Culberson. Of course, the law, the money, the funding 
you see from Congress is an indication of our support for a 
heavy-lift rocket to get beyond low Earth orbit.
    Mr. Bolden. Yes, sir.
    Mr. Culberson. Could you also talk to us--I know my friend, 
Mr. Schiff, will follow up on this, as well--about the effect--
first of all, if you could, very quickly, a time frame on the 
heavy-lift rocket and Orion.
    And then, secondly, the effect of the work the chairman's 
done with Chairman Mikulski on funding the planetary program 
and how important that is, both for Mars and for Europa.
    Mr. Bolden. Yes. The Orion will fly its first flight a 
little bit more than a year from now. I know that's hard for 
people to believe, but we have the first test flight on Orion, 
without an environmental control system. If you want to call it 
a prototype, it's sort of like a prototype. Very heavily 
instrumented. It will launch in the fall of 2014. It will buy 
down a lot of risk on the ultimate vehicle, because it will 
tell us whether or not that vehicle is appropriate to withstand 
the intense pressures and temperatures of reentry from places 
like lunar orbit or Mars or an asteroid. So we need that. It 
will also help us understand whether it's oversized, 
undersized, or what, because what you see on Orion today is not 
the final Orion that we'll have.
    The heavy-lift launch vehicle should be available in 2017. 
Then we'll put Orion with the heavy-lift launch vehicle, fly 
its first unmanned, uncrewed flight in 2017. Then we should be 
ready to come back and fly the first manned mission in 2021.

                           PLANETARY SCIENCE

    Our science program--I don't like using the word 
``robust,'' because ``robust'' means you've got a lot of money. 
Our science program is aggressive and ambitious and highly 
successful.
    I told people yesterday, it's interesting because we were 
being blasted for how much money had been taken from the 
planetary program and how we had decimated the Mars program. 
And yet, today, we have the most sophisticated rover in the 
history of humanity on the surface of Mars, getting ready to 
climb a mountain and help us understand the geologic history of 
that planet, which relates to Earth. It will help us here 
understand more about our own planet.
    Mr. Culberson. Sure.
    Mr. Bolden. Between now and the 2030s, when we take humans, 
we have Insight, which is a smaller lander that will actually 
core meters into the Martian surface. That's scheduled for 
2016. In fact, MAVEN, which is an atmospheric studies mission, 
is next year, then Insight in 2016. We are a partner again with 
the Europeans on their ExoMars program, not to the extent that 
we wanted to be, because we couldn't afford it. We got 
criticized when we said we've got to step back for a moment and 
find out what we can afford. The chairman said, I can't do 
everything, I agree, so we told the Europeans, We can't provide 
a launch vehicle. We can't provide this. But we're giving them 
an orbiting communications package for 2016 and actually 
contributing to the 2018 lander with our expertise, which keeps 
work going at the Jet Propulsion Lab, because that's entry, 
descent, and landing.
    Mr. Culberson. Sure.
    Mr. Bolden. So that gives us an opportunity to keep that 
going. Then in 2020 we have a Curiosity-like rover that we're 
going to put on the surface of Mars again. Use the same design 
to save money. The science definition team has already begun 
their work and will probably come in with a report to us----
    Mr. Culberson. Sure.
    Mr. Bolden [continuing]. Late summer, early fall, and we'll 
know what we're going to do there.
    Mr. Culberson. And then if I could, in conclusion, very 
quickly, if you could also comment on the fact--obviously, the 
committee has protected funding for planetary, thanks to 
Chairman Wolf and Chairman Mikulski, but also because of the 
language--I'd also, if I could, ask you to reiterate your 
commitment to ensuring that NASA will carry out the decadal 
surveys, plan for a mission to Europa.
    Mr. Bolden. Congressman Culberson, you always put me in 
this position. I am trying to carry out the NRC's decadal 
survey direction that their number-one priority is Mars and a 
sample return. That's number one. What we're trying to do is 
make sure that the 2020 lander, that the science definition 
teams make sure that if we don't bring a sample back then, 
because we aren't able to reach an agreement with the Congress 
and the Administration on funding that we will not preclude 
that lander from being able to be the beginning of a sample 
return mission. If I can't do that, the science committee of my 
own advisory committee and the National Research Counsel is 
going to say, Forget it. If you're not going to do a sample 
return, then forget about Mars, and let's go to Europa. So we 
think that we are complying with the direction of the decadal 
survey right now in really focusing on their number-one 
priority, which was Mars sample return, and then Europa is 
the----
    Mr. Culberson. And you've got the support from the Congress 
to continue on both those tracks because we don't know yet 
about----
    Mr. Bolden. We can't do both.
    Mr. Culberson [continuing]. The funding----
    Mr. Bolden. Because of the funding we have, we will 
continue the work on a Europa mission, as we have briefed you.
    Mr. Culberson. Uh-huh.
    Mr. Bolden. We're looking for innovative ways to fly a 
mission to Europa that is affordable. All estimates that I have 
been given on a mission to Europa right now are not affordable 
in our budget or in the foreseeable budget, not if we're flying 
to Mars. So we cannot do both, but we continue our 
developmental efforts at a lower level, not a full development 
program yet, but----
    Mr. Culberson. Yeah. That's why the Congress has got 
language in the bill to make sure that----
    Mr. Bolden. Yes, sir. We are doing that.
    Mr. Culberson [continuing]. We preserve that ability to do 
that mission.
    Mr. Bolden. We continue to do that.
    Mr. Culberson. Thank you, sir.
    Mr. Bolden. Yes, sir.
    Mr. Culberson. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Schiff.
    Mr. Schiff. Thank you, Mr. Chairman.
    And I just want to join my colleague at outset in thanking 
you, Mr. Chairman, and also Ranking Member Fattah for your 
strong support of planetary science and the Mars program and 
Europa, which are in a far better position now than they 
started out a year and a half ago and would be nowhere without 
your good work.
    And, Mr. Administrator, it's good to see you.
    You know, just--I do want to set the record straight on one 
thing. We have been very critical of the administration on 
Mars, not because we don't acknowledge the incredible success 
of Curiosity, but rather because Curiosity--the development of 
Curiosity occurred in prior years, and while we're funding the 
current operation of Curiosity, none of us are content that 
Curiosity be our last great achievement. So it was very 
important to us to continue in the tradition of Curiosity with 
other great planetary science missions. And I'm very grateful 
that NASA has moved forward with another Curiosity-like mission 
as part of sample return.
    And I share my colleague, Mr. Culberson's deep interest and 
commitment to Europa, which I think we also think is a fabulous 
mission and of great scientific interest and something I think 
we're all committed to. And we need to work on the resources, 
we need to work on the sequencing and the timing, and we need 
to work on bringing costs down.
    Mr. Bolden. Yes, sir.
    Mr. Schiff. But I think we all have a deep interest in both 
those missions.
    I wanted to ask you about the Mars budget. I understand 
it's very important to launch in 2020, given the technical 
challenges and uncertainties surrounding planetary orbits with 
launching at a later date.
    Can you tell us how NASA plans to ensure that adequate 
resources are devoted to preformulation of the Mars 2020 
mission to minimize risk and to enable a successful launch on 
schedule?
    My main concern with respect to the 2020 mission is that 
I'm concerned that if NASA backloads the funding too much, 
we'll lose critical expertise that we've gained from developing 
and launching Curiosity. So if you could address that.
    Mr. Bolden. Congressman, as we briefed, as we mentioned 
before in conversation with people, when we brought the 2020 
proposal forward, we showed where we could fund 2020 in the 
2013 budget and the projection forward for the outyears. It 
will be tough due to sequestration. That word keeps coming up 
because that changes everything that we told you. As long as we 
can manage our funds the way that we are doing currently, then 
Mars 2020 will be okay. If we have to live under sequestration 
for the next 10 years, as it is set out, it's a whole new 
ballgame, because NASA is no longer a $17.7 billion agency, 
NASA is a $16.8 billion agency.
    I don't do magic, I will have to find a way to delete 
either a billion dollars worth of content or a billion dollars 
worth of people, and I don't think we want to do the people. So 
I will have to eliminate a billion dollars worth of content or, 
as I mentioned to Mr. Culberson, become very innovative in 
finding new ways, different ways that we can do the projects. 
What was so great about Mars 2020 is it's a carbon copy of 
Curiosity, and that's why I'm relatively confident when I tell 
you that I think we can, we should not have problems with Mars 
2020. We have got pieces and parts. We have got all the 
expertise. The only thing we have to do with Mars 2020 is put 
the results from the Science Definition Team together and then 
determine whether or not we can do all the science that they 
want to do, but the mission itself, minus whatever the final 
science turns out to be. As I mentioned before, if it turns out 
that we can't figure out how to get a Mars sample return, at 
least the precursor for it on the mission, we are liable to be 
abandoned by the science community. So that's a challenge.
    Mr. Schiff. Well, it's certainly my hope that we don't live 
in a sequestered environment for too long and that we could 
come together on an agreement that----
    Mr. Bolden. Yes, sir.
    Mr. Schiff [continuing]. Makes a more sensible approach to 
our deficit and debt problem. And we will continue to work with 
you on making sure that, whether we have a sequester or don't, 
that we don't so backload the Mars funding that we lose our 
talent pool at places like JPL.
    Mr. Bolden. Yes, sir.
    Mr. Schiff. I want to follow up, too, on my colleague's 
interest in Europa, and the Senate budget has money for Europa 
in it. And if you could share with us a little of your thoughts 
on the early priorities in Europa. Is it in doing some of the 
scientific analyses to determine how this can be done in a more 
cost-effective way, is that where you would make an early 
investment in Europa, or where would you employ those early 
resources on Europa?
    Mr. Bolden. Congressman, I will get back to you. I will 
take it for the record to get you the details of what's being 
done right now, but as I understand it, we are taking whatever 
funds we have for Europa, not for science definition, but for 
the definition of the mission itself. What type of vehicle can 
we afford that will enable us to get the scientists to the 
planet, to the moon such that we get good science from it, 
doing analysis that helps us understand how we get more than a 
month of life out of the vehicle.
    [The information follows:]

                                 Europa

    The FY 2013 Consolidated and Further Continuing Appropriations Act 
(P.L. 113-6) stipulates, ``Provided That $75,000,000 shall be for pre-
formulation and/or formulation activities for a mission that meets the 
science goals outlined for the Jupiter Europa mission in the most 
recent planetary science decadal survey.'' Given the harsh radiation 
environment around Europa, and our current understanding of the 
technologies needed to carry out this type of mission, NASA could use 
these FY 2013 funds for a variety of early activities related to a 
future mission to Europa including:
          <bullet> Initiating an instrument technology development 
        program to reduce one of the key identified risks for a Europa 
        mission;
          <bullet> Studying design impacts to spacecraft and concept of 
        operations (launch environment, Europa multiple flyby mission 
        concept propulsion module) and the launch vehicle trade space;
          <bullet> Studying and testing planetary protection 
        sterilization procedures and their associated impacts to 
        science instruments and spacecraft; and
          <bullet> Conducting preliminary design work on the planned 
        reconnaissance instrument(s).
    NASA's goal for these instrument technology development activities 
would be to identify key risks and associated risk reduction plan, 
complete some of those risk reduction activities, and mature the 
instrument system designs. There are five instruments in the model 
payload for the Europa multiple flyby mission concept (Ice Penetrating 
Radar, Shortwave Infrared Spectrometer, Topographical Imager, Mass 
Spectrometer, and magnetometer), and we expect that the first four will 
require additional technology development work. NASA would 
competitively award multiple proposals for each instrument in order 
test various radiation mitigation techniques and approaches.

    Mr. Bolden. Europa is an incredibly hostile environment 
from a radiation standpoint. We can't go and orbit Europa the 
way that we would do our own moon or the way that we do Vesta 
or other things. The vehicle will last a few months, if that 
long. It's just the radiation environment is too harsh. So we 
have got to be innovative in finding ways to--some of the 
concepts involve actually flying around Jupiter, and you don't 
get as much data as you would normally, but at least you keep 
the satellite alive, because it minimizes the exposure to the 
just devastating radiation environment of Europa. That's what I 
am told. Now, I have already gotten myself in trouble, and I 
have got science people all over the world who are now saying, 
who told the NASA administrator that? But that's what I have 
been told. So I probably shouldn't have told you----
    Mr. Schiff. Well, I am sure you will be hearing from them 
and we will as well.
    Mr. Bolden. Yes, sir.

                      FLIGHT OPPORTUNITIES PROGRAM

    Mr. Schiff. One last question, Mr. Administrator. The 
Flight Opportunities Program is a small program in the Space 
Technology Mission Directorate that purchases reusable 
suborbital flights for technology development on commercial 
vehicles on a fixed-price basis. It's a program that costs very 
little comparatively but has an outsized impact leveraging 
private investment in a rapidly growing high-tech industry. 
NASA doesn't pay to develop the vehicles, which are built with 
private funds to meet a market, but NASA serves as a key anchor 
customer. The funding for the Space Technology Mission 
Directorate did not meet the President's request last year and 
may not this year as well. How will those reductions impact the 
Flight Opportunities Program?
    Mr. Bolden. Mr. Chairman--Congressman Schiff, I will get 
back to you on the exact implications for the Flight 
Opportunities Program.
    [The information follows:]

                      Flight Opportunities Program

    At this time, the Space Technology Mission Directorate expects to 
maintain funding equivalent to the FY 2012 level of Flight 
Opportunities. At this level, the Flight Opportunities Program should 
be able to support a modest number of funded technologies for 
development. These technologies will utilize suborbital reusable launch 
vehicles (sRLV) to validate and demonstrate their technology 
development objectives. The solicitation has been released and we 
expect to make selections by the end of fiscal year 2013. In addition, 
the Program will continue to invest in the commercial suborbital 
vehicle industry fostering a new, U.S. capability.

    Mr. Bolden. But as I understand it----
    Mr. Schiff. And I don't mind you calling me that, but I 
think Mr. Wolf might.
    Mr. Bolden. I will get back to you. But as I remember, the 
programs that the Space Technology Mission Directorate has 
already notified centers and partners that we won't be able to 
start, I don't remember Flight Opportunities being one of them. 
We do have already working with, for example, Virgin Galactic 
and some other companies that we are going to try to utilize 
the capability that they give us. But I will get back to you 
with the details on any impacts to the Flight Opportunity 
Program.
    Mr. Schiff. Thank you, Administrator.
    Thank you, Mr. Chairman.
    Mr. Wolf. Thank you.
    Mr. Bonner.

        HEAVY LIFT LAUNCH VEHICLE AND MULTI PURPOSE CREW VEHICLE

    Mr. Bonner. Thank you, Mr. Chairman.
    Mr. Administrator, good afternoon. It is unfortunate, and 
we certainly don't blame you for this, but it is unfortunate 
that as we have had this discussion, a good discussion, that we 
are doing so in the absence of a budget submission, because it 
is hard to talk dollars when we don't even know what the 
administration is going to be bringing to Congress. We are 
actually debating the budget over on the House floor today, and 
so there will be several different proposals offered, and 
hopefully we will come up with a budget in the House. The 
Senate is committed to doing the same.
    I have a question that's consistent with my prior visits 
with you about NASA's future, but before I go there, I know you 
had indicated to the chairman and also in a response to Mr. 
Culberson that you would be talking directly with Mr. Aderholt, 
but since he is not here today and he is my colleague from 
Alabama, he asked me to put a few questions on the record.

                           MULTI-YEAR BUDGET

    Mr. Bolden. Yes, sir.
    Mr. Bonner. You have already talked about some of this, but 
I want to get his questions on the record for your 
consideration.
    Mr. Bolden. Yes, sir.
    Mr. Bonner. Many of us believe that the Space Launch System 
adds an important national capability to our space program as a 
vehicle able to launch both astronauts and deep space science 
missions. And it is our understanding that the SLS has met 
several early milestones, but some of us are concerned that OMB 
has apparently imposed a multiyear budget of $1.1 billion per 
year for the rocket development portion of the work. Every 
rocket development engineering plan has peaks and valleys, so 
some might say that this flatline budget is artificial.
    What do you anticipate your budget doing in both 2014 and 
2015 to ensure that SLS receives the modest increases in those 
2 years which are necessary in order to continue to stay on 
schedule and to serve the country's space needs in a timely 
way? And then I will have a follow-up to that question.
    Mr. Bolden. Yes, sir. Congressman Bonner, when we reached 
an agreement, we, the administration with the Congress in 2010 
in the Authorization Act, with the insistence actually of 
Senator Kay Bailey Hutchison that NASA needed to establish what 
its priorities were, at that time among those priorities were 
SLS and MPCV, enhancement and expansion of the International 
Space Station by utilization of a commercial crew and cargo 
capability, the James Webb Space Telescope. So those were the 
big three, and we have committed that when we have to take 
money, we will not go to the big three. If you look at the 
budget submission for 2013, even when we have gone through 5 
percent cut exercises and everything else, we've blocked those 
off. I recently added safety and security and export control to 
that, that we won't effect across-the-board cuts to those areas 
just like we do everything else.
    Again, I hate to keep going back to it, but the one thing 
that could impact SLS and MPCV but doesn't right now is 
sequestration. But, again, we're looking at 1 year. It's a 10-
year plan. So 10 years of sequestration, if the Congress and 
the administration are not able to resolve that. Again, I don't 
want to hype things, because we hype stuff too much, but that 
could have devastating effects on all of our programs. But 
right now schedule-wise, we don't see any impact to MPCV. In 
fact, actually, the vehicle itself will probably be ready 
before its 2014 launch date, but it's getting time on the 
range, getting a launch vehicle made available, because we're 
going to launch it on a Delta IV. So that is a great 
indication, especially when you consider that MPCV has 
recovered from a crack during testing, but those kinds of 
things we expected. That's the peak and valley that you talked 
about in funding.
    In our development program, things can be blowing along 
just as smoothly as you want, and then all of a sudden 
something unexpected happens. Unless something unexpected 
happens, we don't see that we won't make the 2017 launch date 
for the first flight of MPCV on SLS and then a 2021. I would 
love to be able to pull the 2021 date forward, but I need to 
talk with people who are much smarter than I am in the agency 
to find out whether that is a technical challenge or whether 
it's a fiscal challenge. The 2017 date is not a technical 
challenge at all, it's a fiscal challenge--I'm sorry, it's not 
a fiscal challenge, it's a technical challenge. We just cannot 
have the vehicle ready before 2017; 2021, I don't know.
    Mr. Bonner. Well, you make a compelling argument. I don't 
think you'd have anyone at this table disagree with you about 
the impact of sequestration. I hope you've had a chance to 
convey that message to the President, because, as you know, 
when we studied history, or civics and how a bill becomes a 
law, it passes the House, it passes the Senate, we reconcile 
the two, and it takes the President to enact it. And so 
sequestration, we all have our hands on that whether we voted 
for it or not, and the President, the administration has a 
responsibility as well. But I don't know any person up here, 
Democrat or Republican, that is celebrating sequestration, and 
especially if it goes in terms of its longer term.
    Follow-up question from Congressman Aderholt would be that 
based on your response there, it's our understanding that our 
current biggest rockets would take approximately 7 years, for 
example, to reach the moons around Jupiter or Saturn. The SLS 
rocket could carry a larger payload than the recent Mars lander 
missions and could reach Jupiter or Saturn in roughly 3-1/2 
years.
    And I think you've already addressed this with Mr. 
Culberson, but just to make sure it's all on the record. That 
would seem to some that it would be a good return on the 
investment. What is NASA doing to encourage coordination and 
planning between SLS and the planetary science projects?
    Mr. Bolden. Mr. Bonner, we are finally making headway in 
helping the science community understand that we are no longer 
in a stovepiped organization. We are really trying to fuse 
human exploration and science, because, again, they're 
interdependent. What you said, I've heard the same story. I 
have been told that if we launched a Europa mission to Jupiter 
today with an Atlas V and then we finished the development of 
SLS and launch in 2019 or 2017, I guess, it would catch up with 
and pass the Europa vehicle that we launch today. It's just 
physics, And if you can get something going really fast, really 
quick, once it's in space, it doesn't lose speed. The heavy 
lift launch vehicle, particularly with its upper stage, with a 
J-2X, we get things going really fast, really quick. And they 
will----
    Mr. Fattah [presiding]. Is that on a Delta IV?
    Mr. Bolden. Oh, no, no, no. This is the combination SLS 
and----
    Mr. Fattah. This is the one that----
    Mr. Bolden. This is the real SLS and MPCV. I'm going to 
have the experts come in and brief you all, because I'm giving 
you concepts. I don't ever claim to give you real numbers, so 
mine is an anecdotal story about launching today and being 
caught on the way to Jupiter. But I have heard that over and 
over and over again. The other thing is it will revolutionize 
the way that we do interplanetary missions, to be quite honest.
    What would be even better would be the type of propulsion 
that Mike Gazarik and the folks in the Space Technology Mission 
Directorate are trying to develop, which is game-changing 
propulsion that cuts the time of transit from here to Mars from 
8 months to something less, because the limiting factor for us 
there is the ability of the human, the central nervous system 
to sustain 8 months in a hostile radiation environment. The 
reason we're confused is because we don't know what the effect 
will be. That's why the International Space Station is so 
critical, that's why commercial crew and cargo is so critical, 
because we lose one of those legs of the triangle and we can't 
finish the race.
    Mr. Fattah. All right. We're going to go to Representative 
Serrano so that he can get some questions in before the----
    Mr. Culberson. Sure. And Frank has stepped out to go vote. 
He will be right back.
    Mr. Fattah. Mr. Serrano.
    Mr. Serrano. Thank you. Administrator Bolden, thank you for 
being here.
    Mr. Fattah. We have a vote on. The chairman went over to 
vote. When he comes back, I'm going to go vote and come back.
    Mr. Culberson. Okay.
    Mr. Fattah. We're going to keep going.
    Mr. Bolden. Can I go vote?
    Mr. Fattah. Sure.

                          ARECIBO OBSERVATORY

    Mr. Serrano. But then you have to face the voters and 
that's--you think this is tough?
    Mr. Bolden. I like this job.
    Mr. Serrano. This is easy.
    Mr. Administrator, throughout the years, the last few years 
for certain, there were two questions I asked concerning the 
Commonwealth of Puerto Rico. One always was, do you think there 
will be someone from that community, our community that will go 
up in space as an astronaut. And Joe Acaba did, and he is a 
superstar now. No one remembers I asked that question a lot of 
times, so I'd like to take some credit for it. But anyway, I 
couldn't do what he did, and he's really done a wonderful job 
of going around talking to schools and other places and it's 
wonderful. And I understand he's going up again.
    And the other one is the Arecibo Observatory, which for a 
while was in danger of being done away with, and yet there were 
people in the scientific community who continued to tell us 
that that's a very important place. And for the commonwealth, 
for the island, it's not just the work that it does and the 
service that this observatory brings to our scientific 
research, but also the fact that it's an icon, if a thing can 
be an icon, in the community.
    What's the future, what is happening, and what can we do? 
You know how I feel about it, but----
    Mr. Bolden. Yes, sir. I will just have to kind of go by 
what I've heard from Dr. John Holdren, who's the President's 
science advisor and knows much more about Arecibo than I did, 
but we have been talking about Arecibo, the new telescope that 
will be in Chile, anything that helps us identify and track 
Near Earth Objects, and that is a critical need for Arecibo to 
do that. If you take any telescope out of the mix, we'll still 
be able to do the kinds of things we're doing, but not as well, 
because we need lots of data and we need lots of information on 
asteroids. The question was asked yesterday about its funding, 
because I think it receives a lot of funding from the National 
Science Foundation.
    Mr. Serrano. Exactly.
    Mr. Bolden. Dr. Holdren, I think he actually took an action 
to go get some information on that. But my understanding is 
that NSF intends to continue to fund it, but I can't answer 
that for NSF.
    Mr. Serrano. Right. I understand that. But you should know 
or remember that this committee has been strongly in the past, 
under both party leaderships, have been very strong in 
supporting it.
    Quickly, the whole issue of STEM, you know, the lack of 
engineers, if you will, it can't be that people are not capable 
of teaching it, so it may be that we don't have folks who are 
interested. And yet we live in a society where young people are 
involved in technology day and night. Is there a relationship 
between the society we have now and going into these fields, 
and if not, how can we resolve that?
    Mr. Bolden. The person who could answer that question 
brilliantly is Joe Acaba. Joe Acaba is a school teacher. He was 
a middle school math teacher and selected to be an astronaut in 
a class that NASA made the conscious decision that we wanted to 
bring people who knew how to teach, who had an education 
background into the Astronaut Corps, not as payload 
specialists, not as anything, but as full-term astronauts, and 
Joe is one of the incredible ones. I think what we have to do, 
and I think he would tell you the same thing, or if you get a 
chance to see Suni Williams, who will be here on the Hill 
tonight for a reception, I think they would tell you we have 
two challenges. We always talk about inspiration, but you can't 
inspire a young person if they don't know what's available. So 
we've got to inform them of what's available. People like Joe 
Acaba, Suni Williams, Don Pettit, who is the modern day Mr. 
Wizard, we have to continue to get them in front of school 
kids, remotely most of the time, downlink from the 
International Space Station, visiting a school every once in a 
while when they can to say, look, I'm no different than you. I 
started out just like you did.
    Mr. Serrano. Right.
    Mr. Bolden. You've got to study really hard and work hard, 
and you can do the same thing I've done.
    Mr. Serrano. Thank you. On a lighter note and in closing, 
one of the advantages of being bilingual, obviously, is that 
you see words you recognize. So when I saw Europa for the first 
time before I did my homework, I realized that that's Spanish 
for Europe. And I was wondering what the heck were you making 
such a big fuss--not today, but in the past--about going to 
Europe. I said you can do that with no sweat. Then I did a 
little homework and realized that it may be the only moment 
where speaking Spanish created a little problem for me.
    Mr. Bolden. Sure.
    Mr. Serrano. Thank you.
    Mr. Bolden. Thank you very much.
    Mr. Fattah. Thank you. And the chairman's returned, so I'm 
going to take a few minutes and then I'm going to go vote. But 
let me--and I'm glad Mr. Culberson is still here because he's 
my good friend and nobody is more serious about this science 
business than him, and I am a full supporter of his work on 
planetary science. But I do want to make sure that we just 
correct the record a little bit. You said that the 
administrator didn't mention this, the Space Launch System, in 
his statement. It is in the first paragraph. I got to make sure 
that we get the record just, you know.
    Mr. Culberson. Thank you for----
    Mr. Fattah. I don't want him to think I'm picking on him in 
his absence.
    Mr. Culberson. Thank you.
    Mr. Fattah. But this--all of the dollars that you are 
spending in NASA are to some degree very significantly 
micromanaged by the Congress. And----
    Mr. Bolden. You said that, sir.
    Mr. Fattah. I said that.
    Mr. Bolden. I agree.
    Mr. Fattah. And my friend in his statement said that he was 
working on some legislation to give you more flexibility. And 
then in between all that, he went back to saying, well, this is 
what we want you to do. And this is the problem here, and I 
want to make sure that we're straightforward----
    Mr. Bolden. Yes, sir.
    Mr. Fattah [continuing]. And that we all understand each 
other, and that you are basically doing what the Congress has 
laid out. So in this launch system deal, the Congress has even 
spelled out almost to the degree of how much cargo it's got to 
carry and so on and so on. So this is not--this is policymakers 
in the Congress kind of laying onto NASA a very specific 
requirement that then you have to figure out the science and 
the technical capability of carrying out things that may not--
that in some cases might even work at cross-purposes, like get 
there as fast as you can, but carry all this stuff with you, or 
get there as fast as you can, but we want to send humans too. I 
mean, these things may get a little more challenging.
    Mr. Bolden. Yes, sir.
    Mr. Fattah. And then to constrain the budget on top of 
that. But I think it's important to note that there was an 
agreement with the administration that said, okay, we're going 
to do this long-distance run to Mars, we're going to believe in 
the American private sector and believe that they can do 
something that the government's been doing for decades in terms 
of low Earth orbit, we're going to commercialize that. And 
we've seen the success of that. That's going to save money in 
the long-term. And that this was part of a package of 
agreements----
    Mr. Bolden. Yes, sir.
    Mr. Fattah [continuing]. That you have been carrying out. 
And really it was probably more challenging to fly combat 
missions over enemy territory than deal with some of the 
challenges up here on the Hill in the various committees that 
have jurisdiction, because we have funding jurisdiction.
    Mr. Bolden. Yes, sir.
    Mr. Fattah. But there are committees that have authorizing 
jurisdictions. And then, of course, there's the Holy Grail, 
there's the U.S. Senate, which is just in charge, right. So 
these are issues that you have to manage. So I want to thank 
you for the work that you're doing. I wanted to set the record 
straight.
    Mr. Bolden. Yes, sir. Thank you. I appreciate it.
    Mr. Fattah. And while I'm doing that, Mr. Schiff said that 
Chairman Wolf might be concerned if he was called Chairman. I 
would be concerned if he was called Chairman since he'd have to 
get past my chair to get to the chairmanship. So thank you very 
much.
    Mr. Bolden. Sir, thank you very much for your very eloquent 
presentation of the facts.

                       NASA SPACE ACT AGREEMENTS

    Mr. Wolf [presiding]. I thank you. Yeah, I don't care who 
he calls Chairman, but I understand from your point of view.
    The reason I left is so we can keep this going. And when we 
have the next vote, I think we're going to end, because I don't 
want you to have to spend the whole day here. So I'm going to 
go through these relatively fast.
    Mr. Bolden. Yes, sir.
    Mr. Wolf. There's a wealth of information available online 
and in other public sources, about unclassified Federal 
contracts, including who has received those contracts, their 
dollar values and the purposes. As far as I know, there's no 
comparable source of public information about NASA's Space Act 
Agreements. Why shouldn't this information be available to 
public scrutiny?
    Mr. Bolden. Mr. Chairman, are you asking why shouldn't 
Space Act Agreement information on classified programs be 
available for public scrutiny?
    Mr. Wolf. No, the unclassified.
    Mr. Bolden. As a matter of fact, we're working to provide 
for the Congress and the American public, it would be more like 
a spreadsheet that would list the Space Act agreements that we 
have in force. And I actually think----
    Mr. Wolf. It was very tough for the committee to get this.
    Mr. Bolden. I think we provided that to the committee.
    Mr. Wolf. Yeah, but I meant for the public, though. Why 
shouldn't it be available for public scrutiny? It's public 
money and----
    Mr. Bolden. Mr. Chairman, I will take it for action.
    [The information follows:]

                          Space Act Agreements

    NASA is prepared to post summary information regarding NASA current 
domestic and international Space Act Agreements at the level of detail 
previously provided to the Committee.

    Mr. Bolden. I thought once we provided it to you, it was in 
the public domain. I think it's in the public domain anyway. 
Mr. Chairman, let me go back and find out. I thought once we 
gave it to you, it's gone.
    Mr. Wolf. Well, no, we didn't do that, and you authorized--
--
    Mr. Bolden. No, sir. I meant once we provide it to you, 
then it is no longer privileged information between the 
administration and the Congress. Unless we put something on it 
that says Sensitive But Unclassified (SBU)? If I put an SBU on 
it, it means that one of the companies has asked us not to 
divulge some technical information because it's proprietary, 
but we very seldom have that. I think I sent you something 
recently on the security issue, but usually when we send it 
over in a regular document, you can have it and you can put it 
up----
    Mr. Wolf. Well, I think the authorizers----
    Mr. Bolden. We'll put it up on a Website.
    Mr. Wolf. I think the authorizers had a problem.
    NASA's process for entering into Space Act Agreements is 
extremely decentralized. The individual centers control much of 
the process and even have authority to enter into some 
agreements without headquarters notification or review.
    How do you ensure consistency in the application of 
standards and controls when the centers have so much autonomy? 
And shouldn't it be centralized? Shouldn't you have the final 
sign-off?
    Mr. Bolden. No, sir. I don't. I shouldn't if we want to get 
things done. The purpose of a Space Act agreement, as I 
understand it, as directed by the Congress, is to enhance the 
transfer of technology, enhance NASA's ability to help grow the 
economy and make us stronger. If everything's got to come to 
headquarters, we're in trouble. We slow things down. We try not 
to.
    Major Space Act agreements that involve utilization of big 
facilities or something that may have dual use for a national 
security need or something, I probably need to be involved, 
but, there are some things that the centers do where we have 
asked them to find ways to better, more efficiently utilize 
their facilities that we know we're going to need down the 
road, there's no reason to excess it, but we're not using it.
    Mr. Wolf. Okay. Well----
    Mr. Bolden. An example would be the Johnson Space Center 
with the Neutral Buoyancy Lab, the NBL. We are still training 
astronauts to do space walks, but there's a lot of free time in 
there, and so they now work to enter into Space Act agreements. 
They're almost always reimbursable, where the company pays for 
the utilization of a facility.
    Mr. Wolf. Maybe they should all be made public, then, 
because the committee had a hard time----
    Mr. Bolden. That is what I thought----
    Mr. Wolf. The committee had a hard time and the authorizers 
had a hard time.
    Mr. Bolden. I will get back to you.
    Mr. Wolf. Okay.
    Mr. Bolden. But we talked about what I think you're telling 
me. I agree with you that Space Act agreements should be 
available in the public domain somehow, whether it's online or 
something. We actually talked about this the other day, because 
in the small business realm, anybody can go on the NASA 
Website, go to the small business drop-down and they can see 
every single small business contract that NASA has, whether 
it's at a center or anywhere, and when that's going to expire 
and what it is so they can they can plan ahead as to whether or 
not they want to bid on it. We won't have anything like that 
with a Space Act Agreement, because Space Acts are generally 
unique to the--a person----
    Mr. Wolf. Right.
    Mr. Bolden. But I'll get back to you, sir. I think we can 
do this easy.
    Mr. Wolf. Okay. My understanding is that Space Act 
agreements with foreign entities are reviewed by the State 
Department when those agreements are considered significant and 
are intended to be binding under international law.
    Does that mean that some foreign Space Act Agreements, such 
as those, quote, not deemed significant, do not receive State 
Department review?
    Mr. Bolden. Sir, I will verify what I'm about to say.
    My understanding, since everything I do with an 
international is considered a treaty, something that I treat 
very seriously, and I include Space Act Agreements, I think 
anything that we do with a foreign entity, any agreement that 
we make with them goes through the--I can't remember what the 
number of the process is, but it goes through the State 
Department review process. We have an example of a Space Act 
Agreement that's waiting to be signed now and considered to be 
small and insignificant, but it went through State Department 
review. Frequently they go through the entire interagency 
process to make sure that we're not stepping on DOD's toes or 
anything else.
    Mr. Wolf. If you can share that with the committee.
    Mr. Bolden. But I will get back to you on that, yes, sir.
    [The information follows:]

                          Space Act Agreements

    NASA agreements with foreign entities under international law must 
be procedurally consistent with the Case-Zablocki Act, (1 U.S.C. 
Sec. 112(b)), and its implementing regulations, (22 C.F.R. Sec. 181). 
Before negotiating and executing an agreement under international law, 
NASA submits the draft agreement to the State Department Bureau of 
Oceans and International Environmental and Scientific Affairs, which 
coordinates with the State Department's Office of the Legal Adviser to 
determine whether the ``Circular 175 process,'' as described in 22 
C.F.R. Sec. 181, is a required step prior to the negotiation of the 
agreement. If the C-175 process is required, the State Department and 
other agencies review the draft agreement and may provide comments. 
Such comments are typically incorporated before NASA is given 
authorization to negotiate and conclude the agreement.
    For NASA agreements with foreign entities concluded under U.S. 
Federal law, NASA advises State about such agreements when they are 
sensitive, e.g. for foreign policy reasons, and seeks the State 
Department's views.

                       COST AND SCHEDULE CONTROL

    Mr. Wolf. Cost control. GAO recently found evidence of 
improvements in NASA's adherence to cost and schedule goals 
among all current projects other than James Webb. To what do 
you attribute this improvement, and do you believe it's 
sustainable?
    Mr. Bolden. Mr. Chairman, I disagree with that statement. 
That statement is not accurate in its entirety. The James Webb 
Space Telescope for the last 2 years has been under control 
both in schedule and cost. In fact, they're a little bit ahead 
in schedule. I'm not certain what is meant by other than the 
James Webb Space Telescope. We have instituted processes like 
joint confidence level----
    Mr. Wolf. Well, it was actually a congratulatory, 
complimentary question.
    Mr. Bolden. I know it's intended to be, sir, but it's not a 
compliment----
    Mr. Wolf. I know GAO is looking at----
    Mr. Bolden. Yes, sir. It is not a complimentary comment 
about the James Webb Space Telescope. That is a very, very 
complex project that is going to revolutionize everything.
    Mr. Wolf. I understand. That's why we on the committee 
support it.
    Mr. Bolden. We all work very hard, and I promised you and 
Senator Mikulski that we were going to get that program in 
order. It has new management. Northrop Grumman put new 
management in place. We submitted a revised cost and schedule 
profile, and we're living up to that. So when somebody says 
other than James Webb, I just have to say, what do you mean 
it's not living up to what it was supposed to do.
    Mr. Wolf. Well, I'll give you the telephone number of the 
people----
    Mr. Bolden. Yes, sir.
    Mr. Wolf [continuing].  That wrote the question and we can 
talk about it.
    Mr. Bolden. Yes, sir.
    Mr. Wolf. Last year NASA requested a significant budget 
increase for the James Webb program despite the fact that it is 
literally billions of dollars over budget. At the same time, 
NASA cancelled the GEMS astrophysics project because it was at 
risk of going over budget by $45 million or $50 million. I 
think this highlights a significant difference in the way that 
large and small projects are treated by NASA, with the larger, 
riskier, more expensive projects being given more flexibility 
on cost and schedule issues than smaller projects. Do you 
agree?
    Mr. Bolden. I understand the question now. It's sort of 
like is James Webb too big to fail? That's not the case. I made 
a promise to this Congress, both House and Senate, that we 
would keep James Webb on cost and on schedule, and if it 
violated that, there is a limit beyond which it will not go.
    Mr. Wolf. But we really can't cancel James Webb. I mean, it 
would be tough to cancel James Webb now. It would be----
    Mr. Bolden. For me? If something went wrong with James Webb 
that caused it right now to have a dramatic change in meeting 
its cost or schedule--that means we have met a significant 
technical challenge that we didn't anticipate. So it may be 
something that evaluation says we cannot possibly overcome. So 
nothing's too big to fail. I would not waste the taxpayers' 
money if I found out that there was something unknown. This is 
like the 1,000-year asteroid hitting Earth that I tell you 
don't worry about.
    If we reach a point where James Webb begins to overrun 
again and it gets significantly over or it gets significantly 
delayed, it means we have met a technical challenge that we did 
not anticipate, and that would be something that we would have 
to evaluate and say, is this worth trying to salvage? I don't 
anticipate that. I don't want to panic anybody. I don't 
anticipate that happening.
    Mr. Wolf. The press, they're all writing back there.
    Mr. Bolden. Yes, sir. Well, they need to understand what 
I'm--I know they like to write that stuff, but I'm not talking 
doom and gloom. I'm saying James Webb is an incredible story. I 
have 2 years now of data that says the program has been on cost 
and on schedule and we're buying down risk all the time. So if 
something changes, it means we've had something happen that we 
really didn't anticipate.
    Mr. Wolf. Okay.
    Mr. Bolden. And that's always possible in a development 
program.
    Mr. Wolf. Sure. I understand.
    Mr. Bolden. GEMS, the other example, GEMS had a very 
defined cost ceiling. It's a small project. So I don't put that 
in the same category as the James Webb Space Telescope. GEMS 
was not something that was going to have a dramatic impact on 
humanity. It was a very good project, but technically it had 
some challenges that we just figured it cannot overcome those 
technical challenges within the funding guidelines that we 
agreed. I didn't make the call, but was a good call and I 
thought it was a pretty easy call.
    Mr. Wolf. Okay.
    Mr. Bolden. Yeah.

                      SEQUESTRATION IMPLEMENTATION

    Mr. Wolf. Fiscal year 2013 funding implementation. In 
discussions following the submission of the Sequestration 
Transparency Act report, NASA told us that it would apply 
sequestration equally to each appropriated amount, but not 
necessarily to each program and project contained within those 
amounts. That approach looks inconsistent, however, with the 
statutory requirement to apply sequestration to each program, 
project, and activity. How does your sequestration 
implementation plan address the statutory requirement?
    Mr. Bolden. I think we're in compliance with the statutory 
requirement to apply the 5 percent cut across the board in each 
directorate or program. I'm not going to guess what they're 
talking about, but I don't--I think we are complying with the 
statutory requirement reference to sequestration. If I can get 
an example of something----
    Mr. Wolf. Yeah. Basically the next question is that you 
could be using this to go after--and let me ask the question--
some congressional priorities that we were talking about 
earlier.
    Mr. Bolden. Oh.
    Mr. Wolf. So can Congress and the Administration have 
different views about the appropriate funding levels for 
several major NASA programs, including planetary science, 
Orion, SLS? Can you assure the committee that the 
Administration will not use sequestration as an opportunity to 
implement selected cuts to congressional priorities? How will 
you incorporate congressional input into your decision making 
about where and when to reallocate funds as a result of 
sequestration? So that's the----
    Mr. Bolden. Yes, sir, because maybe I'm naive. I don't view 
anything as a congressional priority or an administration 
priority. When the Authorization Act was signed by the 
President in 2010, that established what I mentioned were three 
big priorities. It's actually more than three, but I lump the 
International Space Station, commercial crew and cargo, and 
technology development together.
    So I think in that particular time, we agreed that those 
five things were priorities for the Agency. What we have done 
is we've tried to wall them off such that whenever a cut had to 
come, whenever the administration asked me for a 5 percent cut 
or a 2 percent cut, I don't go and look at SLS or MPCV or 
commercial crew or the International Space Station. It has to 
come from somewhere else.
    Now, purists, people in the science community will say, 
yeah, but you're putting programs at jeopardy because you won't 
take a cut from James Webb. Well, James Webb is a joint 
national priority established by the FY 2010 Authorization Act. 
So they're absolutely right. I am not going to go in and take 
money from James Webb to make something else whole, because I 
promised the President, and the Congress made an agreement that 
we would not do that, and so we're not doing that.

                           WEATHER SATELLITES

    Mr. Wolf. Weather satellites. Although NOAA is responsible 
for the procurement and operation of the Nation's civil weather 
satellites, they pay NASA on a reimbursable basis to manage the 
design and development of these satellites through a Joint 
Agency Satellite Division.
    Do you believe this basic division of funding and 
responsibility between the two agencies is successful? And as 
you know, the Senate had language in----
    Mr. Bolden. Yes, sir.
    Mr. Wolf [continuing]. That they pretty much took from NOAA 
and----
    Mr. Bolden. I understand. The answer to the question, I 
think it is highly successful, as demonstrated by almost 
everything that we have managed for NOAA, whether it's GOES or 
whether it's NPP or JPSS. We're always challenged financially. 
I think the arrangement that we have with NOAA--and I'll take 
this opportunity to compliment the former NOAA administrator, 
Dr. Jane Lubchenco. She was awesome to work with.
    Mr. Wolf. She's gone.
    Mr. Bolden. She's now gone back to academia, but it was 
great to have a fellow administrator pick up the phone and say, 
hey, there's some confusion, we're not in sync. We still are 
able to do that, because we attend each other's programmatic 
reviews, we, in the case of a lot of the weather satellites, 
the JPSS program, we sometimes co-chair each other's reviews so 
that we make sure that we stay in sync.
    Mr. Wolf. Now there's no one home at Commerce. They have no 
secretary, the acting secretary is leaving, they have no Census 
Bureau director, they have no PTO director, they have no NOAA 
administrator. I mean, they have--really it's like the boy in 
the movie ``Home Alone.'' Remember that movie?
    Mr. Bolden. Yes, sir, I do.
    Mr. Wolf. There's no one over there.
    Mr. Bolden. ``Home Alone 2,'' also.
    Mr. Wolf. I didn't see that one.
    Mr. Bolden. I really liked it. It was good. I forget which 
one's Christmas.
    Mr. Wolf. I think 1 was Christmas.
    Mr. Bolden. Yes, sir.
    Mr. Wolf. But, okay, do you want to comment?
    Mr. Bolden. About the Senate's----
    Mr. Wolf. About the Senate language. Did you like that or 
dislike that?
    Mr. Bolden. I haven't had a chance to sit down face to face 
with Senator Mikulski, but if the Senate decides and you all 
agree that we should take weather satellites, we will do that 
and we'll do a great job.
    The point that everyone should understand is the 
coordination that goes on right now in terms of getting that 
satellite or that system turned over to NOAA for the 
operational phase will not change. They are the weather people 
and the Weather Service, and they do an incredible job.
    Mr. Wolf. But would there be savings if you--because, in 
essence, one becomes a little bit of a middleman. Would there 
be savings?
    Mr. Bolden. Congressman, if that were the direction of the 
Congress that NASA take acquisition of weather satellites from 
NOAA, and we take it all the way through development and 
delivery, we would do that. I'm a middle of the road guy. I do 
what you all tell me to do. But I would make it very clear to 
people that I think it would be a mistake for NASA to try to 
take on the job of becoming the Weather Service. We don't do 
that. We could learn, but we don't do that.
    My concern about any movement of responsibility from one 
agency to the other is who defines the requirements for the new 
system. If NOAA is defining the requirements and I'm 
responsible for developing it, we're probably going to have a 
problem. So I would like to have very clear lines of 
distinction. If a decision is made to change the way we do 
business today, it would just require us to get together with 
NOAA and all of you in the Congress and at least understand how 
you want us to implement this change. We can make anything 
happen. I'm not lobbying for anything.

                            EXCESS PROPERTY

    Mr. Wolf. Excess property. Two weeks ago NASA released a 
notice of intent to have an external party lease renovate and 
reuse Hangar One and potentially the rest of Moffett Airfield 
at the Ames Research Center. It's become a little 
controversial. Both of these properties have previously been 
identified as having no current or future NASA purpose. So why 
is it acceptable to lease them instead of reporting them as 
excess?
    Mr. Bolden. Mr. Chairman, what I did was, after years of 
deliberation and trying to reach an agreement, I asked the GSA, 
the government's landlord, if they would come in and take over 
the evaluation of this process for us and run it. I was advised 
by GSA that the most expeditious way to get NASA out of the 
business of running an airfield and paying all of its costs is 
to let them go out and see if there is a private entity or 
another government entity that would be willing to take that 
responsibility off our hands. It is a multiyear process to 
excess something, and so I did not want to have to wait for 
that multiyear process and continue to pay for something that 
I'm not using right now.
    So, GSA recommended that we go through, what is called a 
notice of intent to let everybody in the communities know what 
it is we want to do, that we want to open the book and say 
anybody who wants to use this facility and for something that 
we can relate to stuff that NASA does, and in the process wants 
to resize the hangar because it is such a historical landmark 
to the community out there, we'll offer it. Then I will go out 
and meet with the community, tell them how we intend to effect 
this process, and tell them that, as a taxpayer, they're going 
to actually benefit, because NASA will no longer be paying for 
the operation of the airfield or for the maintenance of the 
hangar or other things. So that's the way that I was able to do 
that.
    Mr. Wolf. There was some controversy, and I gave the IG a 
letter with regard to that.
    Mr. Bolden. Yes, sir.
    Mr. Wolf. And I don't know if he shared it with you.
    Mr. Bolden. Mr. Chairman, as you know, if you're talking 
about land and facilities, there is always controversy. I am 
almost there. I'm glad that Mr. Culberson came back. I am so 
close to having the Arc-Jet facility from the Johnson Space 
Center delivered to the Ames Research Center, because that's 
where it should be as we look for more efficient, effective 
ways to do our job. I just wanted to make sure that he was here 
when I said that in case he wants to shoot me.
    Mr. Wolf. Make sure the spies are not involved out there, 
though, with it.
    Mr. Bolden. Yes, sir. I got you.
    Mr. Wolf. There are some questions on the Space Launch 
System and Orion that I think you covered. We will submit them 
for the record.
    Mr. Bolden. Yes, sir.
    Mr. Wolf. I'm going to come back to you if you have some 
more.
    Mr. Culberson. Thank you.

                            COMMERCIAL CREW

    Mr. Wolf. Commercial crew. NASA's current round of 
commercial crew development is being executed via Space Act 
Agreements, with the base period lasting through the middle of 
next fiscal year and optional milestones leading all the way to 
a crewed flight demonstration.
    Is it still NASA's intention to award FAR-based contracts 
for development and certification work beyond the base period?
    Mr. Bolden. Yes, sir, it is. In fact, we have actually 
already entered the FAR process--we have a contract, and it 
just so happens we were very lucky that the three companies 
that are the Space Act Agreement companies in developing the 
capability to take crews to orbit are the three companies that 
also now are bidding for the contract to put together a plan 
that will show us how they intend to meet our requirements, 
that will give us all of their hazard reports. And so each of 
them is now working under contract to do that.
    That buys down the risk that we--because I extended the 
period of utilization of Space Act Agreements. This is not what 
we were supposed to originally do. You were very gracious and 
the committee was very gracious in allowing us to keep three 
competitors when you really wanted to go down to one. So I'm 
appreciative of that. But we have to have a competition where 
we go down to one and a half or two or whatever.
    Mr. Wolf. When do you see it going to two?
    Mr. Bolden. When do I see us going to two? We intend to put 
a request for proposal on the street this summer and you will 
probably get a down select, and that will either be to two or 
to one or to one and a half. It is budget dependent.
    Mr. Wolf. By the end of this year, then?
    Mr. Bolden. You won't see the selection announced before 
the middle of next year, 2014. That's what we see it. That's 
when we get to phase two. I'll go back and double-check, but I 
think that's right. I didn't see your staff frown, so I think 
that's right.
    Mr. Wolf. In previous conversations about the program's 
outyear funding needs, and you referenced it earlier, NASA has 
indicated that an appropriation of more than $800 million 
annually will be necessary.
    Given the overarching funding constraints that the Congress 
is likely to be operating under and the need to make continued 
investments in other high priority programs, like James Webb, 
Orion, SLS, it seems improbable that the program's budget can 
be increased. Can the program achieve its goals with an annual 
funding rate closer to the currently authorized level?
    Mr. Bolden. Mr. Chairman, it can achieve part of its goals. 
Its goal to facilitate the success of a commercial space 
capability to get astronauts to the International Space Station 
can be achieved if that's what the Congress decides to do. The 
goal of flying in 2017 cannot be met at a funding level of $500 
million. That is consistent with what we've said since I've 
been the NASA administrator.
    It's really hard to go from an estimate of a billion 
dollars a year for developing a program down to 300, then 400, 
and then up to 500. We have managed to hold the line on 2017, 
but if we aren't able to get up to the $800 million level, then 
I will have to come back and officially notify the Congress 
that we cannot make 2017 for availability of commercial crew, 
and that puts the triangle in jeopardy.
    Mr. Wolf. Okay.
    Let me go to Mr. Culberson.

                            ARC-JET FACILITY

    Mr. Culberson. Thank you. Thank you, Mr. Chairman.
    Thank you for bringing up the Arc-Jet. That's, of course, a 
real concern in Houston. The Arc-Jet facility at Johnson was 
supported by the fees paid by the users, and they had 
reimbursement contracts, so the cost was near zero, obviously, 
and had NASA personnel working on it. But the facility----
    Mr. Bolden. That's not zero, sir.
    Mr. Culberson. It's a lot less expensive than the Ames 
facility, which I understood was funded--NASA funded up to 45 
percent of the cost to that facility. Now, you've already moved 
the Arc-Jet components?
    Mr. Bolden. We are trying to finalize the arrangements for 
the transfer of the Arc-Jet facility. We are still negotiating, 
we're still trying to reach consensus, I guess is the right 
word, with the Congress that every time we get another question 
that says don't do anything until we get this question 
answered, that is the right thing to do, and it is something I 
intend to do, and, if it's the last thing I do as the NASA 
administrator, which it may be.
    We cannot continue to have duplicate facilities. I fully 
understand what the people at Johnson Space Center say. They 
like doing that. They're really good at it. We don't need two 
Arc-Jet facilities.
    Mr. Culberson. Right. But that one was supported by fees 
paid by the users.
    Mr. Bolden. Congressman, I can get back to you on a 
comparative cost for maintaining two Arc-Jet facilities even 
when one is at Johnson Space Center and then show you what it 
would cost to have it out at Ames Research Center, one 
facility.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Culberson. Okay.
    Mr. Bolden. And I think you'll find that there is a 
savings.
    Mr. Culberson. Okay. I would be interested in seeing it.
    Mr. Bolden. The folk at Johnson Space Center, we have other 
programs and projects for which we need the bodies. If the body 
is maintaining an Arc-Jet facility that I could transfer out to 
the Ames Research Center and get it done, then there are more 
things that we can do at Johnson that they would really like to 
do.
    Mr. Culberson. And obviously all of us on the committee 
support making best use of our taxpayers' hard-earned dollars.
    Mr. Bolden. Yes, sir.
    Mr. Culberson. And I look forward to seeing the analysis.
    Mr. Bolden. We'll get that.

                    DESTINATION OF RETIRED ORBITERS

    Mr. Culberson. And it's hard not to be a little skeptical 
as a Texan when the Obama administration--I know that wasn't 
necessarily you--but the Obama administration would not send 
one of the space shuttles to Houston, Texas, the Johnson Space 
Center, the home of the manned space program, and sends it 
instead to New York City or California. I mean, that's deeply 
offensive. And there's a pattern of behavior, it's not you, 
sir, I'm not picking on you necessarily.
    Mr. Bolden. No, no.
    Mr. Culberson. But let me tell you, there's a pattern with 
the Obama administration, we vote wrong, and all sorts of 
things get moved out of Texas.
    Mr. Bolden. Mr. Culberson, I am a person, I think the 
chairman will tell you, I want to make sure that everybody 
understands who's responsible for what. The President didn't 
have a clue where shuttles were going until I delivered the 
word that I'm going to have a press conference and we're going 
to announce this. He didn't--he did not intervene in that. That 
was my decision. I'm criticized for it, and I appreciate that. 
I am a Houstonian by adoption.
    Mr. Culberson. Sure.
    Mr. Bolden. We had a process, and in that process the city 
of Houston did not come out one, two, or three, and we can 
review that with you again. I would like to put that to bed, to 
be perfectly honest.
    Mr. Culberson. Sure. I do, too. And I know--and the 
chairman knows this from my history. I really do my best not to 
be parochial, you know, because the space program is a 
strategic asset to the entire country. And I've also always 
done my best not to look at it as a jobs program, because it's 
for the good of the entire Nation. And I've always felt and 
have told all my friends in the space program in Houston that 
it's always better if we don't think of the space program as a 
jobs program; look at it from the perspective of the country as 
a strategic asset, as a way to protect the high ground, as a 
way to preserve our innovation, our ability as a Nation to 
innovate and pursue scientific excellence and lift up the human 
heart. All those things are vitally important--and, oh, by the 
way, it's a great job program. But I'm with you.
    But let me tell you, it is a sensitive subject in Texas. It 
does cause a lot of hurt. And then when something like the Arc-
Jet gets moved out, it just adds to it.
    Mr. Bolden. Congressman, one thing I would say is there is 
no threat to the Johnson Space Center by seeking efficiencies. 
As you said, JSC is the home of human space flight, and mission 
control is there. That's not going to change, at least not in 
the foreseeable future. I mean, if you mandated that I have to 
reduce centers, you told me that you were going to institute a 
NASA BRAC, then everything's on the table.
    Mr. Culberson. Sure.
    Mr. Bolden. But we're not doing that right now.

                  WORKING WITH A FLAT FUNDING PROFILE

    Mr. Culberson. Talk to us a little bit about, if I could, 
the effect of--because we are in a really tough budget 
environment, looking out forward here, and obviously you have 
the support of this committee and the Senate committee. 
Chairman Wolf has been just--there's no one fought harder to 
protect NASA or the sciences than the chairman, and Senator 
Mikulski's been terrific.
    In a flat funding environment for the future--because we 
really didn't get a chance to tie this up on the Heavy Lift 
Launch rocket system and Orion--what does that flat funding 
profile for the future mean for the--NASA's ability to get a 
heavy-lift rocket and the Orion capsule operational?
    Mr. Bolden. As I mentioned before, for the foreseeable 
future, unless sequestration goes for 10 years, we have planned 
the priority programs, the SLS, MPCV, International Space 
Station, commercial crew and technology development, along with 
the James Webb Space Telescope to fit a flat funding profile.
    What I would love to be allowed to do inside that flat 
funding profile is give the teams the opportunity to move funds 
around as they need to keep the phasing of availability of 
things going. An example would be, because we are under a flat 
funding profile and there was more money than we needed for the 
development of MPCV, MPCV will probably be ready before it's 
ready to fly, because we had to spend money when we had it. 
It's a little bit ahead even in spite of the fact that we had a 
crack and we had to deal with that.
    But there is a launch schedule, a launch availability due 
to everybody else using Cape Canaveral and we're using a Delta 
IV. So the availability of the launch vehicle and the pad, if 
we had had flexibility, we could have shifted the funding from 
MPCV maybe to construction of the B-2 Test Stand to facilitate 
the SLS staying on schedule. That's all I'm talking about when 
I talk about----
    Mr. Culberson. Okay.
    Mr. Bolden [continuing]. Funding flexibility inside the 
programs. We're not talking about taking money from a program.
    The calculus is, in the end, the area under the curve will 
be the same. We will spend the same amount of money on SLS, the 
same amount of money on MPCV. It's just that we are phasing it 
such that we deliver things when they're needed, not when the 
money's available. That's not an efficient way to do things.
    Mr. Culberson. So you anticipate that the heavy-lift launch 
rocket will be available to--you'll do your first test flight 
and then have it available to launch operational when?
    Mr. Bolden. It will be available for the first flight in 
2017.
    Mr. Culberson. Test.
    Mr. Bolden. For its first test.
    Mr. Culberson. Right.
    Mr. Bolden. That was a technical constraint. You could have 
given me tons of money. I just don't think we could have 
accelerated that 2017 date. The human flight will be 2021 or 
so. That's if we're allowed to be flexible, we----
    Mr. Culberson. Right.
    Mr. Bolden [continuing]. We might be able to do so. I don't 
know.
    Mr. Culberson. It's a spectacular vehicle for the Europa 
mission. And I'm going to give you this----
    Mr. Bolden. It is. We talked about that earlier.
    Mr. Culberson. And I'm going to give you this. This is why 
Europa is so important, in one graphic. It's got 40 percent 
more water than the Earth.
    Mr. Bolden. Yes, sir.
    Mr. Culberson. Heat. It's probably saltwater. And it's been 
oxygenated for billions of years. Almost certainly that's where 
we're going to discover life. That's why it's been such a top 
priority of the decadal survey.
    Thank you, Mr. Chairman.
    Thank you, Administrator Bolden.

             CONCLUDING THOUGHTS ON COOPERATION WITH CHINA

    Mr. Wolf. We're going to kind of end because I think we're 
coming up to another vote. Just to wrap up, based on the June, 
2012 letter, in less than a year you went from 156 Chinese 
nationals to 192. If you would furnish the committee what 
centers they are in.
    Mr. Bolden. Yes, sir, we'll do that. And, in fact--I will 
do that, sir. I think in the packet that we delivered we break 
it down by center. But I will go back and verify that.
    [The information follows:]

    Material in response to this question was provided previously to 
the Subcommittee and designated as Sensitive But Unclassified (SBU) 
information and not for public release.

                         INSPECTOR GENERAL (IG)

    Mr. Wolf. Okay.
    Mr. Bolden. And we just delivered that last night.
    Mr. Wolf. Okay. Firstly, and I want to make this very 
clear, part of your problem at NASA, I believe, was the IG's 
office. And if the IG can't do a better job, NASA ought to get 
a different IG. This is a real test.
    Mr. Bolden. Yes, sir.
    Mr. Wolf. Because the IG sort of blew these things off. In 
the Ames case, the IG gets an F, he's failed. And in the 
Langley case, he gets an F. He's failed. Because we talked to 
career people. They went in to the IG. So this is a test, and 
you might tell the IG this, or he will probably hear it. If 
this doesn't work out, this is really a failure of the 
Inspector General to do his job or the Inspector General's 
staff to do their jobs. It is reflected upon you and in some 
respects the IG. So this is a test. And if the test is not 
passed--we're going to ask for a new IG there because we're 
going to make sure.

                         COOPERATION WITH CHINA

    Secondly, Mr. Administrator, you have heard me talk about 
China. In China today, there are roughly 25--the number flexes 
up and down--Catholic bishops that are under house arrest. 
Congressman Chris Smith took holy communion from Bishop Su. 
Chris led the delegation in Rome for the new Pope, Francis. And 
that bishop who gave holy communion to Chris Smith has never 
been seen since. He's been taken away. The Bishop of Hong Kong 
was by to see me, telling me about the persecution of the 
Catholic Church. After the Pope was appointed, the Chinese 
government just said pretty tough things with regard to the 
Catholic Church, within the last 2 weeks.
    Thirdly, there are several hundred Protestant pastors that 
are in jail, house church people that are in jail. More Chinese 
people come through my office than probably any other office up 
here on Capitol Hill. All of the dissidents. The Chinese people 
are wonderful people. The blind activist, Chen, who is up at 
NYU, was by to see me a week and a half ago. We're having a 
hearing with Chen in 2 to 2\1/2\ weeks. All the dissidents come 
through my office. They are wonderful people. They want 
freedom.
    There have been 101 Tibetan monks that have set themselves 
on fire. They poured kerosene and gasoline on themselves, set 
themselves on fire and have died by the hands of the Chinese 
government. We know that they are spying. They run the program 
whereby they are selling organs, kidneys for well over $50,000, 
to people that come from the West.
    I was in Beijing Prison Number One, where they have 
Tiananmen Square demonstrators--you remember Tiananmen Square. 
It was the People's Liberation Army--the same people that run 
the space program--that fired on the crowd and killed all the 
people in Tiananmen. When I was in Beijing Prison Number One, 
we saw Tiananmen Square demonstrators who were making socks for 
export to the West. They were still in prison in the late 
1990s.
    Just so you have a better understanding, I'd like some time 
when the blind activist Chen comes into town, and Bob Fu, the 
leading dissident, somebody from the Cardinal Kung Foundation 
of the Catholic Church, somebody who worked for the Dalai Lama, 
to really come over and take a half an hour and sit down with 
you so that you understand. We did this with Secretary 
Gutierrez in the previous administration. So can I get 
agreement that you'll sit down with these people so they can 
understand----
    Mr. Bolden. Mr. Chairman, I would be glad to sit down with 
them. I would only ask one thing, and that is that I be allowed 
to ask them----
    Mr. Wolf. You can ask them any question you want.
    Mr. Bolden [continuing]. What they feel our inability to--
--
    Mr. Wolf. You can ask them anything.
    Mr. Bolden [continuing]. Help with their space program.
    Mr. Wolf. You can ask them anything.
    Mr. Bolden. I mean, that would be fair.
    Mr. Wolf. Yeah. Keep in mind----
    Mr. Bolden. And I would be more than happy.
    Mr. Wolf. I guarantee you.
    Mr. Bolden. Yes, sir.
    Mr. Wolf. And I'll come over with them.
    Mr. Bolden. You and I have a healthy--we respectfully 
disagree on this, and I think that's good. I applaud you for 
your devotion to human rights, and I am--I equally--I agree. I 
just----
    Mr. Wolf. I will.
    Mr. Bolden. Like we said, I grew up saying, you keep your 
friends close and your enemies closer.
    Mr. Wolf. But not to have 192 so close that they can spy.
    Mr. Bolden. Yes, sir.

                            COMMERICAL CREW

    Mr. Wolf. So, okay, I will arrange for them to come over 
and see you.
    Then the last question was, if we're having these budgetary 
problems on commercial crew, why have two partners rather than 
one----
    Mr. Bolden. Mr. Chairman, that was what I meant. When I 
said when we get to the down select, I think it would be 
unfortunate if we ended up with one because then we're in the 
situation that if that one goes, we're back to the Russians 
again. But if the budget only supports one when we go into the 
competition phase, that's what we're going to go with. I would 
not like to extend the period of Space Act Agreements again. 
That's the one thing that I----
    Mr. Wolf. Right. No, I understand. But the numbers in the 
House bill were higher than the Senate bill.
    Mr. Bolden. Yes, sir.
    Mr. Wolf. And so I think you have to factor that in, if it 
comes to that. And so----
    Mr. Bolden. And, sir, I did not say we could not accomplish 
the goal of commercial space flight. I said that the goal of 
flying in 2017 cannot be met at a level of $525 million.
    Mr. Wolf. No, I understand. No, you were very clear.
    I'm going to go to Mr. Culberson for a second. The last 
thing is that I do appreciate your accepting those other 
recommendations at the outset, and if you could let us know 
when you make the decision on that independent review, I would 
appreciate it.

             CONCLUDING THOUGHTS ON COOPERATION WITH CHINA

    With that, I'll go for Mr. Culberson.
    Mr. Culberson. I just want to very briefly, Mr. Chairman 
and Administrator Bolden, because other committee members had 
conflicts and couldn't be here, but Chairman Wolf has the 
united support of the entire subcommittee, and, frankly, the 
Congress, in the language that he's included in the bill on 
China.
    Mr. Bolden. Yes, sir.
    Mr. Culberson. And his work to prevent NASA from 
cooperating with the Chinese space agency. We are--everyone in 
Congress--Frank Wolf was a pioneer in opening the eyes of the 
Congress and the country to the espionage that China's been 
engaged in for so many years. He was the first one out of the 
gate to talk about this. He opened my eyes to it. And the 
entire--I can guarantee the House of Representatives supports 
this good man and his work.
    And I just want to be certain that you and everyone at NASA 
understands how deadly serious this problem is and how 
important it is, that it's not just Frank Wolf, it's the entire 
Congress, and this subcommittee is behind him. He speaks for 
all of us. And we're going to back him up 110 percent on making 
sure the Chinese do not penetrate our space program. There's 
theft. The Inspector General should know, and I hope he's 
listening, that we stand behind our chairman on this effort in 
making sure that there is aggressive investigation and 
prosecution of not only the Chinese agents that are involved, 
but anyone at NASA that has helped them penetrate and be able 
to steal this technology.
    And please stop trying to find ways, please, not just you 
but the entire agency, stop trying to find ways around the 
language that's Federal law that Chairman Wolf put in. You 
can't just look--it doesn't just limit this to bilateral. I 
mean, you can't--it's not--I heard you say earlier that you 
felt like NASA's in full compliance with this law and that 
maybe multilateral agreements might be okay. That's not the way 
the law reads. You want to read the law in its entirety. And, 
clearly, the purpose of the law is to prevent the Chinese from 
getting access to our space program because it's run by the 
People's Liberation Army.
    Mr. Bolden. Congressman, I understand that.
    Mr. Culberson. I want to reiterate we're behind this good 
man 110 percent.
    Mr. Bolden. I understand that fully. No one was as 
concerned as I was when we had the alleged breaches of security 
anywhere in NASA, and I intend to make sure that it doesn't 
happen. But I would be derelict in my duty if I did not give 
you my position. And that is that I think we can work with 
countries and keep them from stealing our technology or doing 
whatever it is. We work with the Russians today, we're not 
perfect, but we do a pretty good job of keeping them from 
getting----
    Mr. Culberson. Yes, sir. But this is an absolute 
prohibition.
    Mr. Bolden. Congressman, I said I agree 100 percent. And I 
think we are complying. And if we're not, then it is my intent 
to make sure that our staffs get together again, because you 
just said there is obviously something that I am not 
understanding correctly. I did not think the prohibition 
inhibited or prohibited participation in multilateral 
activities. For example, going to a forum where there are 
multiple countries present there. I know I cannot enter into 
any agreement with the Chinese.
    Mr. Culberson. Or hire contractors that employ Chinese and 
bring them in and put them over an F-20----
    Mr. Bolden. Mr. Congressman, we are not doing that. If we 
find that we are doing that, then that is why the investigation 
is underway right now.
    Mr. Culberson. Okay. Well, Chairman Wolf speaks for all of 
us on this.
    Mr. Bolden. I understand that. Yes, sir.
    Mr. Wolf. Okay. Okay. Thank you very much for your 
testimony.
    Mr. Bolden. Thank you, sir. Thank you, Mr. Chairman.
    Mr. Wolf. The hearing is adjourned.
    Mr. Bolden. Yes, sir. Thank you very much.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, March 13, 2013.

    NATIONAL AERONAUTICS AND SPACE ADMINISTRATION OVERSIGHT OF THE 
                           INSPECTOR GENERAL

                                WITNESS

PAUL K. MARTIN, INSPECTOR GENERAL, NATIONAL AERONAUTICS AND SPACE 
    ADMINISTRATION

                    Opening Remarks of Chairman Wolf

    Mr. Wolf. The hearing will come to order.
    The reason we postponed it for an hour was because there 
was a group of us testifying on the FBI relocation at the T&I 
Committee.
    I want to welcome everyone to today's oversight hearing on 
management challenges at the National Aeronautics and Space 
Administration.
    Our witness is Mr. Paul Martin, the NASA Inspector General.
    NASA is facing a uniquely challenging moment in its 
history. The agency's strategic direction is poorly defined. 
Its budget is severely constrained, and its leaders confront a 
host of intractable management issues, including cost and 
schedule overruns, a surplus of unnecessary infrastructure, and 
difficulties with financial management.
    Even more concerning, there is a growing body of evidence 
to suggest that NASA is confronting an agency-wide problem with 
protecting the security of its sensitive technologies.
    The governments of China and other countries of concern are 
waging a sustained attack on NASA using multiple means and 
capitalizing on NASA's relatively weak internal enforcement of 
export controls.
    In fact, in a report I just saw this morning, cyber attacks 
are a leading threat to the U.S., intelligence leaders said for 
the first time on Tuesday. Cyber attacks and cyber espionage 
have supplanted terrorism as the top security threat facing the 
United States.
    That stark assessment came from an annual world-wide threat 
brief that cover concerns like North Korea's belligerent 
serious civil war and was reinforced with remarks by the spy 
chiefs before the Senate Intelligence Committee.
    We are talking to a large extent about China and, yet, at 
times it looks like NASA is on a different page than the White 
House and all the top intelligence people.
    I believe this is an area that NASA's management at all 
levels, including the IG--and I have been disappointed with the 
IG at times in some of these cases--should address more 
aggressively, and we tend to press our witness on that.
    In a moment, we are going to begin with some brief opening 
remarks from Mr. Martin, who will then have questions from the 
subcommittee. But first I would like to recognize Mr. Fattah, 
the ranking member.

                Opening Remarks of Ranking Member Fattah

    Mr. Fattah. Thank you, Mr. Chairman.
    First and foremost, let me welcome the witness and thank 
the chairman for holding this hearing. I think it is a very 
important hearing and timely.
    I share the chairman's concerns around the cyber security 
and the national security issues related to the attacks on the 
computer systems at NASA and some of the other security issues 
that I am sure will be delved into.
    I separate myself from the chairman in the sense that I 
think that this is an extraordinary period in NASA's 
distinguished history.
    I was at the Jet Propulsion Laboratory on the occasion of 
the Curiosity landing on Mars after an eight and a half month 
trip. It was an extraordinary fete.
    And the work that has been done to integrate the commercial 
crew efforts along with continuing the work on an eventual Mars 
mission in terms of human flight, none of which would have been 
possible without the chairman's very significant efforts to 
make sure that even in tight budget years, that NASA is 
adequately funded.
    So I welcome you today. I know you have a difficult job in 
terms of oversight and we share in that responsibility of 
oversight. And so we will be able to learn from you about the 
challenges and issues that you have been dealing with.
    And I thank the chairman, and I will add any other comments 
for the record.
    Mr. Wolf. Thank you, Mr. Fattah.
    Pursuant to the authority granted in Section 191 of Title 2 
of the United States Code and clause 2(m)(2) of House Rule XI, 
today's witness will be sworn in before testifying.
    Please rise and raise your right hand.
    [Witness sworn.]
    Mr. Wolf. Let the record reflect the witness answered in 
the affirmative.
    Mr. Martin, your written statement will be made part of the 
record. You may proceed and summarize as you see appropriate.
    Mr. Martin. Thank you, Mr. Chairman and Ranking Member 
Fattah.

                 Testimony of Inspector General Martin

    The successful landing of the Curiosity Rover on the 
surface of Mars in August energized the public about NASA's 
activities in a way not seen since the final Space Shuttle 
flight.
    Similarly, two successful commercial resupply missions to 
the International Space Station by SpaceX are major steps 
forward and one of the agency's most high-profile, high-stakes 
initiatives.
    However, NASA continues to face significant challenges 
including the need to reprogram funds to address cost overruns 
in the James Webb Space Telescope. This shift contributed to 
delays in several ongoing projects and the cancellation of 
others including one with the European Space Agency for planned 
science missions to Mars.
    At the same time, NASA is busy developing a new rocket, 
capsule, and related launch infrastructure to enable crewed 
missions to an asteroid or Mars, expensive and technically 
complex undertakings in an increasingly austere budget 
environment.
    Indeed, from our perspective, declining budgets and fiscal 
uncertainties present one of the most significant external 
challenges to NASA.
    My written statement discusses our complete list of 
management and performance challenges. This morning, I plan to 
briefly highlight three.
    First, project management. Over its 50-year history, NASA 
has been at the forefront of science and space exploration. 
However, in addition to their many achievements, many NASA 
projects share another less positive trait. They cost 
significantly more to complete and take much longer to launch 
than originally planned.
    Last September, the OIG issued a report that identified 
four primary challenges facing NASA as it seeks to achieve 
project cost, schedule, and performance goals. These include 
the agency's culture of optimism, underestimating technical 
complexity, funding instability, and limited opportunities for 
project managers' development.
    Second, IT security. One year ago, I testified before the 
House Subcommittee on Investigations about the state of NASA's 
IT security. Among other things, I mentioned at the time that 
only one percent of NASA's laptop computers were fully 
encrypted compared to a government-wide average at the time of 
54 percent.
    Eight months after that hearing, an unencrypted NASA laptop 
containing personally identifiable information on more than 
40,000 individuals was stolen from the vehicle of a NASA 
employee. Agency officials estimate that credit monitoring and 
other expenses related to the theft could cost NASA up to 
$850,000.
    Following that incident, the NASA administrator accelerated 
the time table for encrypting the hard drives of all agency 
laptops. And as of this week, they reported an encryption rate 
of 99 percent.
    More broadly, however, our audits and investigations 
continue to identify recurring weaknesses in NASA's IT security 
program, including an inability to deter particularly 
sophisticated cyber attacks known as advanced persistent 
threats.
    And, finally, NASA's aging infrastructure. Eighty percent 
of NASA's 4,900 buildings are more than 40 years old and beyond 
their design life. However, NASA has not been able to fully 
fund required upkeep and maintenance costs and estimates its 
deferred maintenance expenses at $2.3 billion.
    One way NASA could reduce these costs is to reduce the 
amount of unneeded infrastructure in its inventory. To be 
successful, NASA must move beyond its historic ``keep it in 
case we need it'' mind set.
    In an audit we issued earlier this month, the OIG 
identified 33 facilities, including wind tunnels, test stands, 
airfields, and launch-related infrastructure, that NASA was not 
fully utilizing or for which NASA could not identify a future 
mission use. These facilities cost the agency more than $43 
million in upkeep costs in fiscal year 2011 alone.
    In closing, the National Research Council concluded in its 
December report that there is, and I quote, ``A significant 
mismatch between the programs to which NASA is committed and 
the budgets that have been provided or anticipated.''
    In other words, too many programs are chasing too few 
dollars. I hope that the NRC's report together with the ongoing 
work of the OIG and the GAO will contribute to a dialogue about 
NASA's future priorities and lead to enactment of a realistic 
budget that will enable the agency to accomplish its 
multifaceted mission.
    Thank you very much.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Wolf. Well, thank you.
    The NRC report came out of the committee. And, secondly, I 
do agree with Mr. Fattah. And, thirdly, if you look at the 
numbers from the CR that will be voted on, the numbers that 
came out of the House are higher than the numbers that came out 
of the Senate.

                 THREAT TO NASA FROM CHINESE ESPIONAGE

    And so if we are going to fund these programs, which I 
believe in deeply, we are not going to stand by and allow the 
Chinese and others to steal information from those programs.
    And I should tell the members--and maybe I should have a 
briefing with the members--the number of career federal 
employees that are contacting my office is incredible.
    I just got another one last night which I am not going to 
read into the record here. But I think maybe what I might do at 
an appropriate time is bring these career federal employees in 
to lay this on the record.
    This is not something that I read about one day in a 
newspaper report. These people are coming into my office, some 
fearful, time after time. And when the one story broke, now 
more are calling from more centers.
    So it is a problem, and I am not going to stand by. I am 
going to pursue this thing. And we are not going to fund these 
things if problems are not addressed.
    I agree with the Administration. I appreciate the statement 
that Donilon, the National Security Advisor made in a speech up 
in New York yesterday or the day before. We are not just going 
to pretend it is not taking place.
    You have a tremendous responsibility to aggressively pursue 
this and not blow it off. And some of the reports that we are 
getting from some of the career people is that when they are 
coming to some of your IG people at different centers, they 
just kind of blow them off.
    So if this is not pursued, we are going to have a hearing 
and bring these people in. Some are willing to risk their jobs, 
others are afraid but they will come, to kind of lay it out. We 
are not going to argue to bring up these budget levels and make 
them as high as we possibly can while cutting other programs we 
may not want to cut, and then have the Chinese steal the 
information. They are not only stealing the technology, which 
is a threat to our national security, but they are stealing 
jobs.
    To the Administration's credit, they laid it out finally, 
something that should have been done long ago by a previous 
administration. We are not going to stand for this.
    This committee hopefully, though I can only speak for 
myself, will not stand for it or allow it to be taking place in 
any of the programs that are funded through the committee.
    Some of this could lead to the death of Americans. So it is 
not just the technology and national security threat and a job 
issue, but the technology going into the wrong hands could lead 
to the death of Americans.
    Maybe we should sit down with all the members and let them 
see what is coming in. The Chinese government currently 
presents the most aggressive espionage and cyber threat to the 
United States, as we seen what Director Mueller, Director 
Brennan, and Director Clapper said yesterday.
    As just one example of their level of activity, eighty-five 
percent of all trade secret espionage cases brought by the 
Department of Justice against foreign nationals since 2009 have 
involved Chinese nationals spying for Chinese institutions.
    Although this spying takes place across many different 
technology disciplines, a White House report recently 
identified aerospace and aeronautics technology as a primary 
target of Chinese espionage.
    This is unsurprising given the rapid pace of development in 
China's space program which may rival the U.S. for human 
spaceflight dominance in the 21st century. China's space 
program is controlled by its military, the Peoples Liberation 
Army. It is the same group that is doing all the cyber attacks 
and has demonstrated hostile intentions in the past including a 
2007 anti satellite missile resulting in the creation of a 
large debris field that continues to threaten our space-based 
assets today.
    Do you agree with this characterization of the threat posed 
by China to the U.S. generally and to NASA specifically?
    Mr. Martin. I do.
    Mr. Wolf. Despite the significance of the threat and the 
very insular nature of China's own technology programs, NASA 
continues to allow access by Chinese nationals to a number of 
its own activities.
    For example, career federal employees gave us the names of 
29 Chinese nationals without U.S. citizenship currently working 
as contractors at Langley alone.
    How many Chinese nationals are working as contractors 
across the agency?
    Mr. Martin. We have not researched that, but I believe in 
correspondence to Mr. Rohrabacher, a copy of which was provided 
to you and your staff, I believe there are over 200 Chinese 
nationals with access to various NASA facilities.
    Mr. Wolf. Have we seen that? Has the committee seen that?
    Mr. Martin. Your committee staff has, yes.
    Mr. Wolf. And that was from?
    Mr. Martin. I believe that was from the NASA 
Administrator's office or the Office of Legislative Affairs at 
NASA to Mr. Rohrabacher in response to his questions along the 
same avenue.
    Mr. Wolf. China is one of eight countries designated by the 
State Department as countries of particular concern. The others 
are Burma, Eritrea, Iran, North Korea, Saudi Arabia, and Sudan, 
where the genocide continues. China has one of the closest 
relationships to the genocidal government of Sudan.
    I was the first Member of the House to go to Darfur to see 
with my own eyes the genocide. The genocide in Darfur 
continues. Two point one million people died in a north/south 
effort and, yet, China invites Bashir, who is an indicted war 
criminal, to come. So they are a country of particular concern 
that is also aiding countries like Sudan.
    How many foreign nationals from these others countries of 
concern are working as contractors across the agency?
    Mr. Martin. I do not know that, Mr. Chairman.
    Mr. Wolf. Can you look into that?
    Mr. Martin. We could look into that, sure.
    [The information follows:]

    According to NASA's Office of International and Interagency 
Relations, 192 Chinese nationals currently work at NASA Centers. We 
have requested that NASA gather the figures for the other listed 
countries and provide them to the Subcommittee directly.

    Mr. Wolf. My office has heard allegations from a number of 
NASA facilities, all career people, about poor security 
practices, including dissemination of information without 
proper export control reviews, inadequate security procedures 
for reviewing foreign nationals seeking NASA credentials, and a 
failure to appropriately supervise and regulate the access of 
approved foreign nationals to sensitive information.
    At best, these allegations are indicators of a systemic 
lack of attention to security requirements. At worst, they are 
something more insidious.
    Do you believe NASA, taken as a whole, has the appropriate 
agency culture of security?
    Mr. Martin. I believe they do. They have very detailed 
procedures, export control procedures, security background 
procedures both at the Center level and at the Headquarters 
level. The problem is in the adherence and execution of these 
by the hundreds of people across NASA.
    So I think the structure is there and there are a lot of 
different responsibilities from a lot of different groups, from 
the Office of Security at the Centers to the export control 
officers. There is a counterintelligence function at NASA and 
then there is a NASA Office of Inspector General. Each of us 
have our lanes and we work together on these issues.
    While I think the apparatus and the policies are there, the 
question is how well they are executed on a day-to-day basis.
    Mr. Wolf. The career people who have brought security 
related allegations to their local OIG office report to us that 
their claims were not adequately dealt with.
    How do you respond to that assertion?
    Mr. Martin. I respectfully disagree with that. If you are 
referring to the specific case at Langley that was brought to 
our attention by your staff last week, I think that was being 
handled appropriately.
    There was consultation between the Inspector General's 
Office and the Office of Security at Langley beginning in 
December. And they sat down in a meeting in early January and 
decided that, for the present at least, that this would be 
handled as a security matter. And that is the way it proceeded.
    NASA counterintelligence also was of that opinion. NASA 
counterintelligence does not work for me.
    Mr. Wolf. That runs counter to what these people said. And 
I think we may have to bring them in and have a public hearing.
    Mr. Martin. I would be pleased to have that conversation.

     ALLEGATIONS OF SECURITY VIOLATIONS AT THE AMES RESEARCH CENTER

    Mr. Wolf. We want to ask you about a particular set of 
security-related allegations from the Ames Research Center that 
your office investigated between 2009 and 2012. These were 
serious allegations that, if true, represent a violation of 
national security.
    Why did it take so long to complete your investigation at 
Ames?
    Mr. Martin. It was a very complicated investigation 
involving multiple agencies working with the U.S. Attorney's 
Office. I pushed as hard as I could. We were one participant in 
this multi-agency effort. There is also some coordination with 
the Department of State which is the agency that opines on IT--
excuse me--ITAR related matters, some slowdowns over there as 
well. So it was frustratingly slow.
    Mr. Wolf. We have been told that your office, as well as 
the prosecutor's office, changed personnel in the middle of the 
investigation.
    Why did you switch investigators and do you believe that 
change could have affected the quality of the case?
    Mr. Martin. Let me answer the second question first. No, I 
don't think it affected the quality of the case. In fact, I 
think it improved the quality of the case and the focus.
    We changed supervisors out in that west coast office. And 
when the new supervisor came in, she took stock of her staff 
and switched agents on the case to bring better focus to the 
case.
    I can't speak to why the U.S. Attorney's Office switched 
out their prosecutor. You would have to ask them.
    Mr. Wolf. It has come to our attention that a computer 
being held as evidence in this case was damaged beyond repair 
and that all of your electronic copies of that computer's hard 
drive were also either damaged or lost.
    Is that accurate?
    Mr. Martin. Partly. We had access to this computer. We did 
not have physical control of the computer, but we had a copy of 
all the information on the computer. And we conducted our 
investigation based on all the information on that computer.
    When we eventually went back to get the computer, the best 
evidence as they call it in the criminal world, we found out 
the agency that had the computer, it had been damaged.
    Mr. Wolf. Did the loss of the evidence harm your case?
    Mr. Martin. It did not.
    Mr. Wolf. I am going to go to Mr. Fattah in a minute or 
two, but just to cover one or two issues on this line.

   ALLEGATIONS OF SECURITY VIOLATIONS AT THE LANGLEY RESEARCH CENTER

    As you know, I am extremely concerned about a specific 
incident from Langley which took place late last year. A 
Chinese national, Bo Jiang, was hired as a NASA contractor 
despite his ties to an organization designated as a 
counterintelligence entity of concern. He then violated 
multiple terms of his service agreement, including provisions 
requiring him to be escorted at all times, to be restricted 
only to publicly available information, and to receive no 
direct funds from NASA. This culminated in his return to China 
in possession of NASA hardware and data.
    When did the IG's Office at Langley first become aware of 
the security concerns about Bo Jiang?
    Mr. Martin. Before I answer that, I am not sure all your 
facts are absolutely correct.
    Mr. Wolf. Why don't you correct them then?
    Mr. Martin. I would be happy to. There is an email--well, 
let me answer the question as far as when we first became aware 
of this. I think in mid-December, we first became aware of 
this.
    And in consultation with the Office of Security who has, at 
Langley, who has the responsibility for clearing individuals' 
access working with export, and so we started a discussion 
there, had a meeting in early January. The take-away decision--
--
    Mr. Wolf. How long had Bo Jiang been on the job?
    Mr. Martin. I believe he had been--had access to Langley 
over a year.
    Mr. Wolf. Over a year?
    Mr. Martin. He had been cleared by the Office of Security 
at Langley for access, unescorted access according to emails 
that I reviewed provided by your--in a report that was provided 
first by your staff to me last week.
    Mr. Wolf. Go ahead.
    Mr. Martin. So he had unescorted access at Langley 
according to the Office of Security for nine months to a year.
    Mr. Wolf. And was that appropriate?
    Mr. Martin. I don't know. Determining whether or not a 
foreign national should have access to a NASA center and what 
restrictions should be on that access is up to the Office of 
Export Control and the Office of Security, not the Office of 
Inspector General.
    Mr. Wolf. The Langley Office of Security Services wrote a 
full investigative report outlining the case against Bo Jiang.
    When did your agent at Langley receive a copy of this 
report?
    Mr. Martin. About two days after your staff gave me a copy 
of it. That is when we received a copy.
    Mr. Wolf. He never had any indication?
    Mr. Martin. He had conversations.
    Mr. Wolf. You are under oath.
    Mr. Martin. I am under oath.
    Mr. Wolf. He had conversation. What does a conversation 
mean with respect to when he knew about this?
    Mr. Martin. You are saying when do we receive a copy of the 
report?
    Mr. Wolf. Well, when did he know about it and receive a 
copy of the report?
    Mr. Martin. They discussed the concerns that the Office of 
Security had in early January and the decision was made for the 
Office of Security to pursue the review, the investigation. And 
if they came across anything that the Inspector General's 
Office would be in a better position to handle, they should get 
back in touch with us.
    Mr. Wolf. Where is Bo Jiang currently located?
    Mr. Martin. I don't know that. I would ask the Office of 
Security.
    Mr. Wolf. It is my understanding, this is the last 
question, we are going to go to Mr. Fattah, that co-workers of 
Bo Jiang advocated for an exception to be made allowing him to 
continue working with NASA in spite of his repeated violations 
of the security provisions of his employment agreement.
    Do you believe this attitude reflects an appropriate 
concern for agency security?
    Mr. Martin. I don't know that the underlying statement is 
accurate. We just received the report a matter of days ago and 
we are going through the report ourselves.
    Mr. Wolf. Mr. Fattah.
    Mr. Fattah. Well, first of all, let me reiterate that I 
share the chairman's concern about that we do a full review of 
where we are with these security issues.
    And I generally have the perspective that, you know, if we 
are going to give foreign nationals opportunities to work in 
and around these NASA facilities that, you know, that should be 
done on a reciprocal basis where American scientists and 
engineers have the same kind of access in these other 
countries. And if they do not, I do not see why we----
    Mr. Wolf. Would the gentleman yield?
    I agree completely with my friend from Philadelphia.
    How many NASA employees are on China facilities today?
    Mr. Martin. I have no idea.
    Mr. Fattah. Yeah. Well, you know, generally the 
relationship should be reciprocal and have some benefit on both 
sides.
    But from a security standpoint, I am very supportive of the 
chairman's concerns and appreciate the documentation that will 
be forwarded.

          NASA STRATEGY FOR IMPROVED INFRASTRUCTURE MANAGEMENT

    Let me move to this infrastructure issue because you have 
got an infrastructure that is valued at about $30 billion. You 
have this mind set that has been prevalent to, as you say, keep 
it in case you may need it which is prudent, I mean to some 
degree. But there is obviously opportunities where some of this 
infrastructure that has built up since, you know, over the last 
five decades may not be in NASA's future and some thought 
should be given.
    And I know that the Congress asked that a plan be developed 
in terms of this and so this is--I mean, one of the issues 
during the fiscal challenges that the country is facing is--you 
know, I am a big supporter of making the investments we need to 
make, but we also need to shed whatever unneeded costs we can.
    So, you know, I would be interested if you could talk about 
your review of this infrastructure issue and where you think we 
are at this point.
    Mr. Martin. Right. I think this is an issue that has 
bedeviled NASA for years and years and years as these major 
programs like the Space Shuttle program, you are left with 
infrastructure that was necessary during the conduct of that 
mission, what do you do with it.
    And NASA has been--they have had--they have gotten 
creative. They have done some leasing, but NASA is still 
saddled with vastly more infrastructure and facilities than it 
frankly can maintain in a safe way.
    And so unfortunately over the years, we have seen also a 
deterioration in the cross-agency support budget that primarily 
funds these facilities. And so we--that is what leads to the 
$2.3 billion in deferred maintenance.
    And so I think NASA needs to be smarter. They need to do, 
as the Chairman indicates, be clear on their strategic mission 
and their focus and then ensure they have the facilities to 
meet that mission and focus.
    And then they need to make the difficult call perhaps to 
either demolish or to lease or to give up some of these 
facilities that have no current mission need or no future 
mission need. And this is difficult.
    Mr. Fattah. Let me ask you this question. Do you believe 
that the strategy in place now or that is being put in place is 
an effective way to make some of these--to get to the decision 
package you would need to make decisions about what you need 
and what you do not need?
    Mr. Martin. The process appears--the folks at NASA appear 
committed. They have a couple different initiatives ongoing 
now. It is going to take the concerted effort of the senior 
levels at NASA, the Administrator, and it is going to frankly 
take--there is a good bit of political push-back when you are 
talking about an arc jet or a wind tunnel or an airfield at 
someone's district being potentially excessed. And so there has 
to be that political will. These are very difficult decisions.
    Mr. Fattah. Thank you, Mr. Chairman.
    Mr. Wolf. Thank you.
    Mr. Culberson.

     ALLEGATIONS OF SECURITY VIOLATIONS AT LANGLEY RESEARCH CENTER

    Mr. Culberson. Thank you, Mr. Chairman.
    Mr. Martin, as the Inspector General obviously you are 
interested in auditing the agency to make sure that our tax 
dollars are being spent wisely, to make sure that the agency 
complies with federal law and is carrying out the policies that 
the Congress sets out for it.
    Mr. Martin. Yes, sir.
    Mr. Culberson. Another essential part of your 
responsibility is in pursuing investigations of potential 
criminal violations.
    Mr. Martin. That's correct.
    Mr. Culberson. Yes, sir. And because that is the scope of 
your jurisdiction I believe, of any Inspector General, if a 
federal employee within the scope of your jurisdiction lies to 
you or misrepresents a fact or conceals evidence in the course 
of an official investigation conducted by your office, that is 
a violation of federal law that can be prosecuted by the U.S. 
Attorney.
    It is subject to essentially the same thing as lying to an 
FBI agent, right?
    Mr. Martin. Yes, sir.
    Mr. Culberson. That is your experience----
    Mr. Martin. Yes, it could be.
    Mr. Culberson. I am particularly interested in the fact 
that you said that, in your opinion, the policies and 
procedures that NASA had in place were adequate to protect the 
agency against----
    Mr. Martin. If fully executed, and if correctly executed.
    Mr. Culberson. The problem was with individuals at NASA. In 
particular, in referring back to the Chairman's question.
    Mr. Wolf. Sure.
    Mr. Culberson. I want to ask follow-up on the--on the 
incident at Langley.
    I heard you say that the first time that the Office of 
Inspector General became aware of this problem at Langley was 
in mid December and that the first meeting that you had took 
place in mid January.
    Mr. Martin. Early January.
    Mr. Culberson. Early January.
    Mr. Martin. The 8th of January is my understanding.
    Mr. Culberson. Okay. And there was apparently a report, if 
I may, sir, forgive me, there was apparently an investigative 
report outlining the case against this Chinese national and 
that you did not became aware of that report--
    Mr. Martin. That we didn't receive the report until last 
week.
    Mr. Culberson. Until last week.
    Mr. Martin. That is correct.
    Mr. Culberson. But how did you become first aware of this 
Chinese national working at Langley?
    Mr. Martin. Well, again, my understanding, and my facts are 
not--I wasn't involved obviously hands-on in the case, that 
this individual was working for an organization that NASA 
contracted with and had been working or had access to the 
Center for close to a year working on a software or a coding 
project.
    Mr. Culberson. And how did your office become aware of that 
in mid December?
    Mr. Martin. I think--believe we got a call or--either 
directly or indirectly from some export control officials.
    Mr. Culberson. Who were concerned because?
    Mr. Martin. That is what I don't know.
    Mr. Culberson. Okay.
    Mr. Martin. Yes, that is one of the many questions that I 
have about these activities.
    Mr. Culberson. Who in your office did the Office of Export 
Control contact?
    Mr. Martin. Someone in our Investigations Division, I 
believe.
    Mr. Culberson. And so when your office, because you do 
criminal investigations as well, becomes aware of a potential 
criminal violation, you open up a formal investigation?
    Mr. Martin. We review the matter, that is right.
    Mr. Culberson. Sure.
    Mr. Martin. We may open a preliminary investigation. We may 
open a full investigation. I believe in this matter, the 
Headquarters investigative folks contacted our agents at the 
Langley Center.
    Mr. Culberson. In mid December?
    Mr. Martin. In mid-December. And then they coordinated with 
the Office of Security.
    Mr. Culberson. At that point, an investigation is opened. 
Any other criminal investigation?
    Mr. Martin. No, not until you have more facts.
    Mr. Culberson. Yeah. But, I mean, you basically pursue it 
like any other law enforcement agency because essentially that 
is what you are is a law enforcement agency.
    Mr. Martin. We are a law enforcement agency, correct----
    Mr. Culberson. Okay.
    Mr. Martin [continuing]. With 1811s.
    Mr. Culberson. For example, one of the many things that 
concern me about this, as the Chairman, I know every Member of 
the committee is concerned about it, is that obviously you have 
got a pretty good case like of espionage.
    And there is also language in the statute that Congress has 
enacted now several times that prohibits NASA from sharing 
information with, from cooperating with the Communist Chinese.
    But I think it is important that we not have any illusions 
about who they are. They are Communist Chinese. Whatever they 
do is aimed at extracting as much information as they can from 
the United States for their own benefit.
    Particularly when it comes to space exploration, the 
information that they steal from NASA is going to be used to 
help better target their intercontinental ballistic missiles on 
the United States. This is a really serious matter.
    So, you become aware of a Chinese national that the Export 
Control Office is concerned enough to contact you about in mid 
December and the time, several weeks since the chairman's 
office has contacted you about this. Certainly you know more 
about what your office did in pursuit of what is obviously a 
very serious breach of security, a violation of federal law, 
and a probable criminal conduct.
    Mr. Martin. Well, I think we----
    Mr. Culberson. Tell us more detail. I mean, I am----
    Mr. Martin. Sure.
    Mr. Culberson [continuing]. Not getting a lot of detail 
here.
    Mr. Martin. Okay.
    Mr. Culberson. And you have known about this for some time.
    Mr. Martin. No, we didn't know about this for some time. 
Let me back this up. First off----
    Mr. Culberson. You personally knew for several weeks. The 
chairman's office told you.
    Mr. Martin. Last week.
    Mr. Culberson. Let me try to get, if I could, a better----
    Mr. Martin. Sure.
    Mr. Culberson [continuing]. Picture.
    Mr. Martin. Last week, sir.
    Mr. Culberson. Okay.
    Mr. Martin. Last week. And let me back up. Your statement, 
there is a lot in that statement which I think was a question 
about a confirmed case of espionage.
    Mr. Culberson. Okay. But it looks like----
    Mr. Fattah. Can we let the witness respond, please?
    Mr. Culberson. Sure. Yes, sir.
    Mr. Martin. I don't know that to be true. And, in fact, the 
people closest to the ground, the people who are charged with 
espionage cases within the NASA structure, there is a 
counterintelligence, they don't believe it is--my understanding 
is they don't believe it is an espionage case. They believe 
this is most appropriately--has been most appropriately handled 
as a security matter which is why the Office of Security is the 
group that did the investigation down at Langley.
    Now, we are looking at their report as is the CI component 
of NASA, as is the FBI. We are all going to take a look at this 
report and drill down into it. And if there is anything for us, 
for the Office of Inspector General, within our lane, within 
our jurisdiction to aggressively investigate, we sure as heck 
will.
    I don't want to give any illusions that the Office of 
Inspector General is in any way not stepping up to the plate 
and enforcing the conduct of NASA employees or the--in any way, 
shape, or form looking the other way while NASA's important 
information is going out the front door or the back door.
    Mr. Culberson. Sure. I understand that. And I am trying to 
get an idea of the scope of your lane, the responsibility. One 
of our greatest frustrations in Congress is trying to make sure 
the laws that we pass are enforced.
    Mr. Martin. Sure.
    Mr. Culberson. There are a lot of agencies out there to do 
that. When it comes to a criminal violation, obviously that is 
the first responsibility of the arms of the federal law 
enforcement agencies, whether it be DEA, ATF, the Marshal 
Service, whoever they are, ultimately do an investigation, 
passing the information on if they think there is probable 
cause to the U.S. Attorney's Office. My good friend, Mr. 
Schiff, was a U.S. Attorney. It is a lot of complicated moving 
pieces.
    I am just trying to get a handle on the scope of your 
lane----
    Mr. Martin. Sure.
    Mr. Culberson [continuing]. And responsibility. You have 
got a statute that says no interaction with China, no 
information exchanged, we are going to keep the Chinese out. 
The NASA Security Office is, therefore, obviously in part 
responsible for this.
    I mean, it sounds like you all are sort of taking a passive 
role in this. I just do not understand.
    Mr. Martin. No, absolutely not taking a passive role. 
Again, I think we need to unpack your question if, again, if it 
is a question.
    Mr. Culberson. Sure. Just so we understand your lane.
    Mr. Martin. When you say a law was passed to allow no 
Chinese, that is not what the law says. The law prohibits 
bilateral agreements, contracts with Chinese companies and 
Chinese government.
    There is no law that I am aware of, and please, Mr. 
Chairman, correct me if I am wrong.
    Mr. Wolf. Yes, but it also calls for notification and NASA 
did not notify when they should have notified, particularly on 
Langley. So there is a violation there, and a violation of the 
spirit, too.
    Mr. Martin. Sure.
    Mr. Wolf. And I would like you to ask, if the gentleman 
would yield further----
    Mr. Culberson. Please.
    Mr. Wolf. Basically I agree with my good friend, Mr. 
Fattah. If you could find for the record and call us today and 
we will put it in the record, how many NASA employees are now 
in Chinese facilities? Because you told us how many Chinese 
nationals are in NASA facilities, so how many Americans are in 
Chinese facilities? Can you find that out and call us by the 
end of the day?
    Mr. Martin. I can try. Again, this is--he is talking about 
being outside my lane. This is sort of a big NASA question.
    Mr. Wolf. Well, if you can find out, you can call.
    Mr. Martin. I am going to ask.
    Mr. Wolf. Yes.
    Mr. Martin. Right. I will ask the Administrator.
    [The information follows:]

    According to NASA's Office of International and Interagency 
Relations, no NASA employees are working at China's space-related 
facilities.

    Mr. Wolf. Yield back.
    Mr. Culberson. Yes and you have been generous with the 
time, Mr. Chairman, and I will pass.
    But talk to us, if you could, about how this investigation 
proceeded, talk to us about, if you could, what your office has 
done, and also I really would love to know what happened to the 
computer and to this individual. Talk to us about the 
investigation. What is your office doing and have you done 
since you first became aware of this?
    Mr. Martin. Right. Again, I am happy to speak about this, 
what I know about this. I am not sure this is the appropriate 
forum because this is an ongoing matter that several different 
agencies including our own continue to look at in light of 
receipt of the investigative report from the Office of 
Security. So I would be hesitant to go into a good bit of 
details at this point.
    Mr. Culberson. Maybe you can do it in writing.
    Mr. Martin. I would be happy to chat with your staff. I 
would be happy to chat with you.
    Mr. Wolf. Why don't you do that?
    Mr. Culberson. If you would do that in writing.
    Mr. Wolf. And if you would be in touch with Mr. Culberson.
    Mr. Martin. I would be happy to.
    Mr. Culberson. I will submit questions to you as well to be 
submitted in writing.
    Thank you, sir.
    Mr. Wolf. Good.
    With that, Mr. Schiff.
    Mr. Schiff. Thank you, Mr. Chairman.

                   LAPTOP ENCRYPTION AT NASA CENTERS

    Mr. Martin, I wanted to talk with you about a couple 
issues, the first of which is of deep interest to many of my 
constituents out at JPL and that involve the loss of a NASA 
laptop that was stolen from an employee's locked vehicle. The 
laptop contained records of sensitive personally identifiable 
information for a large number of NASA employees. Evidently the 
number of individuals whose data may have been compromised has 
been growing.
    Has NASA completed the assessment of the extent of the 
disclosures? Is there any indication that the personally 
identifiable information on the laptop has been utilized by 
anyone? Has there been any identity theft or any other result 
of the theft?
    Mr. Martin. Mr. Schiff, my understanding is they--NASA has 
completed its examination, forensic examination of this laptop 
and, no, I think the answer is there has been no reported 
misuse or use at all in any way of the information, the PII on 
that laptop.
    Mr. Schiff. Is there----
    Mr. Martin. NASA is in a--excuse me--is in a cautionary 
mode with the credit monitoring service for the 30 or 40 
thousand individuals.
    Mr. Schiff. Is there any indication that whoever stole this 
laptop knew what was on it? Was it stolen because of the data 
on it or was it stolen because it was a laptop?
    Mr. Martin. We don't know that. My assumption having been 
in this business for the last 15 or 20 years is that it was 
stolen because it was a laptop and because it was unfortunately 
mishandled by the employee.
    Mr. Schiff. One of the things it revealed was how little 
data on laptops had been encrypted.
    What steps have been taken and do you know to what extent 
that problem has been addressed?
    Mr. Martin. Yes, I think it has. We raised the red flag on 
the issue a year ago when we testified. As I indicated in my 
opening remarks, one year ago at this point, only one percent 
of NASA's laptops have been encrypted compared to a government-
wide average of 54 percent. I frankly find that shocking.
    After the theft, it was on Halloween that particular theft 
of the laptop that you are speaking to, Mr. Schiff, the 
administrator accelerated the time table. And as we sit here 
today, I believe 99.4 percent of all NASA laptops are 
encrypted.
    Now, there are--there is a subset of approximately 4,000 
laptops that have received what are called waivers for 
particular reasons, either they don't have data on them or they 
are stationary or--and the biggest chunk of those are actually 
at JSC and they are configured to mirror the configuration that 
is on the International Space Station.
    So they don't want to put the encryption software here 
because I don't believe they are encrypted up on the ISS.
    Mr. Schiff. The theft of a laptop is a fairly low tech way 
to steal data.
    What other steps is NASA taking to safeguard the personal 
information it collects from employees, contractors, and 
others?
    As you might know, this is an issue that has been raised in 
the context of a lawsuit by several JPL employees over the 
government's collection of personal information pursuant to 
HSPD 12.
    What can you tell us in terms of what other steps they are 
taking to protect personal information?
    Mr. Martin. Well, it would be personal information and NASA 
generated information. I think--I couldn't agree more with the 
Chairman's remarks about what various people have been saying 
about the cyber security threat to the country, and I will say 
in particular, because I happen to sit here, in particular to 
NASA.
    NASA has probably a quarter of all the public facing Web 
sites of any civilian agency, over 3,000 Web sites given its 
mandate under the Space Act to share information. And while you 
are achieving that mandate of sharing information, you are also 
providing a pretty huge attack surface for folks who want to 
attempt to penetrate and steal data.
    And NASA has been the subject, a victim, rather, of many 
attacks over the years at JPL and at other Centers. I am proud, 
and I inherited this when I came three years, but the Office of 
Inspector General at NASA has one of the, I would say the most 
sophisticated and aggressive cyber security, we call it our 
Computer Crimes Division, units in all the Federal Government.
    So NASA has taken a series of steps including creation of 
what they call a SOC, a security operations center, where they 
attempt to centralize all the information on cyber threats, 
according to NASA, but as we have pointed out in probably 20 or 
30 audits and investigations over the last handful of years, 
NASA has a long way to go.

                       JAMES WEBB SPACE TELESCOPE

    Mr. Schiff. Let me turn your attention to James Webb, if I 
could. I do not know how much you have been involved in the 
analysis of the cost overruns at Webb. I am a big believer in 
the science that will come out of Webb, but I am just 
incredibly distressed over the multiple cost overruns and the 
degree to which James Webb has sucked not only the oxygen but 
the money out of so many other important planetary science 
projects.
    Can you give us a little sense of what you think led to 
such an extraordinary series of overruns, whether NASA has in 
place sufficient protections in the future to guard against 
this, and do you have any idea whether we have seen the end of 
the overruns at Webb because I continue to hear that we are not 
done yet in terms of the increasing fiscal toll of Webb?
    Mr. Martin. Right. I wish I could give you a detailed 
response to that.
    The Government Accounting Office--that shows how old I am--
the GAO has been auditing Webb and they are mandated by 
Congress I think once or twice a year to report on Webb. And so 
to avoid duplication our office hasn't.
    But from my perspective inside the building it goes to what 
I talked about in the opening statement just about NASA's 
historic inability, particularly with large projects to handle 
these project management challenges.
    We had, you know, cutting edge technology and this sort of 
culture of optimism. Now, you need a culture of optimism to go 
beyond the stars at NASA and that should be encouraged, but 
when you are talking about schedule and budget you can't--you 
shouldn't be that optimistic, and I think it was sort of the 
confluence of these factors and given the incredible, you know, 
enormity of the James Webb architecture that led to where they 
are. But unfortunately I think GAO is the one.
    Mr. Schiff. Well, you know, I know, and thank you, we will 
certainly follow up with GAO, but I know in your assessment of 
systemic challenges facing NASA and what you describe as overly 
optimistic or over confidence you have to look at things like 
Webb to determine, you know, where you have the big problems.
    Do you think in the case of Webb and others it was over 
optimism being able to develop technologies that were 
nonexistent at the time, was that really the driver or was that 
really only a small piece of it but rather problems in the 
acquisition process, in the development process, in the 
management and oversight process, were those much bigger 
contributors to the size of the overruns then the technological 
leaps that, you know, that we have to make on all of these new 
firsts?
    Mr. Martin. I can't weigh those. My sense is that each of 
those played a role in where we find Webb to be. Both is way 
over schedule, way over cost.
    I don't know whether it was the technological that was the 
primary driver or whether it was just the poor oversight, poor 
management, but it certainly came together and we are where we 
are.
    Mr. Schiff. Thank you, Mr. Chairman.
    Mr. Wolf. Dr. Harris.
    Mr. Harris. Thank you very much, and I will give you a 
break from some of that to----
    Mr. Martin. Kind of angle this way if you don't mind.
    Mr. Harris. Oh, thank you.

          NASA STRATEGY FOR IMPROVED INFRASTRUCTURE MANAGEMENT

    You know, one evening I--I don't know why I was watching C-
Span, but you know, I saw Burt Rutan from Composite Scale--
Scale Composites rather, kind of talk about the future of 
space. And one of the most interesting but I think 
disappointing things he said was that these future missions, 
like they will be private missions and they will probably 
certainly not be launched or supported by anything the U.S. 
government owns or runs because there just too much red tape 
involved with it.
    Your report here indicates that, you know, one of the 
problems facing NASA is this inability--it sounds like an 
inability to kind of make a decision whether to sell some of 
their excess properties or lease their properties.
    The first question is, are there adequate measures in place 
in the agency to address the problems that Mr. Rutan suggested, 
which are that it is just too difficult to deal with the 
federal government? I assume he meant in leasing facilities or 
gaining access through leases to NASA facilities. So is there 
enough of an effort going on to deal with that?
    And the second question is, you mention--there is actually 
a mention of an old report in 2007 and a slightly newer report 
about the number of properties, but do you have an estimate of 
what the estimated value of the excess properties would be 
either for sale or for lease?
    Mr. Martin. We have done a recent review looking at NASA's 
leasing practices, and our bottom line was they could do 
better, in fact frankly could do much better.
    I think as a fundamental matter as far as an inventory 
control they don't have a good database or good set of 
information about what facilities are even available for 
leasing. And then once they have identified a facility that is 
available to lease they don't market it or they aren't 
transparent in their efforts. And so we made a series of 
recommendations there.
    Fundamental to the leasing issue is you only get to the 
leasing question after you have decided that NASA needs to 
retain the facility for its potential future use.
    If you have made the decision that it is excess property, 
that we no longer need it, then leasing should not be a way to 
avoid the fact that you need to give it a GSA and excess it and 
they may sell it to either another government agency or give it 
to another government agency or sell it to a private concern.
    So I think one of the cautions that we raised in our report 
was not substitute leasing but perhaps the harder decision of 
saying we no longer need--we don't need it now and we have no 
future mission use.
    Mr. Harris. And could you just let my office know where to 
get a hold of that report?
    Mr. Martin. Sure.
    Mr. Harris. That specific report. Thank you.
    Mr. Martin. It is on the Web site. We will be happy to.
    Mr. Harris. And have you made any estimate of the value--
the potential value of either selling the property or leasing 
the property to the government?
    Mr. Martin. As I spin around and turn and ask my head of 
audits.
    Mr. Harris. I mean there was an estimate that ten percent--
I think they said there was a 2007 report done that indicated 
that ten percent was excess, but I have to imagine that given 
that the Space Shuttle is offline it has got to be more than 
ten percent now.
    Mr. Martin. That hasn't been updated. Our most recent 
report we identified 33 specific facilities, including vacuum 
chambers, test stands, airfields that NASA itself identified as 
having no current mission or no future mission use. And just 
the general upkeep for these 33 facilities was $43 million in 
one year alone.
    So the upkeep for facilities that NASA has no current or 
identified future mission use is quite staggering.
    Mr. Harris. But those are the facilities they have 
identified, but----
    Mr. Martin. Correct.
    Mr. Harris [continuing]. I would--I would guess that they 
are underestimating the number of facilities that they really 
perhaps don't need.
    So when is the next plan to actually look property by 
property and to do an assessment of what is excess and what is 
not?
    Mr. Martin. Well, I think my sense is that NASA is under 
requirement by Congress to come up with that. In fact every two 
or three years in the authorization bill NASA is required to 
assess. They never quite use the word BRAC, but they do talk 
about reducing unneeded infrastructure. And we have done a 
series of reports, we will continue to stay on them, and NASA 
has a series of initiatives under way.
    Again, as I mentioned, they seemed quite promising if they 
have the will to see them through. These are very difficult at 
times political decisions.
    Mr. Harris. Okay. Thank you very much.
    Mr. Martin. Thank you.
    Mr. Harris. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Rooney.
    Mr. Rooney. Thank you, Mr. Chairman.
    Mr. Martin, glad to see you still have a little bit of a 
Pittsburgh accent.

          IMPROVING INFORMATION TECHNOLOGY SECURITY GOVERNANCE

    Over the past couple years the House Intelligence 
Committee, which I sit on along with Mr. Schiff, has held 
countless hearings and briefings on the intelligence leaders 
regarding the growing threat of cyber espionage and its impact 
on our national security. As somebody who also sat on the Arms 
Services Committee last year and served in the military it is 
obviously a great concern for me.
    And just yesterday the intelligence leaders announced that 
cyber warfare they believe is the single most--or biggest 
threat to our national security. And I share the chairman's 
concern over China's growing perpetration of these attacks.
    These attacks, as you know, risk not only our intellectual 
edge but also the billions of dollars we have invested in 
competitive technology through programs in DoD and NASA.
    What is most troubling is that NASA's technologies dual use 
by its very nature and many of the civilian use applications 
can be used for military and non-proliferation purposes.
    So given our enormous investment and faith in the success 
of NASA's core missions this committee should do everything 
possible to help protect those investments from being 
compromised by cyber attack.
    So my question to you is how, do you suggest that this 
committee can better enable NASA's CIO to compel mission 
directorates and contractors to share cyber threat information 
that is critical to developing technologies to prevent future 
attacks?
    Mr. Martin. Right. We have long-standing concerns about the 
effectiveness of NASA's current IT governance structure to 
effectively handle the many serious IT security concerns.
    We have an ongoing audit that we hope to wrap up in the 
next four or five weeks that is going to set out some 
significant findings and some significant recommendations for 
potential restructuring NASA's approach. Because as you may 
know NASA's CIO has very little authority over the mission 
directorates where frankly 60 plus percent of the funds, the IT 
funds, are spent. And so she can set out the--the CIO sets out 
policy but doesn't have the stick to ensure that that policy is 
effectively implemented.
    So I think NASA needs to continue to do work to more 
effectively strike an appropriate balance there.
    Mr. Rooney. Thank you, Mr. Chairman.
    Mr. Wolf. Thank you, Mr. Rooney.
    Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman. How are you doing 
inspector?
    Mr. Martin. I am okay.
    Mr. Graves. Good. You are doing well today.
    Mr. Martin. Unless you tell me otherwise.
    Mr. Graves. No, no, you are doing amazingly well.

         NASA STRATEGY FOR IMPROVING INFRASTRUCTURE MANAGEMENT

    And I wanted to follow up on Dr. Harris' thoughts there 
because that is intriguing to me that I read in your statement 
here there are 4,900 buildings and structures within NASA and 
you as well as your statements say your office has identified 
33, or at least they have recommended 33.
    Mr. Martin. Low hanging fruit.
    Mr. Graves. Right. Out of 4900. What can we do?
    And maybe first of all what is your office able to do? How 
far can you go to insure that they are being as transparent as 
possible about identifying those properties?
    And then what can we do to further encourage not 
maintaining $43 million worth of maintenance expenses?
    Mr. Martin. Right. We can keep the heat up through our 
audits and oversight, we can assess the Agency's efforts in 
identifying and divesting itself, or if they think they have a 
legitimate potential future mission moving to an option like 
leasing which would help at least fund the operation and 
maintenance cost, that NASA wouldn't be on--you know, that 
wouldn't be their expense.
    But it really is going to be sort of a coming together of 
the Administration and the Congress about these are the future 
missions for NASA, the big ticket missions, these are the 
facilities that we need to accomplish those missions, and then 
once excess, you know, having frankly the institutional will, 
the political will to let those go, and that is what it is 
going to come down to.
    Mr. Graves. Well, and you mentioned the political pressures 
earlier and then now political will.
    When you have various properties, let us say it is these 33 
that aren't being utilized whatsoever it sounds like and aren't 
being identified for future use but yet we are spending money 
to maintain them, what is the political gain of anyone of 
keeping them open? I don't understand the constituency that 
would say yes we want to keep a vacant building vacant.
    Mr. Martin. You clearly don't have a NASA center in your 
district.
    Mr. Graves. That is true. That is true. That is why I need 
your explanation.
    Mr. Martin. Exactly. I have only been here for three and a 
half years at NASA, spent twelve years at Justice, Justice was 
a bit different on that.
    I think there is a concern--I am told there is a concern 
that with capabilities if you have a test stand or a vacuum 
chamber you currently have and you make yourself a viable 
player for potential either current or future NASA projects, if 
you divest yourself of that ability you have less flexibility 
in arguing that you should be the recipient of that next 
project that is coming.
    And there is a significant amount of downsizing of 
facilities or capabilities then the Center itself perhaps could 
be, do we still need that particular Center? And that sets up 
there is a lot of jobs there, there is a lot of economy. Those 
are the issues.
    Mr. Graves. Okay.
    Mr. Martin. It is a slippery slope.
    Mr. Graves. Well, I am glad they aren't in the typewriter 
business or payphone business, because you know, things change. 
You know, I guess the economy changes technology changes, but 
to me--and you are right, I don't necessarily have a facility 
in my district, but I would much prefer an operating facility 
with employees that are being paid and receiving a paycheck in 
a facility that is not vacant as opposed to a vacant building 
or facility or airstrip or whatever it might be.
    Mr. Martin. Right.
    Mr. Graves. Well, I appreciate your explanation and 
transparency with that.
    Mr. Martin. Appreciate that.
    Mr. Graves. Thank you.
    Mr. Martin. Thank you.
    Mr. Wolf. Thank you.
    Mr. Fattah.

                COST SAVINGS FROM COMMERCIAL SPACEFLIGHT

    Mr. Fattah. You mentioned in your opening statement about 
the commercial crew successes both in terms of SpaceX and 
Orbital and a number of other of the contracts have come to 
fruition and good work is being done.
    I want you to focus a little bit if you could tell us a 
little bit about the cost savings between the Administration's 
push to have missions to space station cargo delivered through 
a private company versus when we were doing it the old way with 
the shuttle.
    Mr. Martin. Right.
    Mr. Fattah. Because I think this is one of the big cost 
savings as we go down the road in terms of lower orbit travel. 
So if you could comment on that.
    Mr. Martin. Well, I can and I can't. We have not done a 
particular cost analysis to look at that, but obviously it 
became very, very expensive per shuttle flight. You know, we 
have heard numbers of upwards of $500 million per shuttle 
flight toward the tail end. We are sort of keeping the standing 
army marching forward, and so the shuttle was an inefficient 
vehicle for cargo. It was an essential vehicle for building the 
Space Station.
    So we have not done. But the Space Act Agreements and then 
the follow on FAR-based contracts that NASA entered into, the 
$1.6 billion for SpaceX for the twelve resupply missions, two 
of which have been successfully accomplished and the $1.9 
billion for Orbital for the nine resupply missions, you know, 
look to be relatively effective and economical.
    Mr. Fattah. Thank you, Mr. Chairman.
    Mr. Wolf. Thank you, Mr. Fattah.
    I have a number of other questions on the security issues, 
which we will come back to.

                      USE OF SPACE ACT AGREEMENTS

    There is a wealth of information available through public 
online sources about unclassified Federal contracts, including 
who receives those contracts and what amount and for what 
purposes, but there appears to be no comparable source of 
information about NASA Space Act Agreements.
    Is there any reason why Space Act Agreements should be 
treated differently than FAR-based contracts from an oversight 
or disclosure perspective?
    Mr. Martin. None that I can think of, sir.
    Mr. Wolf. NASA said that all Agreements concluded under 
international law are coordinated with other Federal agencies 
under a process managed by the State Department. What do you 
know about this review process? Do you believe it is an 
effective safeguard against Agreements that might pose a 
security risk?
    Mr. Martin. Mr. Chairman, I know very little about the 
oversight process, which is one of the reasons why several 
weeks ago we opened a review looking at NASA's use of Space Act 
Agreements, the funded Space Act Agreements, the reimbursable, 
and the non-reimbursable Space Act Agreements. And NASA's 
structure and adherence to export control regulations will be a 
key focus of that review.
    Mr. Wolf. Our office has reviewed a list of active NASA 
Space Act Agreements and found a number of North America 
subsidiaries of foreign companies on the domestic agreement 
list. Presumably these agreements were not subject to the 
additional State Department review because they were deemed 
domestic.
    Should these agreements get additional scrutiny because of 
indirect ties to foreign entities?
    Mr. Martin. Mr. Chairman, I believe that would be part of 
our ongoing review as well.
    Mr. Wolf. Each NASA center is empowered to enter into its 
own Space Act Agreements with little or no Headquarters 
involvement. In fact we found that Headquarters did not even 
know the full universe of the agreements that had been entered 
into by the various centers.
    Does this high degree of center autonomy cause 
inconsistency in the application of management standards or 
internal controls to Space Act Agreements?
    Mr. Martin. Again, Mr. Chairman, I am sure that it does 
knowing how NASA works in its decentralized fashion, but this 
will also be a focus of our review.
    Mr. Wolf. Okay. We will share it with you, but I saw a 
letter where there was a number of people who directly or 
indirectly had these agreements and they were advocating for 
somebody in NASA.
    Would that be a problem if there were Space Act Agreements 
that were given and then some of the people who got those 
agreements were advocating for the person that gave the 
agreement?
    Mr. Martin. Mr. Chairman, I would have to know more about 
the facts. I just don't know enough about that particular 
concern.
    Mr. Wolf. Well, I am going to give you the letter and then 
you can get back to me by the end of the day just to tell me if 
you think there is a potential problem.
    Mr. Martin. Yes, sir.

         NASA STRATEGY FOR IMPROVING INFRASTRUCTURE MANAGEMENT

    Mr. Wolf. There are many members of Congress who oppose a 
proposal to eliminate some specific pieces of NASA 
infrastructure and point to the possibility of leasing that 
infrastructure to an external user as a preferable alternative, 
but you believe that leasing is often not an acceptable or 
beneficial option. Why is that?
    What do you think of NASA's recent announcement that it 
would seek to lease Hanger One at Ames, one of the facilities 
that your office has determined has no current or future NASA 
purpose?
    Mr. Martin. My understanding of the current state of the 
Hanger One is it has been excessed to the General Service 
Administration and the General Service Administration is in the 
process of finding a new tenant for the facility. Once it is 
excessed to the General Service Administration it is out from 
the NASA umbrella and outside of NASA's recurring cost of 
operations and maintenance.
    So I have no problem--the Inspector General's Office has no 
problem with finding a tenant for Hanger One, our audit when we 
did the review of Hanger One, NASA had no current or future 
mission use, and our recommendation if you have no current or 
future mission use for any facility, particularly one as big as 
that, is get rid of it, and that is what NASA did.
    Mr. Wolf. Well, I am going to give you another letter from 
a group, and I won't mention their name, with regard to that. 
Could you get back to me by the end of the day and tell me if 
you think there is a problem? Okay?
    Mr. Martin. Yes, sir.
    Mr. Wolf. Okay.

                     COST AND SCHEDULE PERFORMANCE

    NASA's difficulties with cost and schedule performance are 
serious and long-standing. According to GAO, however, there is 
evidence of significant improvement over the past few years 
among major projects other than the James Webb and the Mars 
Science Lab. Do you agree with this characterization?
    Mr. Martin. I agree that there has been some improvement, 
in fact we put out an audit in the last 30 days that looked at 
the Maven Project, which is the Mars atmospheric rover that 
they are going to hopefully launch in November of 2013, and it 
is a relatively small in NASA terms, it is a $453 million 
project that appears to be on cost, schedule, and timetable for 
launch.
    So I think NASA still has difficulty with its larger 
projects, and so we will see whether some of the new techniques 
and protocols they have will be as applicable to some of the 
larger projects like Webb.
    Mr. Wolf. So do you think there are factors that they have 
dramatically improved, or you don't know?
    Mr. Martin. I think they have improved, I wouldn't call it 
dramatically improved.
    Mr. Wolf. Last year NASA proposed the cancellation of GEMS 
Mission due to concerns about cost and schedule risks. This was 
a relatively rare proposal, at least in terms of science 
projects.
    Do you think the cancellation of GEMS is a sign that cost 
and schedule discipline are now being more seriously enforced 
within the agency, or was the GEMS cancellation an isolated 
incident?
    Mr. Martin. I think that remains to be seen. I hope it is 
an indication of more adherence to the cost and schedule 
fidelity, but I think it remains to be seen whether it is just 
an aberration.
    Mr. Wolf. Our experience with the GEMS cancellation 
proposal showed that while NASA has reams of policies and 
procedures for approving missions, it has surprisingly little 
formal guidance for how to go about canceling programs.
    Have you come across this issue in your assessment of 
NASA's project management practices? Don't you agree that clear 
cancellation criteria and procedures are necessary for 
effective and appropriate cost discipline?
    Should there be a procedure that kind of fits--not that 
everything fits into it--but we check one, check two, check 
three?
    Mr. Martin. I agree that there should be a standardized 
procedure to cancel a project. I think it has happened so 
rarely that that is probably why one doesn't exist. I agree 
that one should exist.
    Mr. Wolf. How many--and you can submit it for the record--
but how many have been canceled in the last ten years?
    Mr. Martin. I think very few, and I would like to submit 
that for the record to get you an exact number.
    [The information follows:]

    According to NASA's Chief Engineer, since 2003 NASA has cancelled 
10 Science Mission projects and the Ares I rocket program.

    Mr. Wolf. Okay.

                        CONFERENCE EXPENDITURES

    Your office has a mandate to review NASA's annual 
expenditures for agency-sponsored conferences. Have you seen 
any evidence of inappropriate or excessive expenditures such as 
those that emerged at the GSA and several other Federal 
agencies last year?
    Mr. Martin. We have not.
    Mr. Wolf. While NASA sponsors a number of its own 
conferences each year, the agency is also an active participant 
in many external conferences, including some that take place 
overseas and are quite expensive to attend.
    Does your office conduct any oversight of NASA's 
expenditures associated with attendance at non-NASA 
conferences? If so, do you believe their process for balancing 
the cost and benefits of attending these events is transparent 
and well reasoned?
    Mr. Martin. We do review NASA attendance at all 
international conferences, and I do believe the process is 
transparent.
    Mr. Wolf. Okay.

                                RIF BANS

    NASA is statutorily prohibited from conducting reductions 
in force among its civil service employees. Are you aware of 
any other agencies in government with this kind of restriction?
    Mr. Martin. With the exception of possibly the DoD, no, I 
am not familiar. I don't know.
    Mr. Wolf. Okay.
    Mr. Fattah.
    Mr. Fattah. Thank you.

                    MAINTAINING LEADERSHIP IN SPACE

    Earlier before I came to the hearing I met with a young man 
from Boston University who is doing some post doctorate work 
and was over in CERN in Switzerland working with the Super 
Collider there.
    We used to have the world's largest Super Collider and we 
ceded that, you know, to your European friends, and so we 
have--when our smartest young people, you know, who spent some 
years over there doing some work and now he is back.
    This is the danger in this exercise at times. We have to be 
careful that we now have the premier space exploration agency 
in the world, and you know, we have to have appropriate 
oversight, but we don't want to be penny wise and a pound 
foolish as we go forward. You know, if we want to have global 
leadership in terms of space we are going to have to make that 
investment.
    And so when President Kennedy in 1962 charted this course 
for the nation and over these many years, you know, we have 
been able to continue these investments, I want to thank the 
chairman in particular, the James Webb Telescope was one of the 
items you mentioned at the front end of your comments, and when 
we start talking about cost overruns this is one of the items 
that comes up.
    There is no possibility that we should not proceed with 
this project however. And this is--part of the reason why NASA 
has these challenges is not because people are purposely 
underestimating what the cost is, this actually is rocket 
science. I mean it is hard to do, some of the work that is 
being done. And the more you get at the cutting edge of it the 
more difficulty comes with it.
    So this is not just a matter of, you know, accountants 
figuring out what the cost of something is. The figuring out 
the cost of doing something you have never done before is 
challenging.
    And so the big science projects of our nation whether it is 
the Webb Telescope or whether it is a manned mission to Mars, 
these are important mile markers associated with whether or not 
America intends to be number one in the world or whether we 
plan on ceding that to someone else.
    And so I just--I mean I am very interested that we have 
better project management, but I don't think that we can 
substitute global leadership for, you know, better accounting, 
you know, that it is going to cost money and the chairman I 
think worked, you know, some magic to find additional resources 
in the last time that we moved the bill, which is a little bit 
back a ways, but to keep the Webb moving forward.
    Just so it is like the Super Collider, you know, one of 
these big science deals, right, and the Super Collider we ceded 
on and that is unfortunate, we aren't going do that with the 
Webb, and we can't ever expect that when we deal with, you 
know, these kinds of issues that we are going to be able to 
isolate, you know, the cost of every paper clip, because in 
some cases we aren't talking about paper clips, and we are 
talking about things that we can't really put a price on and it 
takes a level of investment and daring and boldness on behalf 
of our nation and continue to lead.
    So I thank the chairman and I thank you for your work.
    Mr. Martin. Thank you, sir.
    Mr. Wolf. Well, again, I agree with Mr. Fattah. I think 
that is one of the reasons why we are going have to hopefully 
come up with a grand bargain that reforms the entitlements and 
does some of those things, so we don't just squeeze the 
domestic discretionary down to where we just can't function and 
can't be the leader that we want America to be. So I completely 
agree.
    Mr. Aderholt.
    Mr. Aderholt. Thank you. I apologize for being late, I was 
chairing another subcommittee, but glad to be here. Thank you 
for being here this morning.
    I do want to express my strong support for the Chairman's 
inquiries regarding the security violations regarding the 
foreign nationals at Ames and Langley.
    I want to echo the point that we must have a timely 
investigation by your office when such violations occur, since 
even a small breach of security can lead to a dangerous erosion 
of our national security.
    So I support Chairman Wolf on these matters and look 
forward to prompt answers to the questions that have been 
submitted to you.

                 BUDGETING FOR THE SPACE LAUNCH SYSTEM

    The Office of Management and Budget has imposed on NASA a 
flat line budget of $1.1 billion a year for SLS, a rocket which 
far exceeds the capacity even of the largest ULA rockets.
    I know of no engineers who would say that a multi-year 
rocket development budget exists as a flatline budget. There 
are peaks and there are valleys. The authorization bill 
acknowledges this.
    What is your opinion of the financial impact to NASA of 
imposing a budget not recommended by engineers? Does it risk 
wasting dollars by prolonging a program's development time or 
by provoking a termination of the program?
    Mr. Martin. This is a complicated issue. We don't have an 
ongoing audit looking at the SLS development, but we do have an 
ongoing audit looking at the multi-purpose crew vehicle, which 
of course is one of the components of the heavy lift rocket, 
and I think there are some concerns along the same lines there 
about a flatline budget that is going out 10 years that is that 
a financial trajectory that is possible for success, and I 
think there are some significant questions there.
    So we haven't audited the SLS development yet, we plan to 
do that probably in the next 6 months, we will open an audit on 
that, but there are some very serious concerns, whether there 
is adequate funding for these programs in the long term.
    Mr. Aderholt. Did your office play any support role of any 
kind in the termination of the Constellation Program?
    Mr. Martin. We don't. The Office of Inspector General has 
no role in the programmatic element of the agency.
    Mr. Aderholt. Okay.
    If the government allowed a business to take a GAO building 
and use its own funds to make the building usable that would be 
a lot cheaper than for that company to have to build its own 
building from scratch. I think it would be fair to call the 
arrangement a significant subsidy for that company's business 
costs.
    Looking at the value of NASA and of Air Force facilities 
and ranges what is the value of what SpaceX has received from 
the U.S. government?
    Mr. Martin. I have to get back to you with the exact 
figure. I know that they have received in the upwards of 300 
and I want to say 400 or so million dollars in the Space Act 
Agreement for commercial cargo, and then they entered into a 
FAR-based contract I believe of $1.6 billion for twelve cargo 
resupply missions.
    Orbital received I think 200 million or so in the Space Act 
Agreement and then entered into a FAR-based contract for $1.9 
billion for its nine cargo missions to the ISS.
    [The information follows:]

    As of the end of fiscal year 2012, NASA had paid SpaceX $992.6 
million for cargo and crew development and services.

    Mr. Aderholt. Okay.
    We have received rocket launch sale figures and promises 
from commercial companies who also are heavily critical of 
funds given to ULA to maintain ULA's availability to the U.S. 
government to launch classified satellites.
    We can't know the true cost of a commercial launch unless 
we figure in the significant benefits the U.S. government 
provides.
    How much money has been spent under the umbrella of SLS 
funding and what is the value of that spending for commercial 
companies who will also be allowed to use these facilities?
    Mr. Martin. Yes, sir. I don't know the answer to that 
question, I would have to get back to you if I could.
    Mr. Aderholt. Okay. If you could get back with us on that I 
would appreciate it.
    Mr. Martin. I would.
    [The information follows:]

    NASA has spent $1.7 billion on the Space Launch System (SLS) since 
its inception through February 2013. This amount does not include costs 
associated with the Orion MPVC program or ground systems development.
    Commercial cargo and crew have a separate line of funding and do 
not receive funding from the SLS program. SLS systems and facilities 
are not being built with an objective for compatibility with commercial 
launch systems. Rather, commercial companies that choose to use NASA 
facilities normally do so under cost reimbursable agreements.

    Mr. Aderholt. Thank you, Mr. Chairman.
    Mr. Martin. Thank you, sir.
    Mr. Wolf. Thank you.

            SECURITY ALLEGATIONS AT THE AMES RESEARCH CENTER

    Has your office done any assessment of NASA's procedures 
for vetting and clearing contractors or academic partners for 
access to NASA facilities or data? And if so, what have your 
findings been?
    Mr. Martin. I don't believe we have done any work on that 
certainly since I have been here.
    Mr. Wolf. Is it time to look at that maybe?
    Mr. Martin. It sounds like it is.
    Mr. Wolf. Particularly with Ames. I would appreciate that. 
Thank you.
    Mr. Martin. Yes, sir.
    Mr. Wolf. Would you agree that a background investigation 
that doesn't identify individuals with ties to organizations or 
governments considered to be security or counterintelligence 
threats is not a very good background investigation?
    Mr. Martin. I would agree with that.
    Mr. Wolf. Background investigations may be an area in which 
new and improved policy is needed, but NASA also has problems 
when a perfectly adequate security policy is in place but the 
policy is not enforced, and you referenced that earlier.
    For example, sensitive information is not to be shared 
before undergoing an export control review, and yet we have 
seen examples where that straightforward directive hasn't been 
followed.
    Is the problem that most of NASA's employees are unaware of 
existing security policies?
    Mr. Martin. I don't know that, sir, that is the--you know, 
what I said earlier was that I think the appropriate policies 
are there both from a security perspective and from an export 
control perspective. Whether they are understood by the NASA 
populous more broadly or the folks that are in the office of 
security or export control or the program managers, the 
sponsors of these individuals, whether they are adhered to that 
is the $100,000 question.

                INFORMATION TECHNOLOGY SECURITY THREATS

    Mr. Wolf. When you last appeared before the subcommittee 
you testified that NASA was one of the top four federal 
agencies, and you referenced it earlier, that are targets of 
cyber attacks, and that many of those attacks originate in 
China and eastern Europe. Is that characterization of the 
threats still accurate today?
    Mr. Martin. Absolutely.
    Mr. Wolf. What percentage of the cyber attacks do you think 
are from China and what percentage are from eastern Europe?
    Mr. Martin. I don't have a percentage. We have worked a 
number of cases particularly serious intrusions out of the Jet 
Propulsion Laboratory that were traced back to Chinese-based IP 
addresses. We have also had a very successful case in Estonia 
where we arrested six Estonians and indicted one Russian on 
various cyber charges.
    Mr. Wolf. So of all the cyber attacks against NASA since 
you have been there, where are most of them from?
    Mr. Martin. I think you have touched base--well, I would 
say China, I would say eastern Europe, I would say Africa.
    Mr. Wolf. Can you give roughly--we aren't going to hold you 
to this--but roughly give us a percentage?
    Mr. Martin. I could spin around and ask my head of 
investigations. About 40 percent from China.
    Mr. Wolf. Forty percent.
    Mr. Martin. For the cases that we are working, yes.
    Mr. Wolf. And then the next government, the next area?
    Mr. Martin. Probably 30 eastern Europe and then Africa.
    Mr. Wolf. Okay. Where in Africa?
    Mr. Martin. Nigeria.
    Mr. Wolf. All right, Nigeria.
    Mr. Martin. And we have worked cases in each of these 
countries where we send Office of Inspector General agents to 
those countries working with local authorities to apprehend.
    Mr. Wolf. Okay.

                 THREAT TO NASA FROM CHINESE ESPIONAGE

    This is an easy question, but I assume you agree with what 
Directors Clapper and Brennan and Mueller said yesterday with 
regard to cyber being the number one threat?
    Mr. Martin. Absolutely. We have been singing that song for 
years ourselves.
    Mr. Wolf. Okay. Well, I am going to have a number of other 
questions. I am going to go to Mr. Fattah and see if he has 
anything else. But let me just say----
    Mr. Fattah. I am prepared to reserve, so I don't have 
anymore at this point.
    Mr. Wolf. Okay. We are going to give you two things to take 
to look at, if you could, and give us a call by the end of the 
day.
    Secondly, I really do think there is a potential problem in 
your office. We are going to give you an opportunity to address 
it, but we are going to stay with it.
    Mr. Martin. Absolutely. And I look forward to discussing it 
with you and your staff, sir.
    Mr. Wolf. And if need be, we are going to seek a change if 
we think it is appropriate.
    I don't sense that there is that intensity with regard to 
this issue that I think is appropriate. And I want to just kind 
of give you background for understanding it.
    The Chinese people are wonderful people. When most of the 
Chinese dissidents come to our country, they come to my office. 
Chen, the blind activist was by my office last week. So I think 
of all the members of this body, I probably speak out more for 
the Chinese people than most.
    But the People's Liberation Army is the same group that 
opened fire and killed the people in Tiananmen. The People's 
Liberation Army are the same people that are doing the cyber 
attacks.
    Mr. Martin. Yes, sir.
    Mr. Wolf. The People's Liberation Army are the people who 
now go into prisons and, for $50,000 to $60,000, will get a 
person not voluntarily to donate a kidney by killing him. They 
are selling kidneys.
    The People's Liberation Army are involved in aiding the 
Sudan government, which is bringing about genocide.
    I was up on the Nuba mountains this time last year. All the 
efforts, all the weapons, all the supplies are coming from the 
Chinese government and the People's Liberation Army. Who, I 
will ask you, runs the Chinese space program?
    Mr. Martin. I am sorry, sir?
    Mr. Wolf. Who runs the Chinese space program?
    Mr. Martin. I am assuming the Chinese military runs the 
Chinese space program.
    Mr. Wolf. Is that assuming or did you know it is? I would 
hope you would have known. The People's Liberation Army runs--
that is what you are saying, right? Runs the program?
    Mr. Martin. That is my understanding.
    Mr. Wolf. Okay. So we are very serious about this and we 
expect your people to be. You may send a message to your people 
at the local level, because if I don't think we are making 
progress we will do a data dump and let all this information 
come out so that the world can see what is taking place.
    Now, I think it is appropriate that we give you an 
opportunity, but some of the comments I have heard are that at 
some of the local centers your people have not been as 
enthusiastic about this as I think is appropriate. I believe 
this deals with the national security of our country, it deals 
with jobs, and it deals with having an opportunity for 
Americans to have jobs that aren't taken away by others. And 
lastly, it deals with the safety and the security of the men 
and women that are serving in the military. We have an 
obligation to them.
    Mr. Martin. Mr. Chairman, if I could, I couldn't agree more 
with that. I look forward to the discussion with you and your 
staff, but I respectfully disagree that the Office of Inspector 
General is shirking its duties. We are an aggressive 
independent entity out there securing NASA, its information, 
its facilities, and we look forward to working with you and 
your staff.
    Mr. Wolf. Well, let the record show that we disagree 
strongly, and I think that there are times that the IG has 
failed. If we don't see results, we will lay out where the IG 
has failed and we will call it the way that it is. So I want 
you to know that.
    Mr. Martin. We look forward to those discussions.
    Mr. Wolf. Okay. And even, if need be, we will say that the 
office ought to be changed.
    With that, Mr. Fattah, I will ask you if you have any last 
comment?
    Mr. Fattah. I have no further comment.
    Mr. Wolf. Okay. With that the hearing is adjourned.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Tuesday, March 19, 2013.

                      NATIONAL SCIENCE FOUNDATION

                               WITNESSES

HON. SUBRA SURESH, DIRECTOR, NATIONAL SCIENCE FOUNDATION
DR. BRAD J. BUSHMAN, PROFESSOR, OHIO STATE UNIVERSITY

                   Opening Statement of Chairman Wolf

    Mr. Wolf. Good morning. I want to welcome everyone to 
today's hearing on the National Science Foundation. Our first 
witness, Dr. Subra Suresh, is the director of the NSF.
    This will be your last appearance before the subcommittee 
as director, but maybe you will be back in other capacities.
    I would like to both thank you for your service to NSF and 
to wish you very good luck. I know you are going to do a great 
job in your new position at Carnegie Mellon. That is a 
wonderful institution.
    I originally come from Pennsylvania. Actually, my roommate 
in college was, I think, the director of Admissions at Carnegie 
Mellon for a number of years. I think he was.
    It is a great institution, and I would just say that they 
are lucky to get you. So I appreciate the great job you have 
done. I want to wish you well. I know we are going to continue 
to talk and stay in touch as time goes by.
    Ordinarily we would spend this hearing discussing NSF's 
budget request for the upcoming fiscal year, but, 
unfortunately, the submission of the request has been 
significantly delayed--not because of Dr. Suresh, I want to 
make clear.
    So we will be prevented from having a detailed conversation 
about your budget plans for 2014. However, there is still 
plenty of other material that is necessary and useful to 
address. We will discuss the status of projects you are funding 
with the current budget, management issues that affect your 
ability to effectively and efficiently carry out your 
operations, and changes in policies and procedures that could 
help make your agency an even better steward of Federal funds.
    After we hear from Dr. Suresh on these issues, we will 
change gears a bit on our second panel, whose witness is Dr. 
Brad Bushman of Ohio State University. I want to welcome Dr. 
Bushman.
    We appreciate your willingness to be here today.
    Dr. Bushman recently served as co-chair of a subcommittee 
to NSF's Advisory Committee on Social, Behavioral and Economic 
Sciences and led that subcommittee in an examination of the 
causes of youth violence.
    Dr. Bushman will give us an overview of the findings of the 
subcommittee, including a discussion of the major known risk 
factors associated with youth violence and further research 
that is necessary to comprehensively address the problem.
    It is my hope that this report will be helpful to all of us 
in policymaking roles as we attempt to develop an effective and 
appropriate response to last year's tragedy in Newtown.
    In a moment, we will begin our first panel with some brief 
opening remarks from Dr. Suresh, who will then answer 
questions, and we will then turn to Dr. Bushman and proceed the 
same way.
    But first I would like to recognize our ranking member, Mr. 
Fattah, for any opening remarks he would like to make.

               Opening Statement of Ranking Member Fattah

    Mr. Fattah. Well, let me join in with the chairman in 
thanking you for your service as the leader of the National 
Science Foundation. I think you have done extraordinarily 
important work on behalf of our Nation.
    And the fact that you are going to lead one of the premier 
institutions not just in Pennsylvania but throughout the 
country indicates that you will be continuing to serve but in a 
different capacity.
    Carnegie Mellon is an institution I have visited in my 
earlier life as a state senator in Pennsylvania. And I remember 
their early work in robotics.
    But I wish you well. You have done a great service at the 
National Science Foundation with a number of initiatives from 
the innovation of corps to a host of other work that we will 
get into a little bit.
    But I want to wish you well and I also want to thank you 
for your help in the neuroscience initiative and at the 
chairman's behest and you hosting the STEM education conference 
rollout in Philadelphia. So welcome again here to the committee 
and we look forward to your testimony.
    Mr. Wolf. Thank you, Mr. Fattah.
    Pursuant to the authority granted in Section 191 of Title 2 
of the U.S. Code in clause 2(m)(1) of House Rule XI, today's 
witnesses will be sworn in before testifying.
    Dr. Suresh, please rise and raise your right hand.
    [Witness sworn.]
    Mr. Wolf. Let the record reflect that the witness answered 
in the affirmative.
    Dr. Suresh, your written statement will be made part of the 
record. You may proceed with your summary remarks and you may 
proceed as you see appropriate.

                     Opening Remarks of Dr. Suresh

    Dr. Suresh. Chairman Wolf, Ranking Member Fattah, and 
Members of the subcommittee, it is my privilege to be here with 
you today. Mr. Wolf and Mr. Fattah, thank you very much for 
your kind words as well.
    My testimony today will be the last time to address you and 
the subcommittee in my official capacity as the director of the 
National Science Foundation. I have gratefully appreciated the 
strong working relationship we have had over the past three 
years and this moment is bittersweet for me.
    As I indicated in my memo to NSF staff last month, it is 
with mixed emotions that I face this transition from one 
exciting professional journey to another and from one 
remarkable institution fostering research and education to 
another.
    I am saddened by the prospect of leaving the National 
Science Foundation, an organization that has become the 
dominant part of my life for the last three years. At the same 
time, I am excited about the new opportunities and challenges 
as I assume the leadership of an outstanding university.
    With a strong partnership of this subcommittee and despite 
the economic crisis and the lingering uncertainties that have 
ensued, NSF funding has sustained growth through the turbulent 
times of the recent past.
    The hard working and dedicated staff at NSF have created 
the gold standard for science funding for more than six 
decades. The programs and practices they have established have 
been emulated around the world and they have nurtured the 
creative balance of hundreds of thousands of scientists, 
engineers, students, and educators in every part of the U.S.
    Their work has also supported the discoveries of some 200 
American Nobel Prize winners who represent about 70 percent of 
all U.S. Nobelists since 1950.
    I would add, Mr. Chairman, I don't think there is any other 
funding agency on the planet that can claim that. And as 
director of NSF, I am very proud to claim that.
    Transitions such as the present one provide reasons to 
reflect on and to take stock of one's journey and to examine 
the key milestones encountered along the way.
    My written testimony provides some examples that with the 
committee's strong support we have achieved in these last few 
years together. They are grouped into several major thematic 
areas: the one NSF philosophy and creation of new paradigms for 
cross disciplinary interactions and organizational efficiency, 
national priorities and grand challenges, support of major 
infrastructure projects, nurturing and expanding the innovation 
ecosystem, new models for global engagement, and principled 
commitment to human capital development and broadening 
participation.
    These activities are not only being launched successfully, 
but they establish strong roots with support from a broad group 
of dedicated NSF staff. I, therefore, have confidence in the 
potential for continuing success and growth in the years to 
come.
    I am extremely proud of the work that we have done 
together, Mr. Chairman, whether it was working with you and 
your staff in identifying highly successful K through 12 
schools and programs in STEM education or being with Ranking 
Member Fattah for the rollout of those findings in 
Philadelphia, or the ability to use the foundation's convening 
powers to bring together experts on areas of national discourse 
like youth violence. I believe that together we have made an 
impact.
    It has been my extraordinary honor to lead the National 
Science Foundation which is blessed with a marvelous cohort of 
highly talented, devoted staff as well as hundreds of thousands 
of innovative grantees and investigators from every field of 
science and engineering.
    I am grateful for the opportunity to serve the country in 
this capacity and to be the beneficiary of many wonderful life 
experiences as I witnessed and played a small role in helping 
to advance science over the past several years.
    Mr. Chairman, I am most grateful for the working 
relationship with you and with Ranking Member Fattah and with 
your subcommittee.
    I thank you for your leadership and especially for the 
warmth that you have shown me during my tenure at NSF. I look 
forward to answering any questions you may have.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Wolf. I want to thank you for your testimony. I agree 
with your word bittersweet. Here is your Congressman coming in, 
Mr. Rooney. I hope you will live in Mr. Rooney's district and 
support him. He is going to be the new head of Carnegie Mellon.
    But when the staff told me that you were leaving, I was 
disappointed. It was bittersweet. I said, wow, really? But you 
have done a good job, and I think you have had a good attitude.
    You have always been open, and it is a tribute to you. But, 
I am not going to say goodbye because we will see you. I am 
sure there will be a lot of other activities.
    Pittsburgh is a great town. I went to Penn State, and when 
you go to Pittsburgh, you know, what was it called? The Tower 
of Learning? What is the place out there called? What is it 
called, the big building?
    Mr. Fattah. The Tower of Rooney.
    Mr. Wolf. The Tower of Rooney?
    Mr. Fattah. Yes.
    Mr. Wolf. I used to get very resentful of Pittsburgh 
because I come from Philadelphia and root for the Philadelphia 
Phillies. My dad was a Philadelphia policeman. And the 
announcer at Penn State was named Bob Prince, I think his name 
was. Was it Bob Prince?
    Voice. The Pirates.
    Mr. Wolf. The Pirates. No, I know that. But they broadcast 
the Pirates game at State College. They did not broadcast the 
Phillies games, which I never quite understood.
    But Pittsburgh, it has great representation. I mean, 
unbelievable. It is really a nice town. They are nice people. 
They have neighborhoods and a renaissance in the town.
    So, Pittsburgh is going to love you and I think you are 
going to love Pittsburgh. So, anyway, I want to just 
acknowledge that.
    Mr. Suresh. Thank you.

                     ALLEGATIONS OF WASTEFUL GRANTS

    Mr. Wolf. At least once a year, and usually more often, we 
hear allegations from different folks about frivolous grants. 
These allegations are then used to make an argument that we 
could reduce NSF's budget without negatively impacting any 
important work.
    Do you believe that NSF makes any frivolous or wasteful 
grants? You understand what I am talking about?
    Mr. Suresh. Yes. Mr. Chairman, NSF receives tens of 
thousands of proposals every year and we use a process that 
brings in experts from the community to select these in a 
highly competitive environment and more than 240,000 proposal 
reviews conducted.
    I cannot sit here and say that there is not one or two or 
three times that may not meet everybody's approval. But on the 
other hand, I think we do everything possible to be sure that 
these are done in the most appropriate way. These are done to 
the very, very rigorous standards of NSF.
    In fact, the standards are viewed as a gold standard by the 
global community to such a point that in the last ten years, 
nearly ten countries have established new funding agencies that 
are exactly modeled after the National Science Foundation.
    And last year when I invited 53 heads of funding agencies--
my counterparts--to come at their own expense to the National 
Science Foundation to talk about peer review, 44 of the 46 
invitees came.
    So I can assure you that the funding is done through a 
process that has been refined over the last 60 years which has 
been viewed as a gold standard, and we do everything possible 
to make sure that the science is done in the best way.
    I would also like to add that sometimes when we look at the 
titles of these projects and just look at the titles, we may 
end up with misleading conclusions if we don't go through the 
outcome of the project.
    For example, there was a NSF funded project called Game 
Theory and Game Theory led to mathematical analysis through 
which spectrum auctions could be done. The return to the U.S. 
Treasury from NSF funded Game Theory was $60 billion.
    So these are examples of activities where science funding 
over some period of time leads to unexpected outcomes and I 
have other examples that I can give you if there is time.
    Mr. Wolf. I mentioned Mr. Rooney--you are from Pittsburgh; 
are you not?
    Mr. Rooney. We are all originally from Pittsburgh.
    Mr. Wolf. I know you represent Florida now.
    Mr. Rooney. Yeah.
    Mr. Wolf. Okay.
    Mr. Rooney. That is okay.
    Mr. Wolf. Okay. Good. You love Pittsburgh. It is a great 
place.
    Mr. Rooney. Absolutely.
    Mr. Suresh. Mr. Chairman, I am learning a lot about the 
Steelers. They told me not to come to Pittsburgh without 
knowing all about the Steelers.
    Mr. Wolf. And the Eagles, I think, if you are Mr. Fattah.
    Because you fund basic research, how can NSF and its 
grantees do a better job of explaining the purpose and value of 
its grants to the public? Do you see Senator Coburn has had his 
reports? There have been other reports. What can be done? How 
can NSF do a better job of explaining?
    Mr. Suresh. So we try our best. We continue to use all 
kinds of media, all kinds of forums. There are a number of 
places that I have gone to articulate the significance of NSF 
funded research. Just last week, we had an opening of a new 
telescope with 500 people from around the world. I tried to 
explain to that group what impact NSF funded research has had.
    I met with a number of a Members of Congress individually 
over time, over the last three years, trying to articulate the 
impact of NSF funded work.
    I mentioned at the beginning it is not only my claim, but 
the data shows that in the last 62 years, 70 percent of all 
American Nobel Prizes have had some connection to NSF funded 
research. And it is only a $7 billion agency, so comparatively 
over all of the enterprises of the U.S., it is a fraction, but 
its impact is enormous.
    I think we could do more. We could do better. It is also a 
double edged sword, Mr. Chairman, because when we try to 
articulate the impact of it in layman's terms, that has the 
potential to be misinterpreted because if somebody just looks 
at the title that is articulated for the lay person, it doesn't 
fully convey the full impact of the scientific work.
    We try to strike a very delicate balance between 
simplifying the science behind it for common explanation versus 
running into the cross-fires of misinterpretation of that 
simplification.
    Mr. Wolf. The social science directorate is only a tiny 
fraction of the size of other major research directorates, 
which seems to confirm that you also consider social sciences 
to be a lower priority.
    If social sciences should be considered on equal footing 
with other research disciplines, why does NSF itself de-
emphasize social science in its budget request?
    Dr. Suresh. So let me first of all say on a personal note 
speaking as a trained engineer and a scientist, a natural 
scientist, I firmly believe that social sciences are very much 
an integral part of the scientific enterprise and increasingly 
so to address major challenges that we face not just in the 
social sciences disciplines but also in every field of science 
and engineering that we face.
    The social sciences are unique in certain respects. If you 
look at physical sciences or geosciences, they require enormous 
physical facilities and physical infrastructures such as 
telescopes or ocean going vessels, et cetera. Social science 
doesn't have those major infrastructure needs even though there 
are increasing needs for data management, data collection, and 
longitudinal studies which can become expensive.
    So even though the social sciences' budget is only $300 
million or so in the NSF budget, increasingly we have 
activities that interface with every corner of NSF from big 
data to education and human resources to mathematical and 
physical sciences, geosciences to healthcare studies, et 
cetera, et cetera.
    So I think I firmly believe that social sciences are an 
important part of it. I have said that in every statement that 
I have made during my three years at NSF. And I think some of 
the grand challenges that we face both nationally and globally 
will inevitably require integration of perspectives from social 
and behavioral sciences and economic sciences with natural 
sciences and engineering.
    Ultimately we want to understand the human condition. We 
want to understand human beings and we want to understand 
institutions and social, behavioral, and economic sciences 
provide a unique platform to do that.
    Mr. Wolf. As you know, there are usually amendments every 
year on that issue.
    Mr. Suresh. That is right.
    Mr. Wolf. And they generally carry.

           RETAINING THE RESULTS OF FEDERALLY FUNDED RESEARCH

    Last year, the subcommittee held a hearing on American 
manufacturing and job repatriation. One of the findings that 
came out of the hearing was that technologies developed 
partially or even solely through the use of Federal research 
funding often end up manufactured overseas. That means we are 
allowing foreign economies the benefit of our research dollars.
    Are you aware of instances where this has happened among 
NSF grants?
    Mr. Suresh. The way that NSF grants work is we fund the 
universities, but the universities own the intellectual 
property and then they license it. In fact, with engineering at 
MIT, a lot of the intellectual property portfolio reported to 
my office in the School of Engineering.
    So NSF doesn't directly engage in the licensing of this 
technology at universities and colleges because of the Bayh-
Dole Act, so we leave it up to the institutions to comply with 
the federal regulations, export control, et cetera, et cetera. 
And so this is given a lot of careful thought at various 
universities.
    Mr. Wolf. But do you have any policies in place that would 
help to minimize or eliminate that? Could there be some 
conditionality on the grants to say that if commercialization 
takes place, the preference ought to be with an American 
company to keep that technology here and also to create jobs 
here?
    Mr. Suresh. Given the fact that by law the ownership of 
these intellectual properties reside not with NSF but with the 
recipients of these grants, it is very difficult for us to 
individually prescribe solutions to that.
    One of the things we have done with respect to the I-Corps 
program, for example, we tried to develop a virtual national 
network so that the vast number of scientists and engineers and 
students at American universities that don't have the access to 
the ecosystem, for example, people in the Midwest who may not 
have access to the venture capitalists on either coast, using 
NSF's convening power, we can bring them in touch with them. We 
can put them in touch with them to give them greater 
opportunities. This is something that we are trying to do.
    Mr. Wolf. But shouldn't there be some mechanism so that if 
Carnegie Mellon or Penn State were to take an NSF grant, 
conditionality would require that manufacturing or technology 
from that grant be kept here?
    You know, America is struggling on these things and we are 
subsidizing technology that later perhaps--as we see in the 
solar now, China is moving ahead in solar--will be gone abroad.
    I went to Penn State University, a great engineering 
school. If Penn State takes a grant that then turned into a 
manufacturing technology, shouldn't there be some language or 
something to say that there ought to be a first refusal or 
something from an American company rather than a foreign 
company?
    Mr. Suresh. Well, from my experience in dealing with these 
at the School of Engineering at MIT, sometimes there are well-
intentioned prescriptions that lead to a lot of unintended 
consequences.
    For example, if General Electric, or some other American 
company, were to license the technology, 75 percent of the 
manufacturing is in the U.S. and some part of the manufacturing 
is somewhere else, say Mexico or some place. Would that be 
beneficial to the technology or detrimental to the technology?
    Should all of them be in the U.S.? I mean, there are so 
many little details. I think perhaps it is probably a good idea 
to look at it, but I will be happy to look into this. My 
experience has been that every time we prescribe something with 
one intention, there are some unintended consequences that 
emerge out of this.
    Mr. Wolf. Well, I would like you to look at it. You know, I 
was raised in Philadelphia, and I lived next to the largest 
General Electric factory, I think, in the country. As I go back 
to my old neighborhood, it is gone. It is over.
    GE has now moved their MRI imaging that you see their ads 
on. They are leaving Waukesha, Wisconsin. Now, I do not know if 
NSF was involved in that. They are leaving Wisconsin and going 
to Beijing. And Americans are watching this and I think the 
question is are American tax dollars leaving?
    So, obviously we are a global society. And some things may 
be manufactured overseas. But we can't have a raw Federal 
dollar go to a locality, go to Penn State, Penn State then 
takes it, develops manufacturing technology, and then it is 
being done offshore. Then somebody in south Philly or 
Harrisburg or out in the Winchester area in my congressional 
district does not have the opportunity.
    Mr. Suresh. Most of NSF funding is for basic research. So 
between the time the NSF funding is over and whatever emerges 
out of it to the time the technology is developed and then is 
ready for commercialization or manufacturing, there is a large 
time gap involved. That requires significant additional 
investment beyond what NSF has given. And sometimes it is a few 
years.
    So at the end of the NSF grant, some technology emerges 
that is further developed that leads to a small business and 
the small business receives funding from a number of different 
sources and then that leads to a process, software technology 
that leads to some kind of manufacturing. So there is a long 
time gap.
    NSF's role is primarily basic research. So what NSF does 
and what eventually happens in a company like GE, there is 
quite a lot of things that happen after the termination of the 
NSF grant.
    That is one of the reasons it is going to be very, very 
difficult for a basic research agency like the National Science 
Foundation to give prescriptions on what should be done with 
the output because the output of NSF research and the input 
that leads to manufacturing, there is a lot of development in 
between.
    Mr. Wolf. I understand. I am going to go to Mr. Fattah. I 
understand, but GE is now producing some aircraft parts and 
engines in China. That probably all came out of DoD funding, 
which could have earlier come out of an NSF grant or some other 
grant.
    And I just think, America is going to go into decline. We 
are broke. We have tremendous debt. We have a tremendous 
deficit. And all this manufacturing leaves. So I think anything 
we can do to keep it here in the United States is appropriate.
    There are no easy answers, but I would like you to really 
look at it, because it is not appropriate to take the tax 
dollar from an American citizen and then find that the 
resulting job, the technology, the manufacturing is in Bogota 
or some other place like that.
    Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman.
    And I wanted to cover three subjects. One is the subject 
that you are just concluding on. I want to spend some time on 
that for a minute.
    And I do want to then talk to you about the global 
competitiveness of the American efforts in science vis-a-vis 
some of our competitors and then I am going to finish up on 
neuroscience which, of course, is my number one focus and 
subject.
    But the chairman started here, so, you know, I have learned 
something from the chairman which is that commissions and 
bringing people together is a very good idea. And so I 
introduced a bill, H.R. 614, which is American Discoveries, 
American Jobs, and it deals with this issue that the chairman 
just raised.
    It has nothing to do with the National Science Foundation. 
Across all of our agencies, NASA, which has got thousands of 
patents, NIST, all of our various agencies, we fund a lot of 
research. And a part of this research eventually does lead to 
progress and sometimes that progress means, you know, some new 
way to make a widget and the manufacturing of these items. 
There are federal labs where we have, not through NSF, but 
through DoE, we have funded. They have come up with things. And 
the new widgets are being manufactured in far places.
    You know, the notion that we should tax a waitress this 
morning in some restaurant in D.C. and fund research, I am all 
for. I really do think we should fund research. I am for big 
science. I am for us investing money in science. But I do think 
that we have to make sure that we are as relevant as possible 
and responsible to the American public here.
    So, you know, scientists have this desire and almost 
responsibility to want to be open sourced and want to 
collaborate and want to interact with their international 
counterparts and then, you know, but in a competition, you 
know, and I am talking now about the economic competition 
between the United States and others who would like to eat our 
lunch economically, we have to be a little more--it is like the 
Steelers. They do not put their play book so that other teams 
can see it. I mean, you try to like figure out what you are 
doing and perfect it, right, to your own interest?
    So to some degree on some of these economic issues, the 
country has to be a little more parochial in some of these 
areas, right? So we have lost, you know, some ground in an 
area. We make some investment. We pick up some ground. If we 
did share that with everyone who we are competing with, you 
know, really we are working at cross purposes.
    And I know this is hard to reconcile between the way 
scientists work and the way people who have responsibilities 
for our economic competition might think about these things. So 
I think that we have to do better at this.
    And, you know, major research universities, whether it is 
Carnegie Mellon, whether it is University of Pennsylvania, the 
great universities have benefitted because they get research 
grants from the Federal Government. Their faculty and students 
do work. The university owns the intellectual property. We do 
not have any problem with that.
    The issue becomes is I believe, Mr. Chairman, there is a 
way that we can tie the fact that there were federal 
investments originally in that work to the responsibility that 
if the intellectual property is going to be utilized, that 
those jobs end up in the United States of America.
    You know, I think there is a way to get there from here. I 
am not a lawyer, but there are plenty of smart enough lawyers 
to figure out how to do that because a grant is a grant. It is 
free. We are giving some scientist the money because they have 
a great idea. And that idea might eventually lead to, you know, 
to making people's lives better and they might even make 
millions of dollars or billions of dollars.
    But in the meantime, we want the jobs that emanate from 
that. Whether they are in Mr. Rooney's district or mine or even 
in Texas, you know, or Virginia, I mean, we want those jobs, 
you know, in the United States of America. So I think it is a 
reasonable proposition. So that is number one.
    I have some legislation in that regard and I think the 
Congress--I am not sure scientists can work this out because, 
again, the impetus for--the notion is that you have this great 
desire to share all this information with everyone and interact 
with your colleagues around the world, but we have to think 
about this in a little more guarded way, particularly in this 
area of manufacturing.
    This is critically importantly and if we develop 
techniques, we develop materials, we develop approaches--I was 
out at Oak Ridge looking at this additive manufacturing. It is 
amazing. But if we are going to develop it and then just share 
it with everybody the next day, you know, it does not give our 
workers the kind of advantage that they need.
    Mr. Suresh. Mr. Ranking Member, first of all, you used a 
Steelers analogy and I am not yet fully up to date on the 
Steelers, but I will be before too long, and I will use better 
analogies than I can do right now. I have been trained with the 
New England Patriots for almost two decades, so it will take me 
some time to migrate over.
    I want to make a few points in response to that. First, 
Congress actually asked NSF in 1977 to be the very first 
federal agency to start the SBIR program. In hindsight, we 
would not have thought of NSF as being the destination for the 
creation of the SBIR program, but Congress asked NSF to do it 
in 1977.
    Here is what came out of it. NSF gave small grants to 
companies like Qualcomm. In fact, I have on videotape the Co-
founder of Qualcomm, Irwin Jacobs telling us that he got a 
small grant of $125,000 from NSF when they had 10 or 15 people 
on the company payroll. Now they have 21,000 people. Another 
company is Symantec which now employs 18,000 people.
    NSF over the last several decades as the federal agency to 
start an SBIR program has nurtured American innovation and 
American manufacturing on American soil. There are lots and 
lots of examples.
    Even the last couple of years when we started the I-Corps 
program, some of the initial grants were $50,000 that we gave. 
We have a company, a small company, Professor Strader, that was 
just bought out by Drop Box in the U.S. There are many, many 
examples of this. So that is the first point I want to make.
    The second point is that we do have as a basic research 
funding agency responsibility for research and education and 
STEM education. We do fund activities that contribute to that 
in a major way.
    For example, in the EHR directorate, we fund a program 
called ATE, Advanced Technological Education, to the tune of 
about $64 million a year. That supports community colleges in 
technological education. In fact, it trains American 
undergraduate students in community colleges to learn about 
things like manufacturing, not all of it, but some fraction of 
it.
    Mr. Fattah. Well, thank you.
    Again, my proposition is simple. American Discoveries, 
American Jobs. To the degree that we finance the discovery, the 
jobs should be here. And there is a lot of how to get to that 
from here which is why I introduced this legislation to create 
a national commission because it will require some work to 
think through how to do this.
    But I do believe we can get there. We do not have to 
finance work that then leads to tens of thousands of jobs being 
created among people who are competing with us economically 
while our own people do not benefit from those jobs even though 
they were taxed originally to finance the research.
    So I think there is a way in keeping with our commitment to 
build these major research universities and to have this 
effort, I think the chairman is absolutely right.

         INTERNATIONAL COMPETITION IN RESEARCH AND DEVELOPMENT

    So let me move on because I wanted to make sure that we 
preserve some time. In your original testimony before the 
committee years ago, you talked a little bit about the fact 
that the United States, you know, had challenges in terms of 
scientific competition around the world ranging from much 
smaller countries like Singapore to much larger countries with 
multi billion populations and that we needed as a country to be 
thinking more aggressively in terms of our investment in 
science.
    I want to give you a chance in your last visit to comment 
on that before we move to neuroscience.
    Mr. Suresh. Sure. I think our biggest problem is our 
inability to plan ahead. For example, when I discuss projects 
with our counterparts from around the world with whom we are 
vigorously competing, they are able to plan for five to seven 
years.
    Take Europe as an example. Europe is in the middle of a 
deep financial crisis from Greece to Italy to Spain to Cyprus 
to Ireland to you name it. But still the European Parliament is 
right in the middle of discussions of a funding project called 
Horizon 2020, that will, over a seven-year period, lead to 
somewhere on the order of 60 to 70 percent increase in science 
funding because 27 European countries unanimously feel that 
this is so important for the future.
    Singapore as an example, a country that I have interacted 
with in my previous job quite a bit, and they plan for many 
years ahead of time. China has a five-year plan. Look at 
Germany. The German National Science Foundation, which is my 
counterpart agency, has a guaranteed five percent annual 
increase for the next five years guaranteed by the Chancellor 
of Germany.
    It is not the amount of money, it is the lack of certainty 
for planning. We not only don't have annual planning, we are 
still in a Continuing Resolution for the fiscal year that began 
last October 1st. I think this really potentially undermines 
the credibility of agencies like the National Science 
Foundation when we try to compete when science inherently 
requires long-term planning and this is a major problem for us. 
It continues to be a problem for us.
    Mr. Fattah. Thank you.
    I was talking with the chairman last evening on the floor 
about the European Union's Horizon 2020 because they have among 
their six focus areas that they are going to make these 
scientific investments, they decided that neuroscience is going 
to be at the leading edge of their activities.
    And yesterday at lunch with the Prime Minister of Ireland 
who now has the lead for the EU for this year, they change 
leadership every year among these 27 countries, but Ireland has 
the lead and they are taking this effort around neuroscience 
very seriously.

                              NEUROSCIENCE

    So this will make a good transition here to this point. So 
I want to thank you for your leadership. The committee had 
instructed the OSTP to create a collaboration on neuroscience. 
I want to again thank the chairman for his help with us and his 
leadership on this and along with our Senate counterparts, 
Thompson, Hutchison, and now Chairwoman Mikulski. We were able 
to get this done.
    But NSF co-chaired this collaboration. I want to thank you 
and your team. I take note of the dear colleague letter that 
went out in March, on March 4th around a very significant 
effort of the agency neuroscience. I know that the 
collaboration is going to issue its report in June.
    But I cannot think of any other way to say it, but I think 
that the only way that we would have made this progress up to 
and including the President's talk at the State of the Union 
about the brain mapping effort is because of the great 
contribution of your agency----
    Mr. Suresh. Thank you.
    Mr. Fattah [continuing]. In this regard. So I want to thank 
you for what you have done and what the NSF will continue to do 
in this regard. But if you would like to give some comment on 
this effort, please.
    Mr. Suresh. Thank you. And also I want to thank you and the 
chairman for highlighting the importance of neuroscience. As 
you know, the U.S. National Academy of Engineering about six 
years ago released the 14 grand challenges of the 21st century.
    One of the grand challenges is reverse engineering of the 
human brain. There are so many applications from education to 
learning how people interact, bringing the biology of the 
neurons in the human brain connecting that to the psychology of 
the human mind. It is a grand challenge and I think this is one 
of the frontiers of exploration and discovery where the tools 
that we have will position us to make some phenomenal new 
discoveries in the future.
    This is something that takes place at NSF in many different 
offices and directorates. And I think all indications are that 
we will continue to grow in the years to come given the 
importance of this topic.
    Mr. Fattah. Well, thank you.
    And I thank the chairman.
    You know, our effort, you know, obviously the most 
important one to date, there has never really been this kind of 
a high priority collaboration among all the federal agencies, 
but I do not think it could have been done without the 
leadership of the National Science Foundation's co-chair along 
with NIH in this effort.
    The European Union has decided to make this the year of the 
brain. They are going to have a major conference in May. I was 
telling the chairman I am going to participate in in Dublin. I 
am trying to convince the chairman to come with me. We can 
visit with our counterparts.
    They have decided to put about, and I do not want to say an 
exact number because Parliament is still debating this to some 
degree, but somewhere in the range of 100 to 200 billion euros 
into this effort on neuroscience. And they want to make as one 
of the principal pillars of it is collaboration with the U.S. 
because this is important.
    So diseases, disorders of the brain, there are hundreds of 
them. We are literally nowhere in terms of getting to some 
effective treatment. We have traumatic brain injuries. And I 
know my colleague, Mr. Culberson, who chairs the Veterans' 
Affairs Committee, is quite aware of the fact that some 40 
percent of our returning veterans who have been injured have 
brain injuries. This is a big issue for us.
    But also on the operations or the functioning of the human 
brain when it is well is something we know little about. So 
this is a great scientific endeavor that can lead to a great 
deal of progress in our country.
    So I thank you and I wish you well in your new efforts at 
Carnegie Mellon. So, you know, between MIT and Carnegie Mellon, 
you are able to stop off here in Washington and do some great 
work for the Science Foundation. So we thank you for it.
    Mr. Suresh. Thank you.
    Mr. Wolf. Thank you, Mr. Fattah.
    You know, maybe we should put your commission into our bill 
this year.
    Mr. Fattah. I like the sound of that.
    Mr. Wolf. A lot of the authorizing committees are not 
passing very much, but maybe we should do that. And I 
appreciate the effort on brain science.
    I think that your comment about the spending--to set aside 
a certain amount--has so much sense.
    My wife and I, we have 16 grandkids and I worry about the 
future of this country. If we do not do something bold like the 
Simpson-Bowles Commission, I think this country is going to go 
into decline.
    We had Niall Ferguson here last year and he said when great 
nations decline, they decline rapidly. I do not want us to 
decline. I want my grandkids to live in the greatest nation in 
the world.
    I think about what my mom and dad and my grandparents, who 
were immigrants, did, and I see the hassle and the argument in 
this town. We are just descending rather than ascending. Every 
politician loves to say America's best days are yet ahead and 
the sun has barely begun to rise on the country. I want that to 
be the case, but in order for that to be the case, there are 
things that we have to do.
    Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman.
    I want to thank you, Dr. Suresh, for your service to the 
country, all you have----
    Mr. Suresh. Thank you.
    Mr. Culberson [continuing]. Done for the National Science 
Foundation and in the work that you have done in collaboration 
with young people. I notice we have got a group of young 
students that have been rotating in and out. And I have been 
trying to read your shirt, inspiring leaders in technology and 
engineering.
    What school are you all from?
    Voice. Battlefield High School.
    Mr. Culberson. Fantastic. Obviously----
    Mr. Wolf. Battlefield? I know where that is. Welcome. Why 
don't you come by my office later?
    Mr. Culberson. You all are well represented. Mr. Wolf has 
done extraordinary work in preserving the Nation's investment 
with Mr. Fattah and the subcommittee to make sure that National 
Science Foundation has stable, predicable funding for the 
future, that the NIST, NASA, all of the extraordinary, 
incredible scientific achievements have made this Nation what 
it is will continue to be funded in the future and to 
particularly bring young people like you all up into math and 
science.

                  LEGACY OF DR. SURESH'S TENURE AT NSF

    Could you talk a little bit about the legacy you would like 
to leave for the future for NSF, the collaborative work that 
you have done already and hope to see continued with high 
schools like Battlefield, young people like these that want to 
go into the sciences and engineering and what should this 
subcommittee do to help or support that work that you have 
begun.
    Mr. Suresh. Thank you, Mr. Culberson, for giving me the 
opportunity to say that.
    Let me just make a personal comment from life experience. I 
came to the U.S. in 1977 after receiving my undergraduate 
degree from India Institute of Technology. When I finished, I 
was 21 years old and there was no question in my mind what my 
next step was. I didn't have to sit down, ask anybody what I 
should do next, where I should apply for a job.
    Automatically the obvious path for me at that time was to 
come to the U.S. to do graduate education. So I got on a plane 
with less than $100 in my pocket and a suitcase and went to 
Ames, Iowa.
    I think if we can keep that for people from around the 
world, the destination to do science and engineering is the 
U.S. If our universities and colleges can keep at the 
forefront, then we will have our scientific enterprise not 
decline in our lifetime or in our children's lifetime.
    After I finished my Ph.D., I was a professor at Brown 
University for ten years. My first major grant that pretty much 
guaranteed my research work, research path and my tenure and 
full professorship at Brown University was an NSF grant.
    Mr. Culberson. Remind us and the young people here your 
field of study.
    Mr. Suresh. I received all my degrees in mechanical 
engineering. NSF was the preferred destination to seek support. 
It was $100,000 a year for five years, something called the 
Presidential Young Investigator Award. I received a letter from 
President Reagan which is still in my office at NSF and that 
pretty much guaranteed my move.
    So you asked me what your subcommittee can do and what NSF 
can do. I think we can make sure that young people who want to 
do science and engineering have the opportunity to compete in a 
fair way for grants of the National Science Foundation, and the 
National Science Foundation has enough resources to support 
them because we receive far more proposals that are of the 
highest quality than we are able to support with the resources 
that we have. I think this is why it is so critical that we 
continue that support.
    Mr. Culberson. And I think the chairman's bill this year 
that the Senate I hope will pass, there will be language in 
there that encourages NSF to create a pool of funding for 
competitive peer-reviewed grants that would encourage 
collaborative research between science technology high schools 
like Battlefield and others and like Thomas Jefferson with 
universities.
    Talk a little bit about that. I hope that is something that 
you have been pursuing in the time you are at NSF.
    Mr. Suresh. Well, you know, we have a number of activities 
that involve undergraduate education, for example, especially 
in STEM education. We have a number of activities for K through 
12 programs. The Discovery Research K through 12 program is one 
example of this.
    I think it is important to find the mechanism to engage 
young kids and start them at an early stage. I think in 
testimony in this room a couple of years ago, we talked about 
at what age do children become passionate about science and 
engineering. It is the first grade level.
    I think we don't want them to lose that interest in science 
and engineering. Given all the pressures on NSF funding and the 
increasing demand for limited resources from the National 
Science Foundation, we are trying to do everything possible to 
make sure that we not only reach out to undergraduate students 
but also to K through 12 STEM educators.
    This is why one of the reports that the chairman helped 
commission through the National Research Council; we have been 
disseminating it around the country, holding different events, 
talking about this, and what the National Science Foundation 
can do to help in that.
    Mr. Culberson. You mentioned that the $100,000 grant over-- 
$100,000 a year for five years was so decisive in your career 
and the work that you have done. I hope the subcommittee will 
consider putting language in our bill that frankly just creates 
a pot of money out there for STEM high schools to do 
collaborative research with universities because it truly can 
be transformative, particularly in, you know, some of these 
really good science high schools across the country.
    There is such a great opportunity for you all to do work 
with university researchers and if NSF can help fund in a peer 
review competitive fashion as all other grants are done, some 
of these really bright young people that are in these great 
high schools to do collaborative work with universities, I 
think it would help immensely and there is no better way to do 
it than with a grant program.
    And you also mentioned stability and predictability. And I 
did want to ask you as this is your final appearance before the 
subcommittee. I am working through a really interesting 
biography of Hyman Rickover on the work that the chairman and I 
are doing on trying to reform NASA, giving them greater 
stability and predictability.
    But would love to work with you, Mr. Fattah, on this and 
giving that agency a little more freedom, make them a little 
less political, more professional as you are, sir, in the way 
that they are governed and the ability to do multi-year 
procurement. And NASA has got a lot of problems, and I am 
convinced as the chairman is and all of us that love NASA and 
care about it, is a lot of its governance and a lack of 
stability.
    Talk to us, if you could, about--because Rickover was 
always interested in problems. Whenever he met with his people, 
they would try to give him glowing reports. And he was like I 
do not want to hear about all the good stuff. I will find out 
about that later and everybody is going to take credit for 
that.
    Tell me about the problems. As you leave NSF, talk to the 
subcommittee about the problems and in particular obviously the 
stability, predictability and how we in Congress can help 
resolve that for the future.
    Mr. Suresh. I think, given--we discussed earlier pretty 
much about every one of our competition agencies from around 
the world, agencies with whom we compete, and increasingly we 
compete for human talent because it is now global.
    If we cannot attract the best scientists to come and work 
on one of our NSF funded grants, the German National Science 
Foundation would provide a mechanism for them to go to one of 
their institutes or some other university in Germany.
    I think the stability and predictability is an issue. The 
second, because I think, especially in this economic climate, 
one of my biggest fears is that young people who are really 
interested in science and engineering will get so disillusioned 
and turned off that they will leave science once and for all.
    If that happens, I think that is going to have a very 
detrimental effect on the future of the scientific enterprise, 
and this is one of the reasons we made a principal commitment 
during my tenure at NSF that no matter what the budget 
uncertainties are, we will not cut back on our commitments to 
graduate student fellowships, postdoctoral fellowships, young 
career awards.
    We decided that those are things we will protect to the 
fullest extent possible and that is one of my biggest worries 
that it is partly psychological, but it is also partially based 
on reality. And that is something that I worry about.
    In fact, when I visited Carnegie Mellon just a few weeks 
ago, most of the questions I received from students was that if 
I want to go do a Ph.D. and do research, what is the 
opportunity because they were asking me in my capacity as NSF 
director what did I see will be the future for them and whether 
it is a good idea for them to stay in science or do something 
else. Is it a good idea for them to stay in the U.S. or look 
for job opportunities all over the world?
    So that is my biggest fear. Anything the subcommittee or 
Congress can do to assure the young people that the future is 
still very bright and for people like me who came to do 
science--and I took up U.S. citizenship in 1989--and that 
opportunity exists for future generations. I think that is the 
best contribution that can be made.
    Mr. Culberson. We will do our best. Thank you.
    Mr. Suresh. Thank you.
    Mr. Wolf. Mr. Rooney.
    Mr. Rooney. Thank you, Mr. Chairman.
    And I was actually born near Mr. Fattah's district there in 
northeast Philly, but all my people are from Pittsburgh, my 
parents and brothers and sisters, but----
    Mr. Wolf. You were born in Philadelphia?
    Mr. Rooney. I was, in northeast Philly at Holy Redeemer 
Hospital which I do not know if it is there anymore. But I was 
raised in Villa Nova. But, anyway, that is not what the witness 
wants to hear about.
    Actually, I am glad you are going to CMU. I was not smart 
enough to get in there, but we did CMU in football which was 
probably the most important thing for me at that time in my 
life.
    The story you just told about, you know, your life was 
great. And I think that it really shows especially the young 
kids that are coming in the room the American dream sitting in 
front of us.
    And somebody who is trying to figure out Pittsburgh Steeler 
football, it took my grandfather 40 years to figure that out, 
so, you know, you have time. But he also lived the American 
dream.

                  MANAGEMENT OF COOPERATIVE AGREEMENT

    And the chairman, you know, spoke of it, what we are all 
concerned about with regard to the future and our children and 
where we have been and where we are going. And our economy, as 
you know, is, and as everybody in this room knows, is in 
turmoil and trouble right now and we are trying to figure out 
as a Congress and as a government how to move forward.
    And a lot of times when Members go on to the House floor 
when we are trying to figure out where to cut spending and, you 
know, it might be easy for me to cut NSF spending in somebody 
else's district and, you know, it makes me look good back home 
in my district.
    And so when we try to justify what we are appropriating and 
what we are cutting, you know, one of the areas--I am just 
going to read something to you and I would like to get your 
reaction to it because it does trouble me a little bit and I 
think that it would help all of us when we do try to justify 
how we are spending the tax dollars.
    And NSF's OIG stated in its September report to Congress 
that it is an ongoing challenge for NSF to establish 
accountability for the billions of federal funds in its large 
cooperative agreements which as of last year totaled $11 
billion.
    The report also stated that NSF does not require or conduct 
adequate pre-award audits to ensure that projects have 
reasonable budgets and that NSF has serious weaknesses in their 
post-award monitoring for high-cost, high-risk projects. 
Billions of dollars are at stake and the OIG strongly 
recommends that NSF strengthen its cost monitoring of BCAs and 
other grant awards from the grant proposal to the closeout of 
the award.
    So if I could get your reaction as you leave before. What 
is the plan for that for your successor and why haven't we done 
what the OIG has recommended or why haven't we been doing that 
already?
    Mr. Suresh. Very good questions. First of all, thank you 
for giving me the opportunity to respond to this.
    We take all of these comments very, very seriously. In 
fact, to the point that our chief financial officer is sitting 
behind me and her whole team have been in almost weekly 
meetings with the IG's office.
    Part of the reason is that for audit resolution, we follow 
the A-50 circular. OMB had issued a circular a year ago that 
said that NSF's procedures meet established federal guidelines.
    So part of the difficulty here is that there are a lot of 
one-off procedures, one-off facilities that come into existence 
that are not standard practice. That is one of the reasons why 
NSF has historically done these projects the way it has.
    We do that by a peer-review process, but we take each of 
the comments of the IG's office very, very seriously. We have 
had a number of responses that BFA has prepared to address some 
of the concerns that the IG's office brought up.
    Part of the challenge in this is the IG's office has looked 
at one aspect of the way we do large facilities. So many of 
these policies and practices came into existence when NSF was a 
billion dollar agency. Now it is a $7 billion agency.
    We have to look at, so do we want to address one issue that 
the IG brings up that may have an unintended consequence 
somewhere else? To make sure that we address it correctly, last 
December I commissioned a federal study of everything that NSF 
does related to large facilities.
    I appointed one of my senior advisors to go to all the 
federal agencies to talk to them about their best practices 
from NASA to DoE to Homeland Security, meet with OMB, not just 
the science side of it, but the business side of it, OSTP, DoD, 
and we invited people to come to NSF.
    It is my intention to finish the study before I leave which 
is three days from now. There is a preliminary report of this. 
It will be done and it will be handed to my successor. There 
are recommendations on what we could do.
    This is something that will come up for discussion with the 
National Science Board in their May meeting. We have been 
following up these things.
    There are some established practices that are unique to 
scientific science funding. There are things that we could 
change and we want to look at all of them before we decide what 
is the best path to move forward.
    The good news is that in response to those comments, in 
response to a number of other things, not just from OIG, but 
how to do business better in the most efficient way and how to 
have the fullest level of accountability and audit 
capabilities, that this study will be completed. It is actually 
in the very final stages and I will finish it before I leave.
    Thank you.
    Mr. Rooney. Thank you, Mr. Chairman.
    Good luck.
    Mr. Suresh. Thank you.
    Mr. Wolf. Dr. Harris.

                               H1B VISAS

    Mr. Harris. Thank you very much, and it is good to see you 
here on the other committee that has to do with NSF.
    Because I consider, you know, like in the medical field, we 
have the surgeon general, I consider you kind of the scientist 
general of the U.S. Government. Okay? You are the head of the 
NSF.
    So you should be looking at what the country is doing in 
terms of its policy to make sure that we stay leaders in the 
world in science. And I think that is one of your roles.
    And maybe this chance now three days before you depart is a 
chance to say what might be really on your mind about some 
things.
    And I am sorry I have to step aside to the other 
subcommittee for a few minutes, so I do not know if you 
discussed the future of our ability in America to attract 
foreign talent.
    I am going to be very specific because, you know, as a 
scientist working in government, I consider myself, you know, 
as a physiologist, a scientist, and you must be frustrated 
because, you know, to us, two plus two equals four every day of 
the week. It is one of those triple equal signs, always equal 
to four.
    And we find we come to Washington and two plus two is 
whatever the subcommittee or the committee or the body says it 
is on a given day. It could be three. It could be five. It is 
whatever the majority says which is a little frustrating 
because as I view the problems with attracting foreign talent, 
my first concerns came to me when I was on the faculty at 
Hopkins.
    And I just visited NIH yesterday and their concern is, you 
know, with the sequester cuts, oh, my gosh, how are we going to 
keep young people in the field as I am sure your concern is.
    And I recall a case a few years back where we had a very 
promising person who came here from the UK, did research in the 
lab, very high-quality research. And when his time was up on 
his training Visa, he could not get an H1B Visa. Actually, 
instead of going back, he found another program where he just 
did not do research. He did clinical work and that is where he 
ended up. So here is someone we lost to research because of the 
faults of our program.
    And then in my district back in Maryland, we had Martin 
Marietta. I went and visited. They said, look, part of our 
problem is we cannot get engineers, we cannot get people 
trained, you know, we have frustration with the H1B process.
    Last year, famously Steve Jobs before he passed away, you 
know, the head of one of the greatest success story companies 
in America, Apple products, says this is not the difficult 
problem. We really need to increase and make it easier for us 
to get H1B Visas.
    And here we are. I have been here two and a half years. I 
think the H1B Visa quota is exactly the same as it was. It may 
have increased a little bit. But, I mean, we are talking about 
it should be doubled, maybe even more.
    And, you know, the Administration, the President said, 
look, because we have had free-standing bills, everybody looks 
at this and two plus two equals four. We need to change the H1B 
program if we are to retain our preeminence in the world and 
especially because we are spending our dollars--for instance, 
some of your grants go to departments where we train 
postdoctoral fellows to go back and compete against us.
    I am not sure, Mr. Chairman, how that is efficient, how 
that is an efficient use of our money. We are literally taking 
our taxpayer dollars to train our competition, giving them no 
chance to do what you did and my father did which is to say I 
actually want to come to America and participate in this 
economy.
    Do you think that is a wise decision to say it is all or 
none, we either get H1B as part of comprehensive reform or this 
country just does not need it?
    Look, comprehensive immigration reform is a laudable goal, 
but it is a tough goal. H1B reform is probably a chip shot. I 
mean, the President admits we need it. Business leaders admit 
we need it. I think we have bipartisan agreement we need it. We 
should be attracting these individuals.
    This is going to be very simple. Do you agree with the 
Administration on this?
    Mr. Suresh. The whole issue of immigration is not only an 
intellectual exercise for me, but I have lived through it. In 
1982, I was post-doc at Berkeley in California and I couldn't 
leave the country for eight months because my passport and Visa 
status was in limbo. I mean, it was being processed, but I was 
waiting for a response from the immigration office.
    And so I think to go back to the early part of your 
comment, one of the reasons I think the scientific enterprise 
of this country has been so powerful and the U.S. has been the 
unquestioned innovation leader at least since the second World 
War, is because we were the unquestioned destination for people 
from all over the world to come here voluntarily.
    If we lose that, we lose our scientific leadership and, 
therefore, we lose our economic leadership and security, 
military leadership. I can give you a couple of examples of 
this before I come to your point.
    It is a very complex factor because, when I graduated from 
college and came to the U.S., we had a very well-known 
undergraduate institution. There were 250 of us graduating in 
all fields of engineering that year in that campus.
    Out of 250, more than 200 came to the U.S. from that one 
campus and all of them stayed here. The vast majority of them 
became U.S. citizens. And that is because at that time, that 
was the right thing to do. That was the best opportunity.
    Thirty-five years later, same campus, still about 250 
students graduating every year in engineering, probably much 
better quality now because of competition compared to my 
graduating class, probably 15 to 20 percent of them even bother 
to apply. If 80 percent of them applied, they would get in, but 
they don't even bother to apply because they have opportunities 
elsewhere.
    I think this combined with the fact that if there is 
significant lack of opportunity or perceived lack of 
opportunity for either jobs or in STEM fields, then I think it 
is going to have a huge detrimental factor.
    A couple of other really quick data points. More than one-
third of all the American Nobel laureates since the second 
World War came here as immigrants. You take the National 
Academy of Sciences which is about 2,100 living members, about 
25 percent to 33 percent of the members of the American 
National Academy of Sciences are foreign born. Some of them 
have done their pioneering work abroad. So I think if we lose 
that ability to attract, it will be a detriment.
    One other point in the late 1990s when many of the small 
businesses started in the Silicon Valley, about half of all the 
CEOs of small companies with at least 100 employees were 
foreign born. So I think that has been historically the way 
this country has operated.
    Regarding what is the best way to address the issue, do you 
give green cards to all those who get a Ph.D.? It can help. It 
will help. But I think it is much more of a complex issue. It 
is a complex issue because when I first came here and when I 
decided to stay here, when I decided to become an American 
citizen, and at the time I decided to become an American 
citizen--the U.S. would have allowed me to keep a dual 
citizenship, but my country of birth would not allow me to keep 
my citizenship. It is a very emotional decision.
    I had to look at a lot of factors to consider. And I think 
there are many factors that play a role in this decision on 
whether we are able to attract talent or not. What are the 
opportunities for young people that choose to come here, 
whether we have green cards or not. Do we have enough funding? 
Do we have enough jobs to support them? Do you have a system 
that nurtures talent the way we have done for 60 years? We 
continue to do that. What kind of hoops do you have to go 
through to get a green card?
    In my case, there was absolutely no problem or question. I 
have always been a stickler for abiding by the law. It took a 
year and a half and I couldn't leave the country for a year, 
for most of that time.
    Are people willing to put up with it now when there is so 
much easy mobility of people around the globe and much greater 
opportunities? So I think it is a combination of a lot of these 
issues rolling into one decision. And definitely the 
opportunities are much greater now around the world than it was 
when I was looking at opportunities here. So that is my 
response to your point.
    Mr. Harris. And let me just follow-up a little bit. Okay. 
As the scientist general, what would you advise Congress to do 
on this issue?
    The ability to attract talent, that is young talent, that 
is frequently educated here, how should we deal with the issue 
of allowing them to participate in our economy?
    Mr. Suresh. I think providing opportunities for highly-
trained, highly-talented people to compete in a fair way 
without too much bureaucracy to reside here permanently is one 
welcome step.
    Another would be removing some of the uncertainty related 
to the future. I think part of the problem when a student 
starts a four or five-year Ph.D. program in STEM, it doesn't 
matter whether it is an American student or a foreign student, 
in an American university, they have no idea, their professors 
don't have any idea right now whether they will have sustained 
funding for five years.
    We discussed this a little bit when you had to step out. 
But I think one of the biggest problems for us as a funding 
agency is not the amount of money itself, but the lack of 
certainty about next year or the year after that. Even last 
October, we still are in a Continuing Resolution.
    I think removing some of the uncertainty--if Congress can 
create a multi-year budgeting process, especially for agencies 
such as National Science Foundation, which look at multi-year 
future--I think it will be extremely beneficial. So those are 
some of the things that come to mind.
    Mr. Harris. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Schiff.
    Mr. Schiff. Thank you, Mr. Chairman.

                          EARTHQUAKE RESEARCH

    Director, I wanted to ask you about a couple of subjects. 
One of them is about something near and dear to our hearts in 
California and that is earthquake research. This is not only a 
problem and a threat in California but an issue in communities 
throughout the country. Investment in earthquake research can 
ultimately save billions of dollars in infrastructure damage.
    Can you tell me a little more about the research that NSF 
is currently supporting to better understand earthquakes as 
well as any future plans for investment in this area?
    Mr. Suresh. NSF supports a lot of activities in earthquake 
research to give American scientists an opportunity almost in 
real time to do analysis, prediction, mitigation studies and so 
forth.
    In California, for example, a number of us here visited 
last September at UC San Diego. There is an earthquake 
simulation center that NSF has funded for a long period of 
time. That is one type of activity.
    There is a George E. Brown Jr. Center for earthquake 
studies. It used to be in California. It is now at Purdue. And 
that is another activity that the NSF has supported for a long 
period of time.
    There is a network called IRIS. It, again, is one of those 
NSF acronyms. What matters is the S in the IRIS. S stands for 
seismology which consists of about 140 institutions in 80 
different countries where there are poles in the ground.
    If there is an earthquake happening say in Italy or in 
Japan or in New Zealand, the signature from that earthquake, 
even the signature preceding that earthquake will be recorded 
in a number of institutions in the U.S. NSF has supported the 
IRIS program for a long period of time and it is a real-time 
network.
    There was an earthquake in Christchurch, New Zealand a 
couple of years ago and then in March of 2011, the people 
running in Japan with the earthquake, tsunami, and the nuclear 
disaster. NSF has a mechanism called RAPID where we very 
quickly fund projects with almost no bureaucracy in the Federal 
Government where we quickly send the money out so that American 
scientists have immediate access to the damage zones so that 
they can study before it is too late to gather data.
    This is something that we have fostered for a long period 
of time.
    Mr. Schiff. Have you been involved, Director, and I know 
there have been efforts in California and elsewhere to develop 
early warning systems? We are not at the point of predicting 
earthquakes yet, but we are at the point of giving sometimes 
half a minute or a minute of notice.
    USGS I know does some work in this area. Does NSF work in 
this area as well?
    Mr. Suresh. Well, we fund the fundamental research in all 
of this. For example, it is not just with respect to 
earthquakes, but also tornado forecasting, to do advanced 
warning to people, especially now with mobile devices.
    The way in which we can give advanced warning is very 
different from previous modes of a phone call on a land line or 
through the radio broadcasting system. Now we have additional 
vehicles.
    And especially with things like GPS and a mobile device, we 
not only can give a warning to a citizen in an earthquake 
affected area, we also know from GPS where they are so we can 
target the type of warning to the type of location based on the 
geographic location.
    There is a lot of research that NSF supports, the output of 
which works in conjunction with what other agencies do, like 
USGS and other agencies; NOAA, can be extremely beneficial. 
There are many of these activities that NSF supports already.

                 SUPPORT FOR LARGE RESEARCH FACILITIES

    Mr. Schiff. Let me ask another topic and that is one of the 
things that NSF does which is a great responsibility--is it 
funds and supports large scientific research facilities that 
provide data that is important to our scientists but important 
to the advancement of science around the world.
    I have some concerns about NSF's continuing ability to 
support these facilities and I wonder if you can tell us a 
little about your plans to keep these facilities operating at 
their highest potential.
    Mr. Suresh. Well, I appreciate your concern and it is a 
concern of mine as well. We have a budget line item called 
MREFC, major research equipment facility and construction. 
Currently it is about $200 million a year. The demand for that 
far surpasses our resources. Plus the operating costs of large 
facilities is quite enormous.
    Just last week, I was in Chile with the President of Chile 
to open a major telescope facility. It is the largest telescope 
facility on the planet right now. It was created over 25 years. 
The first discussion at NSF to create the facility started in 
1990. It was officially opened a week ago tomorrow in Chile.
    The President of Chile, Sebastian Pinera, participated in 
that program. It is a $1.3 billion facility, and NSF is a lead 
partner in that. The European Southern Observatory, which is a 
consortium of European countries and Brazil, contributed an 
amount that matched the American contribution. Plus we had 
Japan and Taiwan participate from east Asia as well.
    That facility has brought a lot to the American scientists. 
In 2011, there were two Nobel Prizes to American scientists. 
They did the research with NSF funding, but the research was 
done in the country of Chile not only with the facilities 
partly funded by NSF, but facilities funded by the government 
of Chile, the European Southern Observatory, and east Asia. So 
we stand to benefit a lot.
    The IRIS program that I mentioned, it involves 80 countries 
currently. So these programs are very important to us for our 
science and also for disaster mitigation.
    Part of the challenge for us is that the cost of operating 
these facilities becomes quite substantial. Invariably because 
of the increasing cost of these facilities, we have to partner 
with other countries like Europe or east Asia to create these 
facilities where American scientists can work.
    For example, we made a decision not to fund the super 
conducting super collider. Now, the facility exists in Geneva, 
Switzerland, and the bulk of that facility is funded by an 
international consortium of more than 30 countries.
    Mr. Schiff. And that is going to destroy the whole 
universe, right? We drew from that, right, because we----
    Mr. Suresh. No. But that is an example of a facility that 
we fund, the science behind this in a small way. But it leads 
to discovery.
    So I think one of the biggest points behind your concern is 
that if we don't fund these facilities, can American science 
that needs these facilities to keep at the forefront of 
discoveries maintain its leadership goal? And I think this is a 
question that we have to address.
    Mr. Schiff. Thank you, Mr. Chairman.
    Mr. Fattah. Mr. Chairman----
    Mr. Wolf. Yes.
    Mr. Fattah [continuing]. Can I just jump in----
    Mr. Wolf. Sure.
    Mr. Fattah [continuing]. For a second on this? I met with a 
postdoctoral student from Boston University last week who just 
came back from the facility in Switzerland, the CERN facility. 
Now, we had the world's most powerful super collider at the 
Fermilab right outside of Chicago. We opted out of this deal to 
continue and then we partnered with our European counterpart.
    And I am all for partnering. But as you know, as we retreat 
on big science projects, what it meant was that this young man 
had to go to Switzerland, right, and he had to spend his time 
there. And there will be others like him from all over the 
world who because the investment in this facility took place 
there, they will travel there.
    Some of them will end up staying there. Some of them will 
end up being attracted. So, you know, there are other-- it is 
not just that the scientists can go somewhere and do their 
work.
    Now, for instance, the observatory in Chile or the 
observatory in Hawaii, they are in those locations because you 
need the location to do the work.
    Mr. Suresh. Yes.
    Mr. Fattah. But the super collider, we could have, if our 
Nation had decided to, we could have continued to lead in that 
regard. So, you know, the forfeiting global leadership in 
science, whether it is in super computing, whether it is in 
super colliding, or in these other areas, will have an impact 
not necessarily to the individual scientist who can travel and 
go and do the work that they want to do but for our Nation's 
ability to do what you are pitching on the front end which is 
our ability to attract the greatest minds in the world. They 
are going to go where the science can be done at.
    Mr. Suresh. Yes.
    Mr. Fattah. And they are not actually all that hung up 
about whether it is here, there. They want to go do their work 
and they will go to Switzerland and do their work or they will 
come here.
    And the question becomes is whether our Nation wants to 
continue to retreat on this front because it is not that we 
cannot afford it. We are the wealthiest country in the world. 
We just have to make a decision about what our priorities are.
    Mr. Suresh. Yes.
    Mr. Fattah. And if we forfeit our leadership in this area, 
it will, I think, create a circumstance that will be even more 
expensive for our country than we had invested in it.
    Mr. Suresh. Absolutely. So to put the NSF budget in 
context, the NSF's annual budget is about $7 billion. Last 
year, Americans spent $7 billion on potato chips. So it puts a 
comparison there.
    The points that you also raise go back to the comment that 
Dr. Harris made. It is not only that people go to Switzerland 
to do research. When they set up CERN as a facility, they set 
it up as a self-containing diplomatic enclave so that Visa 
requirements and all the other things are handled separately 
for CERN than it is if you were to visit Switzerland as a 
tourist or for employment elsewhere within Switzerland.
    Once people go there, they not only see this banding of 
facilities and the opportunity to collaborate with scientists 
from more than 30 countries, plus you have good food and a 
system, an immigration system that is welcoming as well. That 
causes a significant competition.
    And I will tell you that there are a number of American 
universities that have lost key faculty members to universities 
in Switzerland because of this attraction.
    Mr. Fattah. Well, it is not just the Swiss. I mean, 
Singapore is a much smaller operation, 4.8 million people. They 
have invested billions in their National Science Foundation. 
They are still--not still--they are attracting talent, American 
talent, you know, from--because they decided that even though 
they are a very small country, they want to become 
indispensable in certain of the life sciences and they have 
made the investment to do so.
    And it is a very wise course and decision on their part 
just like it is for the Europeans. Even while they are cutting 
everything else in their budget, they are going to increase 
significantly their investment in science and innovation, 
right, because they understand that this is where the 
opportunity for economic prosperity begins and ends at. If we 
do not make the investments in innovation, then we get to 
consume what someone else has made and invented.

             NSF'S RAPID RESPONSE REPORT ON YOUTH VIOLENCE

    Mr. Wolf. In a few minutes, the committee will begin a 
discussion of the report on youth violence that the NSF 
recently commissioned at my request.
    How was your process for commissioning this report similar 
or different from other rapid response initiatives NSF has 
undertaken?
    While the report on youth violence is not an NSF product, 
it does contain the results of some NSF funded grants.
    How active has NSF typically been in funding research on 
causes and responses to violence?
    And for the subcommittee, right after the Newtown attack 
took place, which I think moved the country, I called Dr. 
Suresh at the NSF and said can we put together a group of 
people to see what is going on here.
    And my own sense, and I might say that the report sort of 
validated what my feelings were, but it is really threefold. It 
is guns--and I support the Brady amendment, so we can debate 
the gun issue and that is going to go on--but it is also mental 
health. We were faced with a mental health issue in the 
Virginia Tech atrocity that took place, and a couple of the 
victims were from my congressional district.
    And then also there is the whole issue of media violence. 
You cannot help but see some of the violence both from video 
games and from other sources, television and movies, without 
having an impact.
    Campbell Soup buys ads to move people a certain way. And I 
can recall the movie ET. I read after they had, I think it was, 
Reeses Pieces or whatever it was, the sales soared simply 
because of seeing it on the screen.
    I know it is a controversial issue and people do not want 
to deal with it. And this is the political process with 
lobbyists hired all over town to do different things. But I 
just felt it should be looked at.
    So if you would kind of briefly describe how the members 
were chosen and then how active NSF has typically been in 
funding research on causes and responses to violence. And after 
you finish, we are going to bring up Dr. Bushman and swear him 
in.
    Mr. Suresh. Thank you, Mr. Chairman. First of all, thank 
you for giving us the opportunity to do this. You and I spoke 
just before Christmas and you asked about what NSF can do to 
provide input.
    Our Social, Behavioral, & Economic science directorate for 
the past 60 years has supported 60 awards in different areas of 
research that have an impact on youth violence broadly.
    And Dr. Bushman is much more of an expert than I am, so he 
will have an opportunity to talk from an expert's viewpoint.
    One of the things we did with respect to the process: I 
received a call from your office that you and I were going to 
speak about an hour later. And within that hour, I had access 
to at least 12 awards that we had given that I described during 
our telephone conversation.
    Our colleagues in the SBE directorate quickly assembled a 
group of leading experts in this field to come to NSF on 
February 1st and February 2nd to provide an expert viewpoint.
    As you saw in the report that we delivered to you, in fact, 
for the benefit of the other members, this is the report we 
gave the gentlemen----
    Mr. Wolf. For the record, I sent that copy to every Member 
of the House, Senate, and every governor.
    Mr. Suresh. And thank you for that.
    I would make one point here. In fact, as the need for 
social, behavioral, and economic sciences constantly is being 
questioned, this is one of the reasons why we need SBE sciences 
because we have an opportunity to quickly respond to requests 
such as yours with a group of experts and bringing in NSF's 
convening power.
    This group met over the course of Friday and Saturday and I 
had asked them to come up with the report right away so that I 
could deliver it to you the following week, which I did when we 
met to discuss this. I appreciate your disseminating it very 
broadly.
    There are 60 awards over the last 60 years and I will 
quickly give you just a couple of very brief names of the kinds 
of projects.
    The influences of TV and media on very young children, 
school rights, law and dynamics of every-day school life, 
campus violence, exploiting the communities for strategy, 
economic nervous system activity at the age aggregation as seen 
by social controlling interactions for delinquency and crime, 
the effect of self control on anti-social and pro-social 
behavior, hormonal and behavioral responses to social effect, 
day-to-day coping with fear, diversity of friends, bystanders, 
and responders.
    These are sorts of examples of the kind of activity, but 
Dr. Bushman will be much more able to articulate the point of 
view than I can.
    Mr. Wolf. Thank you, Doctor. And, again, we thank you for 
your service to the country.
    Mr. Suresh. Thank you very much. And I very much enjoyed 
working with this committee.
    Mr. Wolf. Thank you, and God bless you.
    We would like to call up Dr. Bushman.
    Doctor, please raise your right hand.
    [Witness sworn.]
    Mr. Wolf. Let the record reflect that the witness answered 
in the affirmative. Your written statement has been made a part 
of the record. You may proceed how you see appropriate. I guess 
I am not speaking for the committee now. I am only speaking or 
myself.
    I was of the opinion that it is a combination of the issue 
of guns, the issue of mental health, having lived through the 
Virginia Tech, and also the issue of media violence.
    And you know, Simon and Garfunkel sang a song in Central 
Park called The Boxer, and in it it says, ``A man hears what he 
wants to hear and disregards the rest.'' My sense is that 
Congress and the Administration are going to disregard this.
    But I am not going to disregard it. Other members have got 
to make their own sense, but some of the children who were 
killed in Newtown were the same age as my grandkids. That 
didn't move the nation, and my sense is, depending on where 
people sit politically, they kind of want to look only at a 
certain aspect of the problem.
    We are not saying that every person that watches a video 
game will become violent, but the concern is when you get a 
person who is isolated, has mental health problems, and then 
you add into this, we see some very serious problems.
    So with that, let me just turn it over to you. You are a 
Professor of Communications and Psychology at Ohio State 
University. You might just give us a sentence or two about your 
credentials, and then summarize your report and then there will 
be questions.

                     Opening Remarks of Dr. Bushman

    Dr. Bushman. Sure. Thank you.
    Chairman Wolf and Ranking Member Fattah and distinguished 
members of the subcommittee, my name is Brad J. Bushman. I am a 
Professor of Communication and Psychology at the Ohio State 
University. In the summer I am a professor at the Vrije 
University in Amsterdam in the Netherlands.
    I have been doing research on the causes of aggressive and 
violent behavior for almost 30 years. I have published over 130 
peer-reviewed journal articles on the topic and conducted over 
50 studies on violent media effects.
    In the wake of the Newtown shooting, Chairman Wolf asked 
the National Science Foundation and myself to find out what 
researchers know and don't know about youth violence and that 
is when they approached Katherine Newman, who is the Dean at 
Johns Hopkins and an expert in rampage shootings, and myself to 
assemble a committee of relevant expertise to address this very 
important topic.
    The twelve of us gathered at NSF headquarters on February 
1st and 2nd and to write a report called ``Youth Violence: What 
we need to know.'' And so my purpose today is to summarize the 
results of this report.
    First, I should tell you we know about youth violence. For 
decades social scientists have been studying youth violence and 
much of this research has been conducted by Federal agencies. 
There are also numerous and well-validated theories to explain 
youth violence.
    When rampage shootings occur, like the one in Utah, people 
want to know what ``the'' cause is. However, there is no simple 
cause. Legislatures and mass media have focused on three 
possible causes--guns, mental health, and violence in the 
media, but there are many more causes besides three.
    What I would like to do is just briefly describe some of 
those major risk factors. One is media violence. Public debate 
on the link between violence in the media and violence behavior 
can be contentious, especially following a shooting rampage.
    For example, violent video games have been implicated in 
the Newtown shooting. We haven't proven that violent video 
games directly cause violence because it can't be proven. There 
is no way to ethically run experiments to see if playing a 
violent game like Call of Duty pushes somebody to violence. You 
can't give people guns and knives in our laboratory 
experiments.
    But that doesn't mean we are left without evidence. We know 
that violent video games are correlated with violent behavior 
just like smoking is correlated with lung cancer. We also can't 
randomly assign people to smoke or not smoke and see if they 
get lung cancer. It is not ethical to do so.
    But we do know that there are causal effects from violent 
media and again from violent video games as well. The most 
comprehensive review on video games to date was conducted by my 
colleagues and I. It includes 381 effects from studies 
involving over 130,000 participants, and these studies show 
that violent video games increase aggressive thoughts. They 
increase angry feelings. They increase physiological arousal 
such as heart rate and blood pressure. They increase aggressive 
behavior. They decrease healthy behavior, and they decrease 
feelings of empathy and compassion for others.
    The effects were observed from both males and females of 
all ages regardless of what country they lived in in the world, 
and similar effects have been found for other forms of violent 
media, such as TV programs, films and music.
    Peer rejection and hierarchies: Most youth who engage in 
illegal violence have a history of social rejection, yet they 
want to be accepted by others. Analysis of 15 school shootings 
found that social rejection was a major factor in 13 of the 15 
school shootings.
    Youth are especially susceptible to peer rejection. They 
also care a great deal about peer hierarchies. Research shows 
that school climates and cultures and social trust can act as 
protective factors against youth violence.
    Comparative criminology: Rampage shootings in schools 
differ in dramatic ways from street violence in urban areas. 
Violent crime mainly occurs among young people, adolescents and 
young adults. Poor self-control is the single best predictor of 
criminal behavior, including violent criminal behavior.
    Many rampage shooters commit suicide following their acts. 
Facing their behavior is a very highly unusual category of 
murder/suicide.
    The news media cover rampage shootings heavily, but we know 
very little about the effects of such coverage. Some youth may 
actually commit violent rampages to gain fame.
    Family influences: There is a large body of research 
suggesting that many family-based qualities and processes are 
important risk or protective factors for youth violence. Risk 
factors include low social status, poverty, harsh or rejecting 
parents, chaotic family life, inter-parental conflicts, 
domestic violence, child abuse and neglect, family stress, poor 
monitoring by parents, criminal behavior or incarceration of 
parents, mental illness in parents.
    Protective factors include close attachment bonds with 
consistent care givers, effective parenting, good cognitive 
skills or education in parents, and families that are 
organized, safe, and well regulated.
    Data mining: Online data sources such as Twitter have 
multiple potential uses for understanding, predicting and 
preventing violence.
    Guns: All shooting rampages and more than 80 percent of 
homicides involving youths are committed with guns. It is 
critical to reduce access to guns in youth, especially youth 
that have a history of delinquency, crime involvement and 
certain mental illnesses.
    In conclusion, it is estimated that gun violence costs this 
country roughly $174 billion a year. Beyond this enormous 
financial cost is the devastating emotional impact of lost 
lives, neighborhood destabilization and fear of attack.
    For children in particular, exposure to violence erodes 
their confidence in society. These costs alone justify the 
dedication of the Federal research agencies and the scientific 
community to understand youth violence.
    Thank you for allowing me to appear here today. The NSF 
advisory group that I am here to represent hopes that you will 
find our report helpful and I am happy to answer any questions 
you have.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Wolf. Thank you.
    Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman.

         RAMPAGE SHOOTINGS VS. MORE GENERAL VIOLENCE IN SOCIETY

    You know, since, I guess, Cain and Abel, you know, violence 
has been among us, and there is no society in the world in 
which violence is not part of, you know, the society.
    Our situation here in America seems to be somewhat 
different inasmuch as we seem to have an over-amplification of 
violence, particularly with guns. There is no other place on 
earth even where, you know, where there are prevalence of guns 
available where they are used in such as a way as they are 
here.
    But you know, we had a situation yesterday at a university 
in Florida where a young man killed himself after it was 
discovered that he was planning some sort of attack with both 
guns and explosives and a lot of these situations seem to fall 
into a certain category, these, what you I think refer to as 
rampage shootings like that.
    They are in the kind-of everydayness of this. You know, 
there have been over 2,000 people killed since Newtown, most of 
them not with an AR-15, not with the publicity associated with 
the shooting of a group of young people, but just, you know, 
every single day in our country these seems to go on.
    And it is a real challenge. The chairman is right that 
there are obviously multiple factors to this. NIH has been 
doing a very significant study with the largest group of 
adolescents ever, some 10,000, looking at their development 
over a period of time through brain imaging. And it seems as 
though, you know, this social isolation is a very, very 
important factor in some of these activities.
    You know, when I grew up, you know, we saw a lot of 
violence in the movies, you know, westerns with John Wayne, and 
then we had, you know, we had a lot of the movies that 
glorified the mafia, you know, like The Godfather, one of my 
favorite movies. And you know, we had a whole series of Die 
Hard and other kinds of movies.
    You know, in my city is where they frame this Constitution 
and the Bill of Rights where they gave out certain rights, the 
right to free speech. And you know, there is some regulation of 
it, but it is a very important fundamental underpinning of our 
society and, you know, so you know, we started talking about 
what we do, people say, well, you know, obviously people who 
make video games can, you know, under freedom of speech they 
can do anything they want. And it is true, I mean.
    But you know, it is also important for us to understand the 
impact of these things. Now, there is not a direct causal, as 
you said, relationship between, you know, kids might watch it, 
they are not going to go out and shoot up their school. But if 
the kid has some other issues, some problems, socially 
isolated, is prone to violence, has some other, you know, they 
could be a triggering, I guess, or even a training event.
    So but I think that, you know, we have to look at not just 
how we deal with rampages, but how we deal with this general 
pervasive nature of utilization of violence as a way to solve 
conflicts in our society, and I am not sure that we are going 
to be able to regulate that from the United States Congress. We 
can do something about people's access to guns or ammunition 
but that is even limited because, you know, if you limit, you 
know, certain types of guns--I mean, even in the most 
aggressive proposal by Senator Feinstein, you know, it exempts 
2,000 guns; 2,027 are exempted from even the notion that we 
would ban them.
    So there are going to be guns in our society. The question 
is how we get people to think about how they solve problems 
without killing each other, and particularly for young people 
who are if they are socially isolated or if they have some type 
of psychosis or some other issue, how do we from society figure 
out how to provide help in situations where usually the person 
is not even known other than to their family and most young 
people who are, you know, who have some, you know, if it is a 
schizophrenic situation, they are some of the least likely, you 
know, but there is a small percentage of people who, for 
whatever reason, and some of it may be media attention, you 
know, because people look at Columbine and then they looked at 
some of these repeat instances on the same date as the 
Columbine massacre. You know, obviously, people were, they were 
engaged in some pattern of activity connected to that.
    But you know, the rampages are just one small part of this 
gun violence issue. I mean, a lot of people are being shot down 
every day and not in large numbers, not as hard as some 
rampaged. That has to be a concern also.
    So I will be glad to hear any response to that.
    Dr. Bushman. Yeah, you are correct. There is a big 
difference between school rampages and street violence. We 
talked about those in our report. School rampages often occur 
in small, low crime towns. The shooter has no record of 
delinquency problems. The shooter has no record of treatment 
for mental disorders. The shooter is not only smart. The 
shooter generally has good grades, but the shooter generally 
lacks attributes that are valued by peers, and they are not at 
the top of the peer hierarchy.
    In contrast, street violence occurs in densely populated 
areas plagued by high levels of crime, low levels of social 
trust, illicit drug use and gun markets.
    Often, the differences in shooting rampages, they do 
involve social rejection and usually the killer kills whoever 
rejected him. It is almost always a male. The rampage shooters 
are almost always males.
    I am sorry.
    Mr. Wolf. That is all right. Go ahead. Continue.
    Dr. Bushman. They almost always are males and the shooter 
usually kills whoever rejected him--it can be a girlfriend, 
parents, peers--and then kills as many other people as possible 
before killing himself. Suicide is very common in these 
shooting rampages. The shooter often gets the guns from 
relatives.
    So there are very important differences between the 
shooting rampages and urban violence that you talked about.
    Mr. Fattah. Thank you, Mr. Chairman.
    Mr. Culberson.

            RELIGION AS A PROTECTIVE FACTOR AGAINST VIOLENCE

    Mr. Culberson. Thank you very much for the work that you 
have done. I recall years ago when the shooting occurred in 
Colorado. There was a hearing on gun control and one of the 
parents appeared and said that in his opinion one of the 
biggest problems in his mind was the removal or the absence of 
any spiritual foundation that all these kids had. They had no 
spiritual foundation at home, whatever their religion may be. 
If they had an absence of a sort of a set moral guidelines 
based on a belief in God or a higher being, whether that be the 
Ten Commandments or whatever it is at home. Once the human 
heart was empty, what do they expect to fill it up with all 
this poison out there around us.
    I have gone through this from top to bottom. I don't see 
any study, any mention, any analysis of any kind of the effect 
of the absence or presence of the Ten Commandments or a 
spiritual belief in the home on these kids, on youth violence.
    Have you looked at it?
    Dr. Bushman. That is because there is hardly any research 
on that topic at all. There is some research. My colleague, 
Ralph Huesmann, at the University of Michigan has found that a 
religious foundation is related to less aggression and violence 
in youth, but very few studies have looked at that, although 
they should.
    Mr. Culberson. That is very revealing in and of itself. I 
think it is astonishing because I grew up with guns in a house 
and it is just not a problem. I mean, you have got a good 
strong moral and religious foundation in the family and, you 
know, healthy mom and dad, or healthy families is obviously 
critical of that, but the presence of a strong religious faith 
and moral grounding is, I think, fundamental to a healthy 
society and it is certainly reflected in, I think, in the--you 
just said there was one study that showed that it was a strong 
religious or moral foundation in the home and you typically 
didn't have a problem with violence. Great.
    Dr. Bushman. That is just kind of a protective factor, yes, 
which is common. There are many protective factors and many 
risk factors, and that is certainly one of them.
    Mr. Culberson. Well, that has got to be a powerful one, 
though. I was taught all my life you don't touch a gun and we 
grew up in a family. It has just not never been a problem.
    In any event, we appreciate the work that you are doing and 
the studies, but I personally, common sense, personal 
experience, the fine knowledge of Texas, we all have come from 
different surroundings, but the solution to this doesn't seem 
to be very complicated. It is just strengthening the family, 
strengthening giving, doing everything we can as a society to 
encourage strong families with a mother and a father and stop 
trying to drive religion or spirituality out of every public 
institution.
    Congress can't make any law respecting an establishment of 
religion. It wasn't what the founders intended. In fact, they 
actually held church services in the Rotunda for much of the 
19th century.
    Thomas Jefferson, my hero actually, signed an executive 
order opening up the Rotunda of the Capitol for church services 
in Washington, DC. The intent was to prevent the creation of an 
Anglican church, for example, in the United States. It wasn't 
to drive the Ten Commandments out of every public institution, 
to drive prayer out of public schools. I think that has 
probably been as destructive as anything else.
    Unfortunately, unavoidably the human heart, there is a lot 
of eat-on poison out there, but if you have got a strong moral 
foundation on which to stand, on a rock instead of sand, you 
can resist that.
    Dr. Bushman. I should say that Professor Ann Masten, who is 
professor at the University of Minnesota, was part of our 
committee, and there is a major section of our report on 
parental factors, the role parents and family can have on youth 
violence. And it is really important. Parental factors and 
family factors are very important in understanding, not only 
risk factors for youth violence, but also protective factors.
    Mr. Culberson. And I hope you will do what you can in your 
position to encourage your colleagues to do more studies in the 
correlation between obviously a strong family and a strong 
moral religious foundation in preventing and discouraging 
violence because it seems to me that is where the answer lies, 
in the human heart, not in the laws that we pass. Thank you.
    Mr. Wolf. Mr. Schiff.
    Mr. Schiff. Thank you, Mr. Chairman.

               TRENDS IN VIOLENT CRIME AND VIOLENT MEDIA

    First of all, I wanted to ask you a couple of things. One 
is, over the last decade or so there has been a fairly dramatic 
reduction in crime and violence on the whole, and that is 
reflected in the decrease in youth violence at the same time. 
The same time over the last decade, you know, I think the 
proliferation of violent video games has increased, not 
decreased.
    How do you reconcile the conclusion of your report that 
violent video games could contribute to violent acts if at the 
same time you see an increase in the number of video games and 
the prevalence of violent video games, you see a significant 
decrease in youth violence?
    Dr. Bushman. Yeah, I would be happy to address that point, 
and it is a valid point and an interesting point. It is true 
that violent crime rates have been going down in this country, 
and it is fantastic. It is wonderful, and I hope they continue 
to decrease.
    But that assumes that the only factor related to violent 
criminal behavior is media violence, which, of course, it is 
not. Violent criminal behavior is very complicated and 
determined by many factors. In terms of overall crime rates, 
probably the best explanation for reduced crime rates is the 
U.S. population is getting older and older and older.
    Since the 1990s, when violent criminal behavior was the 
highest, if you look at the increase in age, America is getting 
greater and greater. Old people don't rape, rob, murder and 
assault people very often at all.
    Also, if you look at the same period, incarceration rates 
have increased dramatically, and it is much harder to murder, 
rape, rob and assault people if you are locked up behind bars 
than if you are roaming the streets.
    So I am not a criminologist, although we have some 
criminologists on our panel.
    Obviously, violence is not determined solely by violence in 
the media. There are other factors that may explain the 
decrease in violent criminal behavior in America, but there is 
certainly a correlation between youth violence and violent 
media consumption, and there is a causal relationship between 
exposure to violent media and aggressive behavior.

       CORRELATION BETWEEN MEDIA VIOLENCE AND AGGRESSIVE BEHAVIOR

    Mr. Schiff. On that latter point and no one is suggesting 
that violence in the media or violence in video games is the 
sole determining factor of the level of crime, but I think it 
does indicate that there are factors that are much more 
significant in determining the level of violence than the level 
of violence in media. Otherwise, if it were the most 
significant factor, the vector would be pointing in the other 
direction. We would have seen a fairly dramatic increase in 
youth violence and violent crime over the last decade which we 
haven't seen.
    But you know, I have read some commentary of your analysis 
that was critical in that it indicated that it did not feel 
that your report considered any of the countervailing data and 
reports, and that really relied upon only reports that led to 
the same conclusion, and I wonder if you could respond to that 
because I know there were a couple of meta studies that were 
done fairly recently--one in Sweden in 2012, one in Australia 
in 2010--that found, contrary to what you just stated, no 
causal relationship between violent video games and aggressive 
behavior.
    And it also found that there were, the studies that did 
show a small statistical correlation had severe methodological 
problems, so I wonder if you considered it in your reports; if 
you did, why you didn't cite them or try to explain the 
results.
    Dr. Bushman. We do cite them, and the meta analysis that I 
described that involved 381 effects from studies involving over 
130,000 participants included all those studies, all of them, 
up until that point. And in that meta analysis that I 
described, the most methodologically rigorous studies actually 
had the largest effects.
    So maybe there have been some studies since. Ours was 
published in 2010. But the one we published had at least ten 
times as many studies as any other meta analysis ever 
conducted, the most comprehensive by far, and we didn't pick 
and choose which studies to include. We included every single 
study conducted on violent video games until that point.
    Mr. Schiff. And how do you then attribute the dramatically 
opposite conclusion you reached from the conclusion the 
government in Sweden reached in its 2012 study or Australia 
reached in its 2012 study?
    Dr. Bushman. Yeah, I think it is a matter of 
interpretation. So we find average correlations of about .20. 
They find average correlations of about .20. We say they are 
not trivial. They say they are trivial.
    Well, the average correlation between wearing a condom and 
getting HIV is .18, right. I would say that wearing a condom is 
not a trivial factor in determining whether you get an HIV 
infection. The average correlation between second-hand smoke 
and lung cancer is less than .2. The average correlation 
between exposure to lead and brain functioning is less than .2. 
The average correlation between exposure to asbestos and cancer 
is less than .2
    The correlation between one sexual act and getting pregnant 
is .16, so well, I think nobody would say sex is not related to 
pregnancy. I mean, who would say that?
    Mr. Schiff. Is that the only difference between your meta 
analysis and these others that basically you have reached the 
same statistical correlation but they reach a different 
conclusion from it?
    Dr. Bushman. I think so. I think that is a major 
difference, how you interpret the effects. If you look at the 
average correlation figure, they are virtually identical to 
ours. They just dismissed the magnitude of correlation as 
trivial, and we would say it is not so trivial.
    Mr. Schiff. Just drawing on the point from Mr. Culberson. I 
completely agree with Mr. Culberson. You know, I think having a 
religious and spiritual upbringing certainly helps in terms of 
raising children and the values of those children.
    But on that subject you participated in, I think, a fairly 
controversial study in 2007 that found a link between reading 
violent passages in the Bible and the same kind of aggressive 
behavior that you are attributing to video games. Is that----
    Dr. Bushman. It is not a controversial study at all. It was 
published in Psychological Science, one of the top scientific 
journals in my field, and it did show that violence in the 
scriptures, especially when God sanctions it and says it is 
okay to retaliate, increases aggressive behavior in readers.
    Mr. Schiff. Did you find that comparing the degree to which 
that people were inspired to act more aggressively or violently 
from reading violent passages in the Bible, was that a stronger 
effect or approximately the same effect as a violent video 
game?
    Dr. Bushman. I would have to go back and look. I can't 
remember the exact effect, but I assume it is--I honestly can't 
tell you off the top of my head.
    Mr. Schiff. And did you reach any conclusions as a result 
of that study in terms of what you thought?
    Dr. Bushman. It follows directly from theory that exposure 
to violence in the media--especially when the source is 
credible, as God is, when it is justified, if God says it is 
okay to do it, then it is okay to do it. The effects follow 
directly from theory.
    Mr. Schiff. You know, getting back to the violent video 
games, to what degree do you think we should be influenced by 
the example or non-example of some of the mass killers that we 
have seen? The mass killer in Aurora, for example, liked video 
games but his video game was Guitar Hero. You had others like 
the killer in Scandinavia who did watch violent video games to 
learn technique in terms of shooting people. Each case is 
further radically different. How much would you conclude from 
any particular case about the influence of video games on them, 
or is the common denominator more mental illness, or a 
combination of mental illness and exposure to violent media?
    Dr. Bushman. Yeah, we will never know what caused any 
killer to commit those acts. We will never know. And they are 
incredibly rare and very difficult to reenact. But we do know 
that playing violent video games or other forms of violent 
media can cause more common forms of aggressive behavior like 
children fighting on a playground, pushing each other down, 
pulling each other's hair, kicking each other, tripping each 
other, hitting each other, those kind of things.
    But it is impossible to know what caused those. We could 
look at correlations and I would say the strongest correlation 
is pure rejection. That if you look at analysis of school 
shooters, I think I mentioned the 15 school shootings, peer 
rejection was present in 13 of the 15. So I would say if I had 
to choose one factor, I would say peer rejection would be the 
biggest factor.
    There is some research showing that people who are 
particularly vulnerable may be more affected by violent media 
than those who are not. We need a lot more research on that 
topic.
    Mr. Schiff. Thank you, Professor.
    Mr. Chairman.
    Mr. Wolf. Mr. Graves.

                      PREDICTING VIOLENT BEHAVIOR

    Mr. Graves. Thank you, Mr. Chairman.
    And it is fascinating in listening here. I am a father of 
three, wonderful wife, school teacher, three kids who are in 
elementary and junior high. So what occurred a few, or I guess 
a couple of months now ago struck me, and it hurt to watch what 
occurred.
    But I am a gun owner, too. I teach my children to shoot, to 
be responsible. Hunting is a big part of our, I guess, culture 
in North Georgia. And I listened to this a little bit and I 
guess I am struggling with some of the conclusions and maybe 
you can help me with because--and Mr. Schiff did a great job of 
sort of looking at how society is changing, how violent acts 
have gone down while gains in media have increased, trying to 
see what really is that correlation.
    But I remember back when I was growing up, my favorite 
movie on TV at that time was the Dukes of Hazard, one of the 
great all-time series. But I didn't grow up thinking I had to 
outrun the law, you know, run shine, hang out in my car with a 
bow and arrow, paint a number on the side of it.
    My favorite all-time movie was Smokey and the Bandit. It 
never crossed my mind that I would ever grow up to run beer 
from Colorado to Georgia and circle around Atlanta Motor 
Speedway in celebration of that, and that was some great feat.
    And so I think about these correlations, I think about all 
the good that is on TV, a lot of great entertainment, clearly. 
American Idol, probably one of the most popular TV shows on 
right now, but my kids aren't running around singing, nor are 
many others.
    So I am having a real hard time connecting this because in 
our family, and I will go with Mr. Culberson who was talking 
about the family unit and how important that is, and we fail to 
recognize how important that is and how throughout history, 
even biblical history has been referenced here, evil exists and 
I don't know how you craft policy that will prevent evil 
because our job is to protect the rights of the American 
people. We certainly can't prevent every evil act that is going 
to occur.
    In fact, it seems to be that of late, Mr. Chairman, that a 
lot of the policies that are recommended are to punish law-
abiding citizens rather than the actual criminal acts themself 
and some hope that even though these criminals violated so many 
laws to get to that evil act in which they committed, that if 
we punish law-abiding citizens, that might not have happened, 
but in fact they broke so many laws already.
    Mr. Chairman, you may not be aware but in Georgia we have a 
city just south of my district, Kennesaw, Georgia. And in fact, 
in that city, and it has been on the news lately, it is a 
requirement that every homeowner have a firearm in their house. 
That's city ordinance.
    One of the lowest crime rates in the United States is in 
the city of Kennesaw, and I imagine they watch video games and 
have access to the outside media as well, but yet there is 
responsibility there and family unit and all.
    I read an editorial by a D.C. prosecutor just prior to the 
ban. He referenced the ban in D.C. and the results afterwards, 
and in fact, homicides increased after the ban on firearms in 
the District of Columbia and homicides decreased after the 
Supreme Court struck that down. Now, he even acknowledged they 
made a bad decision back--I guess that was in the '70s if I 
remember right.
    So I guess my question is, in just thinking through all of 
that, and I know I rambled a little bit, in your opinion, I 
mean, if a child or youth in what you're referencing doesn't 
watch movies, doesn't play video games, and doesn't read the 
Bible, are they less likely to commit violent acts?
    Dr. Bushman. Yeah, well, hardly anybody commits violent 
acts. In fact, I think .1 percent of FBI crimes are murders. 
So, if the standard is well, I play violent video games and I 
have never killed anyone, great, nobody kills anyone. I mean, 
it is so rare that anybody kills anyone.
    What I want to know is how you treat your parents, how you 
treat your siblings, what you think the world is like. Do you 
think it is a scary and dangerous place where you will become a 
victim of violence? How rude are you? How do you act in a car 
when you're driving down the road?
    Yeah, I am a firm believer in free speech and I advocate 
that. But, you know, we don't let our kids drink beer and we 
don't let our kids smoke cigarettes, and I think it is 
inappropriate to let children play age inappropriate games.
    Games are clearly rated, like M rated games are for players 
17 and older. Yet many, many children under age 17 play such 
games.
    I'm a father of three children, also. I don't let my kids 
play those games. What can we do? Well, one thing--I'm also a 
professor in the Netherlands, in Amsterdam, and in the 
Netherlands and much of Europe they have a universal rating 
system, for TVs----
    Mr. Graves. Excuse me for interrupting.
    Dr. Bushman. Yes.
    Mr. Graves. You may not let your children watch video games 
and that is your decision, I do the same--or play video games, 
I am sorry. And we govern that in our home. But, do you let 
your children read the Bible?
    Dr. Bushman. Yeah, of course.
    Mr. Graves. Okay. Because you had mentioned a minute ago 
that is actually your study--I guess Mr. Schiff indicated that 
you had produced a study that said there are passages in the 
Bible that incite criminal acts.
    Dr. Bushman. I didn't say that. I said when God sanctions 
killing, when God says it is okay to kill, when God says it is 
okay to retaliate, it increases aggressive behavior. I didn't 
say anything about criminal acts.
    There is a huge difference between violent criminal 
behavior such as raping, robbing, assaulting, and murdering 
someone, and aggressive acts.
    Mr. Graves. Which God says is wrong.
    Dr. Bushman. Right.
    Mr. Graves. Right.
    Dr. Bushman. And aggressive acts, which we measure in the 
laboratory by doing things like having people give each other 
electric shocks or loud blasts of noise through headphones, or 
have people eat spicy hot sauce, or force somebody to stick 
their hand in ice cold water. That's how we measure aggression.
    So, in that study the measure of aggression was giving 
somebody a loud blast of unpleasant noise through headphones. 
That's the measure of aggression that we used.
    But, I would like to finish my comment that I think--you 
know, what can we do? You asked, what can we do without 
stomping down our amendment rights?
    Mr. Graves. No, my question was, do you believe if a youth 
does not watch a movie, play a video game, or read the Bible, 
are they less likely to commit a violent act?
    Dr. Bushman. Yeah, I think violent acts are very rare and 
determined by many risk factors, and these are just a few of 
the many risk factors for violence.
    Mr. Graves. Do you--and you mention media quite a bit, do 
you include books in that category?
    Dr. Bushman. There needs to be a lot more research about 
books. Hardly any research exists on books. There are a few 
studies on violent comic books, and those studies show that 
violent comic books at least increase aggressive thoughts. But, 
we need more research on books. There is not so much research 
on books.
    And the reason I talk about violence in the media is that 
is what I spent the last 30 years of my life doing. But there 
are other members of our committee who are experts in other 
areas, and you can find their comments in our report.
    Mr. Graves. Okay. Well, Mr. Chairman, I will wrap up and 
say that from my perspective I think this is in large part a 
responsibility of the family, the family unit, and particularly 
fathers of children. Just as you have indicated, you make 
choices for your family and the right way to rear them and I 
applaud you on that and I do the same for mine and I certainly 
don't want the Federal Government dictating how I must or must 
not do that.
    Mr. Wolf. Mr. Serrano.

                        IMPACT OF ACCESS TO GUNS

    Mr. Serrano. Thank you, Mr. Chairman. Mr. Chairman, you and 
I have been around here a long time and you longer than I and, 
not by long, not too much longer. And this hearing really 
explains and indicates what a dilemma this is, because you 
notice that the opening statement before a question by most 
members, and I am going to do the same thing, is longer than 
the question itself. And that is because we are conflicted.
    You know, I am a strong advocate for strong gun control 
laws. Yet, I am one who believes in freedom of speech enough to 
do whatever I have to do to protect it. And so I feel the need 
to say, `put on the market whatever game and let the parents 
control it.' But I know that there is a problem with some of 
these games being too violent and I wish either parent or 
government or something could come to an agreement on how to 
deal with them.
    But, you know, Mr. Culberson brought up a point, which--and 
he and I have discussed this in the past, and that is that, yes 
it is important and I am the first one to admit it and agree 
with it that there has to be a center in the family, faith-
based, if you will, that tells us what and how we have to 
behave.
    But, there is a contradiction in this country. I just told 
you that I am a contradiction when trying to deal with this 
conflict. There is a contradiction because some of the folks--
and I am not referring to him--but some of the folks who speak 
of having a Bible in the house and so on, are the same ones who 
after they read the Bible, speak ill of other people around the 
children and then wonder why the children grow up not liking 
some people.
    You are not going to see that more than in the next few 
months when we do, hopefully, immigration reform in this 
country. The verbal violence that you're going to hear on the 
radio and see on TV, verbal violence against those people, 
against them, against those ``illegals,'' is really going to 
make some people, I think, angry. Whether they will react to it 
or not, angry.
    I experienced some of that. Recently, two things happened 
to me in cyberspace on Facebook and Twitter which were very 
interesting. One was, that I have been putting in a bill since 
George Bush, the father, was President, saying that I don't 
believe in term limits for presidents, that I believe in people 
voting you out of office.
    So, I have this bill to do away with presidential term 
limits. Because President Obama is now President somebody found 
out about that and said I was going to destroy the Constitution 
and went berserk, and what I was called and where I was told to 
go was pretty, pretty violent verbally.
    Then, I didn't learn my lesson; when President Chavez 
passed away I said, ``President Chavez changed the conversation 
of Latin America to pay more attention to the poor.'' Even his 
opposition said that is true, oh my God.
    I also found out which of all the Latino groups people seem 
to be angriest at, because they kept telling me to get out of 
the country and go back to Mexico and I was born in Puerto 
Rico, but it shows you where people are at. And you're going to 
see that.
    So words, as we know, do have consequences and I think a 
lot of the folks who say that we have to have more religion, 
more faith, which I agree with, you know, control this, control 
that, also have to be responsible for the words they use. 
Because those words can hurt a lot of people and cause people 
to hurt others.
    And so, I, as I started out to say, am conflicted about 
just how much we do. So, let me ask you a question leading in 
this way. Do you think that there is a correlation between 
violent video games and the access to guns in this society?
    Dr. Bushman. That is one of the things we recommend funding 
for research, that we don't know but we need to know. We have 
some initial data that show that guns are appearing more and 
more in violent media as time goes on. You're more and more 
likely to see a gun. But we don't know that, and we recommend 
funding to do that kind of research to find out.
    Mr. Serrano. All right. You don't know, but do you have a 
sense about this? I mean, I want to know in your profession if 
you give out opinions without doing the research, you know.
    Dr. Bushman. Yeah, I am reluctant to do so.
    Mr. Serrano. Right.
    Dr. Bushman. I like to base my statements on data.
    Mr. Serrano. Now you, obviously, also, in all your studies 
come across the issue of freedom of speech and, you know, those 
things that we value in this country.
    Dr. Bushman. Right.
    Mr. Serrano. The ability to say what we wish and let others 
decide how to deal with it. Is it an issue of freedom of speech 
if we set out to control or put restrictions on the use or the 
sale of video games?
    Dr. Bushman. I think for adults, perhaps. But I think we do 
control what our children are exposed to, and I think for 
children that we have a responsibility to protect them.
    Mr. Serrano. Thank you. Mr. Chairman, I just realized 
something also, on those two issues, the presidential term 
limits and the Chavez comment, things have died down and I just 
brought it up, so it will probably start up again this 
afternoon. Thank you, Mr. Chairman.
    Mr. Wolf. Dr. Harris.

           RELATIONSHIP BETWEEN VIOLENT BEHAVIOR AND SUICIDE

    Dr. Harris. Thank you very much and thank you for appearing 
before us and I am going to apologize. I haven't been able to 
read the entire--my staff, unfortunately, didn't give it to me. 
Your staff was nice enough to give me the summary--the youth 
violence.
    But, let me ask you, because as I go through it, when I 
looked into the--and I--look, I have five children and three of 
them teenagers right now. When we look at violence it seems 
that you play down, because I looked for the word suicide in 
this report and I think it only appears once in the section on 
gun violence. Yet, we know that----
    Dr. Bushman. In comparative criminology.
    Dr. Harris. Oh, does it appear there also? Okay. So--but if 
we look at the word shootings and we look at other words that 
appear much more often and yet, when you look at the 
statistics, as you are well aware, between the age of 15 and 
19, homicide is the second leading cause of death, suicide the 
third. And there have been studies to show that perhaps up to 
three quarters of the homicides are gang related.
    So, if you set aside gang related homicides, I am pretty 
confident my children don't belong to a gang and I think the 
average person in their own household, since gangs are a very 
small minority of people, I think they want to say what about 
for non-gang related violence, suicide, in fact. If you 
consider the violent act against yourself--suicide is actually 
more common than homicide in teenagers; is that right?
    Dr. Bushman. Yeah, well----
    Dr. Harris. I am just--it appears----
    Dr. Bushman. Most scientists would not call suicide 
violence.
    Dr. Harris. And why would you not call taking your own life 
a violent action related to a lot of the preceding factors that 
you talk about here--self esteem, psychological illness? Why do 
we not consider that disrespect for life and the taking of it, 
a violent act?
    Dr. Bushman. I think it is just conceptually clearer to 
keep suicide in a separate category. It is not that scientists 
don't care about suicide or aren't studying suicide, but they 
define aggression as intentionally harming another person.
    Dr. Harris. Then why is suicide mentioned in--I mean----
    Dr. Bushman. Another living person.
    Dr. Harris. Yeah, I know. But you kind of bring it in. You 
kind of bring it in in two places you say, but by what you're 
saying now, you should academically keep them separate. You 
kind of want it in there----
    Dr. Bushman. No, we----
    Dr. Harris. I know it is an uncomfortable topic because 
look, it is a real problem among teenagers.
    Dr. Bushman. We talk about it in connection with many 
rampage shooters who, after killing others, kill themselves.
    Dr. Harris. We know, but the school related shootings are 
less than one----
    Dr. Bushman. Yeah, right----
    Dr. Harris. Less than one--so, again, you know, I know this 
was all brought about by a rampage shooting incident.
    Dr. Bushman. Right.
    Dr. Harris. But we would be missing an opportunity to delve 
into what is a real problem whispered about, worried about by 
parents, but not a high profile topic.
    Dr. Bushman. Yeah, I agree. It just wasn't a charge of our 
committee.
    Dr. Harris. Well--and is that because you don't consider--I 
mean, 40 percent of suicide deaths are firearm related, so it 
is not an insignificant number.
    Dr. Bushman. Right.
    Dr. Harris. So, under youth violence--so, do you perceive 
the charge of your committee was violence committed against 
another person----
    Dr. Bushman. Yes.
    Dr. Harris. Not just violence itself?
    Dr. Bushman. Yes. Violence committed against another 
person.
    Dr. Harris. You know, I am just going to say I think, you 
know, you miss an opportunity there. I will just--again, and I 
thank you for agreeing that more study needs to be done with 
regards to anchoring in a faith that perhaps would lend more 
respect for life and the need to see whether that--how it is 
related. Again, I am going to share this point, Mr. Culberson, 
because I did look through this and I don't see any indication 
of it as an area for future study, but I thank you for agreeing 
to it in your verbal testimony, that perhaps it was just an 
omission from the document.
    I think that is something we should--again, it is something 
we don't like talking about. Because, you know, it is religion 
and it is, you know, should the State be involved in this?
    Look, it is--just as a scientist you and I both know that 
as scientists we don't worry about talking about--we shouldn't 
worry about talking about uncomfortable things.
    Dr. Bushman. Right.
    Dr. Harris. And I think that is worth looking at for the 
reasons that have been brought up. Now, it may turn out that 
there is no correlation, but we should know it.
    Dr. Bushman. Well, I have done experimental studies myself 
showing that prayer can reduce anger and aggression. So, 
personally I have done it, but I agree that more research is 
needed.
    Dr. Harris. Thank you very much. And thank you, Mr. 
Chairman, for bringing this topic up. It is a--again, to 
parents and grandparents, it is a critical topic and, you know, 
moms and dads, grandmas, grandpas around the country, they 
worry about this. They really do. And any light we can shed on 
it to prevent violence--again, I would urge that we do group 
suicide into violent behavior, because I think it does have the 
same roots and origins, as you can imagine, with aggression 
against others, aggression to yourself. And it would be--I 
think we would miss an opportunity. But, thank you, Mr. 
Chairman.

          ROLE OF VIOLENT VIDEO GAMES IN RECENT MASS SHOOTINGS

    Mr. Wolf. Okay. Thank you, Dr. Harris. I recently read in a 
New York Daily News article that Adam Lanza plotted the Sandy 
Hook shooting for years on a seven foot long, four foot wide 
spreadsheet. I quote, ``They don't believe this was just a 
spreadsheet, they believe it was a score sheet.'' The cop, who 
wished not to be identified, continued, ``This work was the 
work of a video gamer, and it was his intent to put his own 
name at the very top of the list.'' They believe that he picked 
an elementary school because he felt it was a point of least 
resistance where he could rack up the greatest number of 
``kills.'' That is what the Connecticut Police believe.
    I am aware that you have also seen the report. Can you 
comment on this?
    Dr. Bushman. Well, we don't know for sure what cause--it is 
a troubling comment, and violent video games have been 
implicated in previous school shootings. But in terms of 
drawing cause-effect statements, it is not possible to know if 
playing violent video games caused Adam Lanza to do what he 
did. But we do know that they're correlated--playing violent 
games is correlated with violent behavior, such as choking and 
punching and beating and threatening people with guns and even 
using guns against others. And we know that it causes less 
serious forms of aggressive behavior. But I don't know if it 
caused him to do what he did.
    Mr. Wolf. Of the mass shootings, have video games been 
mentioned as a part of all of them?
    Dr. Bushman. Well, there have been--I think our report 
includes a list, Columbine High School----
    Mr. Wolf. What was the involvement of video games at 
Columbine?
    Dr. Bushman. Well, Klebold and Harris, apparently, created 
their own customized version of ``Doom'' with two shooters who 
had unlimited weapons and unlimited ammunition and all the 
victims were unarmed.
    Mr. Wolf. What are the other ones?
    Dr. Bushman. Bethel, Alaska; Paducah, Kentucky----
    Mr. Wolf. Do what they----
    Dr. Bushman. I don't have that information.
    Mr. Wolf. Give us the list.
    Dr. Bushman. Bethel, Alaska; Paducah, Kentucky; Jonesboro, 
Arkansas; and most recently Newtown, Connecticut within our 
country. And then in Norway, Anders Breivik, and also in France 
there was a case----
    Mr. Wolf. What was the Norwegian--I had seen something 
about that. What was the involvement of video games in the 
Norwegian killings?
    Dr. Bushman. Well, he specifically said that he used the 
video game ``Modern Warfare 2'' to improve his shooting skills. 
To practice as a training and simulation tool.
    Mr. Wolf. We know that Adam Lanza may have been emulating a 
video game as he moved room to room at Sandy Hook. Do you think 
that as youth struggling with mental illness, these shooters 
were more vulnerable to violent media effects?
    Dr. Bushman Yeah, the data we have indicate that some 
people are more vulnerable than others, but we need to do more 
research on the topic.
    Of course, it is unethical to do laboratory experiments on 
the topic, because it is not ethical to expose vulnerable 
people to potentially harmful violent video games. But, we can 
measure their exposure, what they do, and measure their mental 
illnesses and see if there is a relationship between the two.

  TESTING FOR A CONNECTION BETWEEN VIOLENT MEDIA AND VIOLENT BEHAVIOR

    Mr. Wolf. Your specific research interests are focused on 
relations between exposure to violent media and subsequent 
aggressive or violent behavior. Your findings, as well as 
others as described in the report, show that a definite link 
exists between violent video games and aggressive thoughts, 
feelings, and behaviors. How did your research establish that 
link?
    Dr. Bushman. Yeah, well we reviewed every scientific study 
conducted on the topic--and every study has a quantitative 
affect such as a correlation--and we averaged the correlations 
across those studies.
    Mr. Wolf. And how strong is that link?
    Dr. Bushman. I think the average correlation was about .20, 
like I explained before.
    Mr. Wolf. Can you elaborate on the difference between 
saying that there is a link or a relationship between exposure 
to violent media and violent behavior and saying that one 
causes the other?
    Dr. Bushman. Absolutely. The only type of study that allows 
you to make cause-effect statements is an experimental study. 
And in an experimental study, we don't ask people if they want 
to play a violent game or a non-violent game, because if we did 
different types of people may choose to play the violent game. 
And if they're more aggressive afterwards, we don't know if it 
is because of the kind of person they were or the game they 
played.
    And so, instead what we do is we choose the games, usually 
there are six violent games, six non-violent games. And we flip 
a coin to determine whether they play a violent or non-violent 
game and then roll a die to determine which one they play. And 
that way you cannot say, oh, all the aggressive people played 
the violent game because you flipped a coin to determine what 
game they played. So, there's a 50/50 chance that they played a 
non-violent game. Or you can't say all the people with mental 
problems played the violent game, or all the people with low 
cognitive skills played the violent game.
    On average, on every single dimension you can imagine, 
those groups should be equal, especially if you have a large 
number of participants. Most of our experiments have 200 
people, maybe 100 play a violent game, 100 play a non-violent 
game. Then you treat the groups identically. You're not nice to 
the non-violent game players and mean to the violent game 
players. You have standardized procedures and you treat the 
groups identically. The only difference is the game they play, 
and then you measure their behavior afterwards to see if the 
violent game players are more aggressive, such as shocking 
another person or blasting them with loud noise or getting into 
fights out on the playground, or if they're the same. You see 
different levels of aggression after they play the game. The 
only thing that could have caused that difference is the game 
they played or a random fluke.
    And scientists are very careful to do stringent, 
statistical tests to minimize the likelihood of random flukes.

      RECONCILING CONFLICTING SCIENTIFIC RESULTS ON VIOLENT MEDIA

    Mr. Wolf. We often hear assertions that in the media that 
exposure to violent video games has nothing to do with violent 
behavior. There are individual researchers who make this 
argument, and last year the Supreme Court held that any 
correlation between the two is small and indistinguishable from 
the impact of other factors. Why do you believe that your 
research findings are correct and these other findings are 
wrong?
    Dr. Bushman. I can't imagine how the U.S. Supreme Court 
could have made that decision, because I personally sent our 
meta-analysis to every single Justice of the Supreme Court. So, 
I am not sure. Of course, they are not scientists and they are 
not in a position to evaluate scientific evidence, but I don't 
know how they could make such a claim.

     POLICY PRESCRIPTIONS FOR DEALING WITH IMPACTS OF VIOLENT MEDIA

    Mr. Wolf. Many previous attempts to address the problem of 
violent video games have run into Constitutional problems and 
First Amendment concerns. Are there practical steps that you 
are aware of to mitigate the negative effects of violent video 
games without running into Constitutional concerns?
    Dr. Bushman. I think there are things that we can do as a 
society. I was trying to explain earlier to Mr. Rooney that in 
the Netherlands there is a universal rating system for TV 
programs, video games, movies, and I have been to the place 
that does the ratings. First of all, they are not industry 
assigned. They are assigned by professional raters who play the 
games and give it a rating. And there are child development 
experts on the panel who are consultants. So, it is not a 
rating assigned by the industry.
    They say that we have two goals, Number one, to inform 
parents. Number two, to protect children. And it is very 
simple. They have ``plus 12'' for 12 and older; ``plus 16'' for 
16 and older, for every form of media. If there is violence on 
it they have a fist, If there is profanity, they have a bubble 
with characters in it. And it is very easy for parents to 
understand these ratings.
    In America, it is like alphabet soup. There is R for 
movies, TV MA for television, MBG for mild blood and gore. Most 
Americans, you ask a parent, what does TV MA mean? I don't 
know. And that rating is only on the TV program for 30 seconds. 
In the Netherlands it is on the corner the whole time. So, a 
parent can walk in the room any time and see what the rating of 
that program is or the video game their child is playing or the 
movie they are watching.
    The Surgeon General in 1972 issued a warning on violent 
television programs. We know the Surgeon General in '64 issued 
a warning on tobacco products. Yet, the Surgeon General warning 
is on every tobacco product, and there is no Surgeon General 
warning on any violent media product. I am not sure why.
    Also, we could have media literacy programs to teach 
children to be more intelligent consumers of media.
    Mr. Wolf. So, you may have some lobbyists out here who are 
paid very well by the electronic gaming industry. I assume some 
of these great reporters that we have here are going to tell 
the fair and objective report. What message, because you said 
the two purposes were, one, to what? To help the----
    Dr. Bushman. To inform parents.
    Mr. Wolf. Now, I think everyone would be--you would hope 
the industry would want to inform parents.
    Dr. Bushman. But I think they confuse parents.
    Mr. Wolf. But we would think that----
    Dr. Bushman. Hopefully, yes.
    Mr. Wolf. And what is the other one?
    Dr. Bushman. To protect children.
    Mr. Wolf. To protect children. So, you would think everyone 
would want to protect children.
    Dr. Bushman. I would hope so.
    Mr. Wolf. We're not really talking about 21-year-old 
people, are we?
    Dr. Bushman. No.
    Mr. Wolf. We are talking about children.
    Dr. Bushman. That's right.
    Mr. Wolf. Okay. So, why would the industry be opposed to 
doing that?
    Dr. Bushman. Having a universal rating system? I don't 
know.
    Mr. Wolf. Who is with the industry here? Raise your hand. 
Is there anybody--are any of you lawyers that are representing 
the industry here? Should we swear in a whole panel and put you 
under oath? For some reason I don't completely believe you. Why 
would they be opposed, though, to protecting children? You're 
really telling me that we are not talking about, a 21 year 
old----
    Dr. Bushman. No. An 18 year old, 18 and above, yes.
    Mr. Wolf. So, we are talking about a 12 and 13----
    Dr. Bushman. Yeah, any child under 18.
    Mr. Wolf. Why would the industry be opposed to that?
    Dr. Bushman. I think because mainly they care about money 
rather than those issues. I know that when Jack Valenti was 
still alive, I sent him all the research evidence about ratings 
and recommended a universal rating system after the 1994 
Telecommunications Act when they were deciding about what kind 
of ratings to put on television programs. I said, at least make 
them the same as movies, so parents know what the ratings are. 
But instead they came up with totally different system that 
parents don't understand.
    Mr. Wolf. So, that would be more helpful for a parent 
because then it would be uniform----
    Dr. Bushman. Yes.
    Mr. Wolf. Does anybody out here want to get up and take the 
industry position on why they would be opposed to this? I mean, 
as a father of five and a grandfather of 16, why would they be 
opposed to that?
    Dr. Bushman. I am not sure. The industry doesn't talk to 
me. They hate me, I think.
    Mr. Wolf. We know that violent video games have played a 
role in some of these large tragedies. I think that Congress 
ought to do what it can to stop this, and I think your point is 
well taken. We're talking about young people. We're not talking 
about 18 year olds, we're not talking about 21 year olds, 25. 
And to give the parents more and more information is very 
important.
    So, I have some more questions, but I think that makes the 
point that I wanted to make. I appreciate you----
    Dr. Bushman. Sure. My pleasure.
    Mr. Wolf [continuing]. Testimony. I appreciate the NSF, and 
if you would also thank the other panel members for their 
participation.
    Dr. Bushman. Absolutely. Yes, will do.
    Mr. Wolf. And with that, I see the place is empty.
    Dr. Bushman. Okay.
    Mr. Wolf. The hearing is adjourned. Thank you.
    Dr. Bushman. Okay. Thank you.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 INDEX

                              ----------                              

             National Aeronautics and Space Administration
      Maj. Gen. Charles F. Bolden, Jr., USMC (ret.), Administrator

                                                                   Page
Arc-Jet facility................................................. 40-42
Arecibo Observatory.............................................. 28-31
Center for the Advancement of Science in Space................... 15-16
Collaboration across agencies....................................    17
Commercial crew...............................................39-40, 46
Compliance with statutory authorities............................    12
Cooperation with China........................................... 44-48
Cost and schedule control........................................ 34-35
Destination of retired orbiters.................................. 42-43
Excess property.................................................. 38-39
FY 2013 appropriations concerns.................................. 18-19
Flight Opportunities Program..................................... 25-26
Foreign espionage threat.........................................    11
Heavy list rocket and Multi-Purpose Crew Vehicle..............20-21, 26
Independent external security review............................. 11-12
Inspector general................................................ 44-45
Multi-year budget................................................ 26-28
NASA Space Act Agreements........................................ 31-34
NASA's education program......................................... 17-18
Opening statement:
    Gen. Bolden..................................................  4-10
    Mr. Fattah...................................................     3
    Mr. Wolf.....................................................   1-4
Planetary science................................................ 21-25
Questions for the Record:
    Mr. Aderholt.................................................95-117
    Mr. Culberson................................................ 92-95
    Mr. Serrano..................................................   117
    Mr. Wolf..................................................... 49-92
Security controls at NASA centers................................ 12-15
Sequestration implementation..................................... 35-36
Weather satellites............................................... 36-38
Working with a flat funding profile.............................. 43-44

   National Aeronautics and Space Administration Office of Inspector 
                                General
            The Honorable Paul K. Martin, Inspector General

Allegations of security violations at the Ames Research Center...   132
Allegations of security violations at the Langley Research Cente132-139
Budgeting for the Space Launch System...........................151-152
Conference expenditures..........................................   149
Cost and schedule performance...................................146-149
Cost savings from commercial spaceflight.........................   146
Improving information technology security governance.............   144
Information on information technology security threats..........153-154
James Webb Space Telescope......................................141-142
Laptop encryption at NASA centers...............................139-141
Maintaining leadership in space.................................150-151
NASA strategy for improved infrastructure management...134-135, 142-147
Opening statement:
    Mr. Fattah...................................................   120
    Mr. Martin..................................................120-128
    Mr. Wolf....................................................119-120
Questions for the Record:
    Mr. Aderholt................................................162-165
    Mr. Wolf....................................................156-162
RIF bans.........................................................   149
Security allegations at the Ames Research Center................152-153
Threat to NASA form Chinese espionage..................129-131, 154-155
Use of Space Act Agreements.....................................146-147

                      National Science Foundation
                       Dr. Subra Suresh, Director

Allegations of wasteful grants..................................178-180
Correlation between media violence and aggressive behavior......219-221
Earthquake research.............................................196-197
H1B visas.......................................................193-196
Impact of access to guns........................................224-225
International competition in research and development...........185-186
Legacy of Dr. Suresh's tenure at NSF............................188-191
Management of cooperative agreement.............................191-182
NSF's rapid response report on youth violence...................199-201
Neuroscience....................................................186-187
Opening statement:
    Dr. Bushman.................................................202-214
    Dr. Suresh..................................................168-177
    Mr. Fattah...................................................   168
    Mr. Wolf....................................................167-168
Policy prescriptions for dealing with the impacts of violent 
  media.........................................................230-231
Predicting violent behavior.....................................221-223
QFRs for Dr. Bushman:
    Mr. Aderholt................................................248-252
QFRs for Dr. Suresh:
    Mr. Aderholt................................................252-254
    Mr. Serrano.................................................254-257
    Mr. Wolf....................................................232-248
Rampage shootings vs. more general violence in society..........215-216
Reconciling conflicting scientific results on violent media......   229
Relationship between violent behavior and suicide...............225-227
Religion as a protective factor against violence................217-218
Retaining the results of federally funded research..............180-185
Role of violent video games in recent mass shootings............227-228
Support for large research facilities...........................197-199
Testing for a connection between violent media and violent 
  behavior......................................................228-229
Trends in violent crime and violent media.......................218-219

</pre></body></html>
